<html>
<title> - BUILDING CAPABILITIES: THE INTELLIGENCE COMMUNITY'S NATIONAL SECURITY REQUIREMENTS FOR DIVERSITY OF LANGUAGE, SKILLS, AND ETHNIC AND CULTURAL UNDERSTANDING</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Publishing Office]



 
          BUILDING CAPABILITIES: THE INTELLIGENCE COMMUNITY'S 
            NATIONAL SECURITY REQUIREMENTS FOR DIVERSITY OF 
        LANGUAGE, SKILLS, AND ETHNIC AND CULTURAL UNDERSTANDING

=======================================================================

                                HEARING

                               before the

               PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                      ONE HUNDRED EIGHTH CONGRESS

                               __________

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2003

                               __________

 Printed for the use of the Permanent Select Committee on Intelligence






                      U.S. GOVERNMENT PRINTING OFFICE

90-835                        WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001






               PERMANENT SELECT COMMITTEE ON INTELLIGENCE



                   PORTER J. GOSS, Florida, Chairman
DOUG BEREUTER, Nebraska, Vice        JANE HARMAN, California
    Chairman                         ALCEE L. HASTINGS, Florida
SHERWOOD BOEHLERT, New York          SILVESTRE REYES, Texas
JIM GIBBONS, Nevada                  LEONARD L. BOSWELL, Iowa
RAY LaHOOD, Illinois                 COLLIN C. PETERSON, Minnesota
RANDY ``DUKE'' CUNNINGHAM,           ROBERT E. (BUD) CRAMER Jr., 
    California                           Alabama
PETER HOEKSTRA, Michigan             ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RUSH D. HOLT, New Jersey
TERRY EVERETT, Alabama               C. A. DUTCH RUPPERSBERGER, 
ELTON GALLEGLY, California               Maryland
MAC COLLINS, Georgia                 NANCY PELOSI, California, Ex 
J. DENNIS HASTERT, Illinois, Ex          Officio
    Officio
HEARING ON BUILDING CAPABILITIES: THE INTELLIGENCE COMMUNITY'S 
   NATIONAL SECURITY REQUIREMENTS FOR DIVERSITY OF LANGUAGE, 
         SKILLS, AND ETHNIC AND CULTURAL UNDERSTANDING



                              ----------                              



                      WEDNESDAY, NOVEMBER 5, 2003.

                     U.S. House of Representatives,
                Permanent Select Committee on Intelligence,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9 a.m., in room 
2212, Rayburn House Office Building, the Honorable Porter Goss 
(chairman of the committee) presiding.
    Present: Representatives Goss, Boehlert, Gibbons, Hoekstra, 
Harman, Hastings, Reyes, Boswell, Cramer, Eshoo, Holt, and 
Ruppersberger.
    Staff present: Patrick Murray, Staff Director; Merrell 
Moorhead, Deputy Staff Director; Mike Fogarty, Counsel; Claire 
Young, Chief Clerk; William P. McFarland, Director of Security; 
Brandon Smith, Systems Administrator; Barbara Bennett, 
Professional Staff; Patrick Kelly, Legislative Counsel/
Professional Staff; Abigail Sullivan, Staff Assistant; Mike 
Kostiw, Staff Director, Subcommittee on Terrorism & Homeland 
Security; Suzanne Spaulding, Minority Counsel; Wyndee Parker, 
Counsel/Professional Staff; Elizabeth Larson, Professional 
Staff; John Keefe, Professional Staff; Bob Emmett, Professional 
Staff; and Courtney Anderson, Staff Assistant.
    The Chairman. Good morning, ladies and gentlemen. I will 
call the hearing to order, but note that unfortunately 
Republicans every Wednesday morning have a conference scheduled 
at 9 o'clock. And normally we would not call a hearing in 
conflict with that, but this was the only time we could get the 
real estate. As most folks know, this committee generally meets 
in the Capitol in executive session, and our spaces aren't 
sufficient for public hearings. So that is why we find 
ourselves in these circumstances. I know my colleagues will be 
along after they get through their other obligations.
    I start by saying good morning, everybody, and thank you 
for coming. We will try to do something about the temperature 
in the room, which I understand is way too warm right now. We 
welcome everyone here today to what we think is an important 
hearing examining the national security requirement for 
diversity of languages, skills, and ethnic and cultural 
understanding within the Intelligence Community.
    I think today we have got the right people in the right 
places to talk about this, and it is my desire that the 
Intelligence Community have the right people in the right place 
at the right time to be able to do the job that is necessary 
for national security, and that means in a broad globe that has 
got a lot of hot spots and problems in it, that we are going to 
have a lot of need for a lot of capacity, which we presently 
apparently do not have in sufficient quantity.
    There are some who come this morning, I know, with the idea 
that this is an investigation into discrimination or any kind 
of wrongdoing in the community. That could not be farther from 
the truth. Obviously in our oversight capacity, we are very 
concerned that there never be discrimination. That is against 
the law, it is against our standards. And if there were any 
matters of that type, those will be handled immediately, and I 
think efficiently, by our staff. So we are not starting what I 
would say on a negative note. We are trying to start on a 
positive note about what are the skills and mixes we need in 
our Intelligence Community, and how do we get to them. And it 
is in that vein I ask the panelists to address the committee.
    We have a full schedule this morning. In an effort to 
maximize the time we have to do this, I am going to limit 
opening remarks. We are fortunate to have two full panels of 
witnesses with us today. I look forward very much to hearing 
from each of our witnesses.
    The first panel is comprised of representatives from the 
Intelligence Community. They will provide an update on the 
status of their efforts to maximize the recruitment programs 
and strategic hiring and their efforts to retain and promote 
within their ranks those employees who bring particular talents 
to the table. These are the people with the language skills, 
ethnic and cultural understanding of their target sets.
    The second panel of witnesses is comprised of a broad range 
of professionals from outside the Intelligence Community and 
outside the government who will provide their individual 
perspectives on how their organizations have addressed similar 
issues in the nongovernment context.
    Given the time constraints this morning, each of the 
witnesses on both panels will be asked to limit their remarks 
to 5 minutes. This is required so all witnesses will have the 
opportunity to testify, so Members each will be given an 
opportunity to pose questions. We will first hear from all of 
panel one witnesses and then proceed to questions for panel 
one. At the conclusion of questions and answers for the first 
panel, which will be halfway through the time, we will proceed 
to the second panel.
    I want to thank you all in advance for your time and 
attention to these issues. Panel one witnesses will be free to 
leave after their question-and-answer period if their schedules 
require or they so desire.
    That about covers the administrative remarks I need to 
make. Let me briefly turn to the reason we are here again.
    This is an important hearing in the ongoing discussion of 
sufficiency of intelligence and capabilities which are usually 
held in closed session. I would like our focus to be on three 
main areas of interest. First I hope we will discuss the 
national security imperative for diversity and language skill 
sets and ethnic and cultural understanding. It is obvious to 
me, given our extensive and continuing interest in Iraq, 
Afghanistan, the Middle East, Indonesia, the Pacific Rim, the 
Balkans, Africa, Latin America and many other places, that the 
Intelligence Community has a pressing need for such diversity 
in the collection and analytical requirement. The Intelligence 
Community for many years has been working to address this 
requirement.
    There is no doubt that the Intelligence Community must 
anticipate and respond to the actions of an extremely complex 
and heterogeneous target set. Success in collecting against 
these targets is inextricably linked to the success of the 
efforts within the Intelligence Community to expand its 
language capability skill set and its ethnic and cultural 
understanding of those very targets. Both intelligence 
collection and intelligence analysis benefit from each of these 
factors; the ultimate beneficiary, however, the American 
people, security we care about.
    Second, which relates to the first, it is important to hear 
from the Intelligence Community about the progress it has made 
in recruiting, hiring, retaining and promoting the people whose 
diversity of languages, skills or cultural understanding 
enriches and deepens the Intelligence Community's ability to 
succeed in defense of America's national security interest.
    I believe that the most important factor in intelligence 
collection is the human factor. Everybody has heard me say that 
a number of times. It is people that make the business work. 
Today, perhaps more than ever before in our history, it is 
critical that the Intelligence Community recruit and hire only 
the highest quality intelligence officers and analysts, train 
and develop these officers and analysts to the highest 
standards of professionalism, and retain and promote only the 
very best intelligence professionals meeting the highest 
professional standards and manifesting the necessary 
capabilities. To this end the Intelligence Community must 
develop and maintain a workforce diverse in language skill and 
ethnic and cultural understanding. Without this, the 
Intelligence Community simply cannot achieve its mission, steal 
secrets, inform policymakers of the consequences. In doing so, 
the Intelligence Community must reflect the world in which it 
operates.
    Finally, it is important for the Intelligence Community to 
be an attractive employment opportunity for all people across 
this plentiful and bountiful Nation. Based on the testimony 
expected from panel one, it seems to me that the administration 
understands this clearly. They ought to be commended for their 
efforts. They cannot, however, rest on progress made to date. 
Those improvements must continue because the Nation's security 
depends on it.
    The Chairman. Before I introduce panel one, I would like to 
turn to Ranking Member Ms. Harman for comments she may wish to 
make.
    Ms. Harman. Thank you, Mr. Chairman. I would like to 
welcome good friends on the witness panel, and thank you for 
bipartisan cooperation on what will now be our fourth public 
hearing this fall. This is unprecedented for the House 
Intelligence Committee. We have had two public hearings on 
civil liberties, one on this topic, and one on prewar 
intelligence on Iraq where we had several former Directors of 
Central Intelligence and the former Deputy Secretary of 
Defense.
    Before several Members just arrived, Mr. Holt and Mr. 
Boehlert, I was going to comment our side of this dais included 
one African American, the first African American elected to 
Congress from Florida; one Hispanic, the first elected from his 
part of Texas, which has an overwhelming Spanish population, 
and first to rise in the senior ranks in the Border Patrol; and 
two women elected in 1992 in the year of the woman. We doubled 
the number of women in the House. And now we have a few of the 
more historical Members of Congress. But my point is similar to 
yours, Mr. Chairman, that we can no longer expect an 
Intelligence Community that is mostly male and mostly white to 
be able to monitor and infiltrate suspicious organizations or 
terrorist groups. We need spies that look like their targets, 
CIA officers who speak the dialects that terrorists use, and 
FBI agents who can speak to Muslim women that might be 
intimidated by men, and this is a hearing about that. It is 
about capability.
    I am planning to share my brief remarks with Mr. Hastings, 
but just want to express some concern about developments we 
learned of late yesterday. We learned that the honorable Jose 
Fourquet, United States Executive Director of the Inter 
American Development Bank, who was scheduled to appear on our 
second panel, has been advised by officials at the Department 
of Treasury not to appear. Last night we also learned that 
testimony submitted to the committee by several of the 
witnesses on panel one was being recalled for further review by 
the Department of Justice and OMB. This is after their 
testimony had initially been reviewed and okayed.
    These developments obviously are troubling because they 
appear to be an attempt to muzzle these agency heads. And the 
question is what were these witnesses going to say that was so 
worrisome, and how has their testimony been chilled, or has it 
been, by this effort? And most importantly, what does this say 
about the level of the support in this administration for a 
serious effort to bring greater diversity to the Intelligence 
Community workforce? I am concerned, and I am sure these 
witnesses will enlighten us when they speak.
    Without going further, I want to commend you, Mr. Chairman, 
for agreeing to hold this important hearing, and it is my honor 
to yield the remainder of my time to Mr. Hastings.
    Mr. Hastings. I thank my good friend Ms. Harman for 
yielding her time and her vigorous effort to make sure that 
this diversity effort is pursued. Without your effort, I doubt 
very seriously we would be this far along the path, and that 
goes to the chairman as well, who has consistently listened to 
us and tried to bring about a better understanding with 
reference to diversity.
    Also, it is a pleasure to work with my colleagues Silvestre 
Reyes and Anna Eshoo and Rush Holt, who have had sensitivities 
expressed in this area on a continuing basis. And I would be 
terribly remiss if I did not mention the extraordinary work 
done by Louis Stokes and Julian Dixon and Nancy Pelosi and Tim 
Roemer, some of our predecessors who pressed this issue on a 
continuing basis. And not to exclude anybody here, but Sherwood 
Boehlert takes no back seat to any of us when it comes to 
exploring opportunities for all in our society.
    Shortly after joining the Intelligence Committee in 1999, I 
was disappointed to learn that the presence of women and 
minorities remains proportionately below their representation 
in the Federal and civilian labor force. In addition, I also 
found that the number of minorities in feeder pools possessing 
the skills needed for career advancement was disproportionately 
small, and that continues to be the case and is an important 
point that I would hope that the witnesses will address. While 
strides have been made to increase intelligence workforce 
diversity, these trends have unfortunately not been reversed.
    In order to help the committee better understand this 
issue, I hope that our government witnesses will answer some of 
the following questions: What training programs have been 
instituted to build core mission competencies across 
disciplines, and how do you ensure that all employees are given 
the opportunity to take advantage of these programs? To what 
degree are you holding managers accountable for increasing 
diversity and overall competencies of your entire workforce? 
What specific challenges exist to implementing the DCI's 
diversity strategic plan, and how have you addressed those 
challenges?
    I hope that our second panel of outside experts will 
provide insight into the best management practices of the 
private sector that might serve as a model for the Intelligence 
Community.
    Over the course of my tenure on the Intelligence Committee, 
I have had the pleasure of meeting hundreds of America's 
intelligence professionals. They are bright, talented and 
dedicated to helping our Nation maintain its strategic 
advantage. Indeed, they are our Nation's most important 
intelligence resource. Building an intelligence apparatus 
flexible enough to meet evolving national security requirements 
requires greater investment in recruiting, training and 
retention initiatives. The community must not only rely on 
traditional methods--and any more of you tell me about going to 
a college to recruit, I am going to tell you where you can find 
some other people other than at a college that can do what you 
do, but you must employ innovative methods used by others, 
including private corporations.
    Success also requires strong, focused leadership on the 
part of the Director of Central Intelligence and the heads of 
each agency, including the two here today, General Clapper and 
Mr. Teets, both of whom I have great respect for. Sustained 
commitment today will pay dividends in the future.
    One final comment, Mr. Chairman, all the time when we 
recruit in this arena, it seems we go recruiting people that 
are, for lack of a better expression, A students. I believe I 
can do what George Tenet does, and I was a C student.
    The Chairman. Thank you.
    The Chairman. With regard to the concern about the panel, 
my understanding is that there was one witness, Mr. Fourquet, 
who was not exactly on the subject on what we are talking about 
and has offered to talk to the staff with any observations he 
might have, but that the Treasury Department felt that the 
subject matter was not appropriate for him as our witness. He 
is happy to talk to us. I am not aware of any attempts to 
stifle anybody's first amendment rights.
    Mr. Reyes. Mr. Chairman, if I could shed some light, 
because he was one of the individuals that I actually went out 
and asked to come and testify. He was exactly on this issue and 
on target. I think the concern that at least was expressed to 
me--and I have to say that I object that less than 24 hours--
with less than 24 hours notice, we are told that a member that 
was--or an individual that is supposed to testify before this 
committee had been pulled by the administration.
    The Chairman. Well, I will be happy to look further into 
the matter. My understanding was that the testimony had not 
been checked, or there was some question about whether he was 
speaking on behalf of himself or speaking on behalf of the 
Bureau of the Treasury, and I think that that needs to be 
sorted out. I apologize to you if he was your choice witness. 
We pick our witnesses on what we think will be the committee's 
best step forward, and we will look into that.
    With regard to the other matters, I am advised somewhat on 
some legalese there is a problem, which I will just read. It is 
our understanding that yesterday evening's testimony of the 
panel one witnesses were reviewed by the White House counsel 
and DOJ Office of Legal Counsel in order to ensure that the 
administration's position on these issues was accurately 
represented. We understand the executive branch needs to speak 
consistently on these issues given the legal positions the 
administration has taken before the United States Supreme Court 
Michigan case Grutter v. Bollinger and other pending and 
related legal matters. Justice Department will be representing 
the government in a number of legal cases in the future, and 
any statements not consistent with the administration's 
position can be used against the government in court, and the 
resulting review yesterday evening was done in regard to such 
concerns.
    I note that we still have five witnesses of the first panel 
in front of us, so I gather their testimony passed muster and 
was consistent with the administration's worries about cases 
that might be brought in court on anything relevant to this 
issue. It is a shame that we have to go through all this kind 
of stuff when we have good witnesses in front of us and rehash 
all these things, and I am sure everybody's motives are 
extremely pure on it, but I believe it is important now to get 
to the business of the committee.
    And I am going to introduce Mr. Don Cryer, Special 
Assistant to the Director for Diversity Plans and Programs for 
the Community Management Staff within the Office of Director of 
Central Intelligence, and as such is speaking on behalf of DCI 
for the CIA as well as the community management staff.
    Mr. Cryer, did I portray that accurately?
    Mr. Cryer. Yes, sir.
    The Chairman. Honorable James Clapper, Director of the 
National Imagery and Mapping Agency. Prior to his appointment 
he was vice president and director of intelligence programs at 
SRA International. General Clapper's last military appointment 
was as Director of the Defense Intelligence Agency. He is well 
known to us. Welcome, General Clapper.
    Honorable Peter Teets is the Under Secretary of the Air 
Force as well as the Director of the National Reconnaissance 
Office. As the Director of the NRO, he is responsible for the 
acquisition and operation of all U.S. Space-based 
reconnaissance and intelligence systems. This includes the 
National Reconnaissance Program. He reports directly to the 
Secretary of Defense and the Director of Central Intelligence.
    Mr. Teets, good morning, sir.
    Honorable William Black, the Deputy Director of the 
National Security Agency, has almost 40 years of experience at 
the NSA, retiring from NSA in 1997. Prior to returning to NSA, 
Mr. Black was assistant vice president and director of 
information operations in the advanced technologies, SAIC. 
Welcome.
    Mr. Armando Rodriguez, who is behind Mr. Teets only because 
there is not sufficient room at the table--I am sorry about 
that. He will come forward to make his presentation at this 
time. He is the Defense Intelligence Agency Chief of the Office 
of Diversity Management and Equal Opportunity, prior to which 
he was Deputy Assistant Secretary for Diversity Management and 
Equal Employment Opportunity at the Department of Veterans 
Affairs.
    And that--I think that is it for the first panel.
    I want to seriously look at you and welcome you all and 
thank you for coming up. This is a matter of great concern to 
us for all of the reasons you have heard expressed. You 
understand there are different concerns. Many of us, for 
obvious reasons, come at it from different platforms. What we 
want to get is the right answer and make sure that the work 
that this committee does is in pursuit of that.
    I trust that there is nobody here who feels constrained or 
muzzled. If they do, I invite you to say so at the time you 
make your presentation.
    We will start with Mr. Cryer.

 STATEMENT OF DON CRYER, SPECIAL ASSISTANT TO THE DIRECTOR OF 
 CENTRAL INTELLIGENCE FOR DIVERSITY MANAGEMENT, ACCOMPANIED BY 
 RACHEL STROUD, DEPUTY TO MR. CRYER; JAN KARCZ, OFFICE OF THE 
  ASSISTANT DIRECTOR OF CENTRAL INTELLIGENCE FOR ANALYSIS AND 
 PRODUCTION; AND HAROLD TATE, DIRECTOR OF RECRUITMENT, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Cryer. Thank you, Mr. Chairman. We appreciate the 
opportunity to share with the committee community efforts to 
build and retain a workforce with the diversity of language and 
skills, ethnic and cultural understanding critical to meeting 
the global challenges and threats facing our Nation.
    The events of 11 September and the war on terrorism have 
intensified the requirement for a creative, high-performing, 
diverse cadre of professionals. As the Special Assistant for 
the DCI for Diversity Management, I can confidently say that IC 
agencies are devoting major effort and resources and 
collaborating at unprecedented levels to ensure that we build, 
develop the talent we need to get the mission accomplished.
    Less than 2 months ago, I had the privilege of testifying 
before the Subcommittee on Intelligence Policy and National 
Security regarding communitywide initiatives to attract and 
retain a diverse workforce. Today we will expand on that 
testimony.
    Several communitywide initiatives have been developed in 
anticipation of the requirement for a diversity pilot project 
contained in the House version of the fiscal year 2004 
intelligence authorization bill. For example, we are building a 
four-element retention strategy designed to accelerate the 
development of new workers and to sustain high performance 
throughout the workforce. The DCI will establish a special 
panel of diverse leaders to recommend strategies to ensure that 
we have the diversity of talent, skills and perspectives needed 
to accomplish our mission today.
    In addition, IC agencies are vigorously engaged in 
individual efforts that their directors or representatives will 
describe in their testimonies in just a moment. At this point I 
would like to ask my deputy Ms. Rachel Stroud to briefly 
highlight community diversity initiatives and strategies. Mr. 
Jan Karcz, from the Office of the Assistant Director of Central 
Intelligence for Analysis and Production, will highlight key 
programs to build language capabilities and to recruit, train 
and retain analytical professionals. And Mr. Harold Tate, 
Director of CIA Recruitment will touch briefly on CIA-specific 
activities.
    I understand, Mr. Chairman, that our time is limited. We 
will interchange these speakers very quickly and stay on our 
schedule. Thank you for the opportunity to address this 
committee today.
    Ms. Stroud. I am Rachel Stroud, and I will address very 
quickly some of the Intelligence Community initiatives for 
targeted outreach, and this in no way would undercut any group, 
but we are speaking on cultural and ethnic diversity.
    Following 9/11, stirred patriotism as well as a weakened 
job market resulted in a substantial increase in resumes; 
however, the increase in minority applications was less 
encouraging. We are doing a number of things to build 
relationships with institutions such as the universities that 
have large minority populations. We have done an IC colloquia 
at New Mexico State University, and we are planning one for 
Atlanta tomorrow. Some of our targeted marketing initiatives 
will use the services of a professional consultant. We are 
going to follow CIA's lead they have already done this, and 
they are specifically looking at cultural and ethnic groups 
including Arab Americans, Chinese Americans and Korean 
Americans. We know some of our typical marketing techniques 
have not worked.
    Another important initiative is the high school outreach 
program. If we don't reach young people sooner, they are not 
going to know about intelligence careers until they arrive in 
college, when it may be too late to influence their choices. We 
will be targeting bilingual and bicultural students in English 
as a second language programs. We know that the Washington area 
is rich in diversity. There are about 300 languages spoken in 
our area schools, so we will be looking at doing a pilot in the 
Washington area first.
    In the area of retention, retention is more than just 
keeping employees. It is making sure we create an environment 
in which employees can be their most productive. As a 
community, we want to pilot a course that will focus on 
training first-level supervisors in those areas that would 
increase retention and maximize performance.
    With regard to retirement eligibles and replacements, we 
know that a recent GAO study found that more than half the 
senior SES members are eligible to retire or will retire by 
October 2007. We haven't collected all the community data on 
retirement eligibles, but we think we mirror this figure very 
closely.
    We have asked our intelligence agencies to apply predictive 
models to forecast hiring and attrition and ongoing trends over 
the next 5 years and to develop strategies to address areas of 
legitimate concern. We are concerned about competition with the 
private sector now and into the future. We have hired the 
Hudson Institute, the renowned Author of Workforce 2020, to 
analyze the U.S. Labor force in relation to IC skill 
requirements and to make recommendations. In that study, we 
want them to look at the private sector and our competition 
there. In their recommendations, we expect that they will make 
recommendations that may very well impact our personnel 
authorities or suggest for new personnel authorities.
    This concludes my segment, and I will turn it over to Mr. 
Jan Karcz from the office of the Assistant DCI for Analysis and 
Production.
    Mr. Karcz. Good morning.
    Regarding foreign languages, one of the strategic goals 
articulated in the DCI 2003 Strategic Direction for 
Intelligence Community Foreign Language Activities is to invest 
in people, and towards that end the DCI has appointed the ADCI/
AP as the senior authority responsible for guiding and 
overseeing foreign language issues within the IC. Dr. Lowenthal 
chairs a community body of senior agency officials, the Foreign 
Language Executive Committee, which coordinates and shares best 
practices amongst the agencies.
    The community is actively seeking qualified candidates to 
cover its global responsibility, but this remains a challenging 
task. A large applicant pool is necessary to meet an Agency's 
language proficiency and security requirements. As an example, 
the FBI must process 10 applicants in order to hire 1 that 
meets their requirements. Several agencies have also recently 
reviewed and launched initiatives to enhance language incentive 
programs as a principal means of maintaining their foreign 
language expertise internal to their own organizations.
    Turning to the analytic workforce, we recognize that the 
quality of our intelligence analysis is determined by the 
strength of our analytical corps. The community is making 
concerted efforts in this area to recruit, train and develop 
our analysts. Although the September 11 terrorist attacks have 
substantially increased the demand and supply of new analytic 
recruits, the community remains hard-pressed to retain people 
with expertise in certain geographic areas, languages and 
disciplines.
    In collaboration with several prominent research 
institutes, the ADCI/AP is starting an initiative entitled The 
Future of the Analyst, which is looking precisely at the issues 
that are the focus of today's briefing.
    In order to better understand and manage the analytic 
community, the ADCI/AP has developed the Analytic Resources 
Catalog, which tracks individual analysts by their assignment, 
experience, language expertise and education. This catalog is a 
critical tool for senior managers not only to identify 
analytical expertise and language skills in times of support 
crises to support surge requirements and to fill analytic 
shortfalls, but also to monitor the overall health and manning 
of the analytic community.
    Other initiatives currently under way include the National 
Intelligence Priorities Framework, which identifies countries 
and intelligence topics of greatest concern to policymakers. 
The DCI uses this framework to provide guidance to the 
community about intelligence objectives, which in turn 
influence decisions on community resources.
    Mr. Chairman, the DCI and the Intelligence Community he 
heads remains committed to building an analytical corps second 
to none as we confront the transnational and regional 
challenges that threaten our national security. The analysts of 
the future must be well educated and expert in their area of 
responsibility, equipped with the most advanced analytical 
tools, fluent in at least one and oftentimes several foreign 
languages, and committed to their profession. The initiatives 
and programs we are working on are important components of our 
national investment in our analytical corps.
    I will now be followed by Harold Tate of the Central 
Intelligence.
    Mr. Tate. Good morning, Mr. Chairman and Ranking Member 
Harman. I want to share with you some of the efforts we have 
underway in the Central Intelligence Agency to enhance our 
workforce.
    For us, diversity of our workforce is absolutely critical 
to our mission because we are in the business of selecting a 
mix of skills, experiences and perspectives, including language 
area expertise, overseas experience and various backgrounds to 
achieve this mission. To this end we do operate a proactive 
nationwide program that is focused on finding individuals with 
the skills we need to develop the jobs. We are also targeting 
all languages, but especially the high-priority languages of 
today: Arabic, Chinese, Kazakh, Korean, Pashto, Persian and 
Urdu.
    In fiscal year 2002, 14 percent of all our new hires claim 
proficiency at the level 2 level and above in Arabic, Chinese, 
Japanese and Korean. Forty-three percent of all our core hires 
in the past fiscal year claimed a foreign language, and 28 
percent of all of our analytic hires did the same.
    We are quite proud of the record on diversity in terms of 
hiring. We maintained a level of 20 percent or higher since 
fiscal year 2000. To achieve this we have targeted our 
marketing and advertising campaigns. We have collected 
information from focus groups around the Nation so we are 
developing ads and information that attracts.
    On the retention front we have instituted within the Agency 
a best management practices program best designed to not only 
address issues of development of the workforce, but also 
management leaders of that workforce, because clearly to 
address any retention issues, it all starts with management 
leadership.
    Finally, in March of 2002, we created the Central 
Intelligence Agency University to bring all of our training and 
leadership and development activities under one umbrella. Under 
the CIAU, we have also established the Intelligence Language 
Institute and hiring of language instructors to increase the 
size of the instructors available as one of our highest 
priorities this fiscal year.
    The Chairman. Mr. Cryer, does that complete your--the team. 
I notice that the 5 minutes has expired.
    [The prepared statement of Mr. Cryer follows:]

 Prepared Statement of Don Cryer, Special Assistant to the Director of 
             Central Intelligence for Diversity Management

    Mr. Chairman, I appreciate this opportunity to discuss with the 
Committee IC efforts to build and retain a work force with the 
diversity of languages, skills, and ethnic and cultural understanding 
that is critical to meeting the increasingly complex, urgent and 
diverse challenges the IC faces now and in the future. The events of 11 
September and the war on terrorism have more acutely accentuated the 
requirement for a creative, energized, and diverse cadre of 
professionals. As the Special Assistant to the DCI for Community 
Diversity Management, I can confidently say that IC agencies are 
devoting major effort and resources and collaborating at an 
unprecedented level to ensure that we build and develop the talent we 
need. I also would like to re-emphasize that the DCI has unequivocally 
made work force diversity--in languages, skills, and ethnic and 
cultural backgrounds--a high priority. Our business is understanding 
peoples and cultures--a diverse work force is one of the most the 
powerful resources we can have. I would emphasize however that our 
targeted outreach efforts will not be conducted in a manner that 
undercuts equal opportunity and recruitment for all racial and ethnic 
groups, both minority and non-minority. Nor are our diversity programs 
intended to achieve proportional representation on the basis of race or 
ethnicity.
    Less than 2 months ago, I had the privilege of testifying before 
Congressman Bereuter's, subcommittee on Intelligence Policy and 
National Security, on several Community-wide initiatives designed to 
attract and retain diversity. Today, we will expand on that testimony. 
Several of the initiatives were developed in anticipation of the 
requirements for a diversity pilot project contained in the House 
version of the FY04 Intelligence Authorization bill. In addition, IC 
agencies are vigorously engaged in individual efforts, which their 
Directors or representatives will describe in their testimony.
    At this point, I will ask my Deputy, Ms. Rachel Stroud, to briefly 
highlight some of the diversity initiatives and strategies we are 
pursuing at the Community level. She will be followed by Mr. Jan Karcz 
of the Office of the Assistant Director of Central Intelligence for 
Analysis and Production who will address some of the key programs and 
strategies to build critical language capabilities and to recruit, 
train, develop and retain a major segment of the IC work force, our 
analytic professionals.
                        recruitment and outreach
    In the aftermath of September 11, 2001 and in waging the war on 
terrorism, IC agencies have substantially increased recruitment and 
hiring. Fortunately, stirred patriotism, combined with a weakened job 
market, have resulted in a significant increase in resumes received 
from the public. However, the increase in applications from minority 
individuals was less encouraging. We have to do more in relationship 
building with minority communities and institutions to overcome the 
lack of information and misperceptions about the IC. We are undertaking 
several efforts to address this issue:
    <bullet> IC Colloquia.--The purpose of the colloquia is to increase 
awareness of the role, mission and contributions of the IC among 
colleges and universities that have significant minority enrollments 
and to foster enhanced recruiting and academic relationships with these 
schools. We have held events at Trinity College here in Washington and, 
most recently, at New Mexico State University which has a large 
Hispanic population. An additional colloquium, scheduled for Atlanta on 
November 6, targets African-Americans. We are also considering a 
colloquium on the west coast that targets Asian-American students.
    <bullet> Joint Recruitment.--IC agencies, individually and jointly 
through the IC Recruiting Working Group, participate in a host of job 
fairs each year to reach diverse candidates in critical skill areas. 
Some examples of career fairs that agencies will jointly participate in 
this fall include:
        <bullet> Women for Hire, Crystal City, VA;
        <bullet> Career Expo for People with Disabilities, Washington, 
        DC;
        <bullet> Asian Diversity for Hire, New York City; and
        <bullet> American Indian Science and Engineering Society, 
        Albuquerque, New Mexico.
    In addition, IC agencies will individually participate in many 
similar target recruitment activities throughout the year.
    <bullet> IC Website.--The IC Website, launched in October 2002, has 
been enormously popular. We will continue to enhance the website to 
assist visitors in matching their interests to appropriate occupations 
and IC agencies. Also, we have begun to add more information that will 
appeal to diverse audiences, e.g. information on minority-focused 
career fairs and activities in which IC agencies will participate.
    <bullet> Targeted Marketing.--This effort involves the development 
of marketing strategies tailored to reach specific ethnic, cultural and 
minority groups. We know that traditional methods alone, such as career 
fairs, will not achieve the results we want. With the assistance of 
professional marketing consultants, we will design and place IC ads 
that will most effectively attract the right candidates within targeted 
groups, to include Chinese Americans, Korean Americans, Arab Americans, 
African Americans, Hispanics, Native Americans and persons with 
disabilities. CIA is taking the lead in this effort and the community 
will build on what CIA has already successfully accomplished.
    <bullet> High School Outreach.--The increasing diversity of the 
American population is most apparent in our schools. We cannot afford 
to wait until students have moved on to college, when it may be too 
late to influence their choice of an academic major or an employer. Our 
goal is to reach potential candidates earlier and create an interest in 
IC careers with an emphasis on critical skill categories, including 
languages. We will pilot our high school outreach program here in the 
Washington metropolitan area, a region rich in diversity. We will 
target schools offering science and technology, international 
baccalaureate programs and other programs that prepare students for the 
college majors we need. In addition, we will target bilingual and 
bicultural students. Our initial contacts with counselors in some of 
our local school systems indicate that their English as a Second 
Language programs serve students who speak almost 300 different 
languages. While we have to address the significant security issues 
that will surface, we cannot afford to disregard this scarce asset at 
our doorstep. Some the activities planned include participation in high 
school career days, hosting a regional IC Career Fair, and sponsoring 
an IC Camp. Ultimately, our objective is to steer high potential 
candidates into one of the many IC student programs and convert 
successful students to permanent employees.
    In FY02, IC agencies employed over 800 students in various 
programs, including the Stokes program, internships and cooperative 
education programs. Approximately 35% of these students were 
minorities. We believe that more can be done to leverage existing 
student programs to improve cultural, ethnic, racial and gender 
diversity in the Community.
                        training and development
    We have a number of ongoing programs and new initiatives to develop 
current and future intelligence officers.
    <bullet> The Intelligence Community Officers Program, designed to 
professionalize intelligence officers, has over 1400 participants. Over 
144 Community officers have achieved certification to date. All IC 
organizations are participating in the program, including the FBI, 
Department of State and Department of Energy.
    <bullet> We have successfully developed and implemented the 
Intelligence Community Officers Course, a two-week course that 
challenges managers to collaborate and broaden their perspectives in 
resolving Community issues.
    <bullet> Centers of Excellence for Intelligence Studies. This 
initiative of the Community Diversity Issues Board, coincidentally and 
fortuitously, mirrors proposed legislation that would provide funding 
to support the establishment of university-based Intelligence programs. 
We began formulating the concept for Centers of Excellence after being 
approached by several minority academic institutions interested in 
developing intelligence-related programs of study. It became apparent 
that the IC needed to establish guidelines for schools that wanted to 
set up such programs. We are reviewing as a model the program 
established by NSA for Centers of Excellence in Information Assurance. 
CIA has initiated the lead on this effort and will work closely with IC 
agencies and staff of the Assistant Director of Central Intelligence 
for Analysis and Production.
                               retention
    We view retention as more than keeping employees; it also means 
creating an environment in which employees can be at their most 
productive level. As our work force ages and the rates of retirement 
rise, retention of our newer employees, particularly in core skill 
areas, becomes all the more important. On a pilot basis, we plan to 
conduct post-hire surveys of new employees 3 to 6 months after arrival 
in IC agencies. The purpose of the surveys is to assess the level of 
new employee satisfaction and provide feedback to management that will 
help them to develop policies and practices to strengthen the culture 
of inclusion and improve retention. In addition, we will develop and 
pilot a training course for IC managers that specifically focuses on 
retention issues. Another important aspect of retention is offering 
tools to help employees cope and flourish in today's dynamic and 
demanding environment and adapt to various management styles. We are 
reviewing options for training that can assist employees in that 
regard.
                          retirement eligibles
    A recent GAO Study found that more than half of career senior SES 
members will leave the federal government by October 2007 and, if past 
appointment trends continue, the diversity of the SES corps will remain 
virtually unchanged. While we have not collected and analyzed data from 
IC agencies on retirement eligibility, we suspect that the IC mirrors 
the rest of the government. We have asked IC agencies to apply a 
predictive analysis model to project hiring, attrition and employment 
levels by grade and ethnic/racial/ categories over the next five years 
and to develop strategies to address legitimate problems. This model 
can also assist agencies in projecting retirement losses and the 
potential pool of GS-14's and GS-15's that will be available internally 
to replace departing senior executives.
                    competition with private sector
    We have contracted with the Hudson Institute, renown authors of 
Workforce 2020, to conduct an analysis of the U.S. labor force in 
relation to core IC skill requirements, including area studies and 
languages. The study will also examine projected labor market 
conditions and competition for talent across the various segments of 
private industry. The Institute will recommend recruitment and 
retention strategies that will make the IC more competitive in 
attracting and retaining the talent we need. Some of these 
recommendations may very well suggest the need for new or revised 
personnel authorities.
                         language capabilities
    Regarding foreign languages, one of the strategic goals articulated 
in the DCI's May 2003 Strategic Direction for Intelligence Community 
Foreign Language Activities, is to invest in people. Specifically, the 
Intelligence Community is charged to ``build and maintain a diverse 
work force with the requisite foreign language, analytic, and technical 
skills to meet the critical and growing demand for language processing, 
analysis, and operational use throughout the Intelligence Community.''
    <bullet> Toward that end, the DCI has appointed the ADCI/AP as the 
senior authority responsible for guidance and oversight of foreign 
language issues within the IC. The ADCI/AP chairs a community body of 
senior agency officials, the Foreign Language Executive Committee, to 
coordinate activities and share best practices with respect to foreign 
language-capable personnel and the tools to enable their work.
    The Community is actively seeking qualified candidates to cover our 
global responsibilities, but this remains a challenging task. Languages 
we are focusing on include Arabic, Chinese, Japanese, Kazakh, Korean, 
Kurdish, Malay, Pashto, Persian-Dari, Persian-Farsi, Punjabi, Russian, 
Serbo-Croatian, Urdu, and Vietnamese. A large applicant pool is 
necessary to meet the agencies' language proficiency and security 
requirements. FBI, for example, notes that they must process ten 
applicants to yield one that meets employment proficiency and security 
standards. Given these challenges, the agencies do work together in 
terms of sharing best practices.
    <bullet> CIA, NSA and DIA have all recently reviewed or launched 
initiatives to enhance language incentive programs as a principal means 
of meeting their foreign language needs. These include adding hiring 
bonuses to their current incentive programs designed to attract and 
retain persons with the requisite language skills. DIA is planning to 
double its language incentive pay for civilians, and NSA has 
significantly increased incentives so that civilian employees may earn 
up to $1,000 per month. CIA has launched a Foreign Language Strategic 
Program that also addressed improved incentives for language 
acquisition and maintenance and offers hiring bonuses that can go as 
high as a one-time payment of $35,000 per individual.
    <bullet> The DCI has established the National Virtual Translation 
Center to serve as a clearinghouse for translations to assist agencies 
in meeting their translation requirements. The Translation Center under 
the executive agency of the FBI is actively recruiting linguist 
resources to network qualified individuals in government, the military, 
the commercial sector, and academia to meet our translation 
requirements.
    <bullet> The DCI has taken steps, as well, to address the sharing 
and processing of materials captured in the war on terrorism. He has 
established a National Media Exploitation Center under the executive 
agency of the Defense Intelligence Agency. The Center achieved initial 
operating capability in June 2003 and will serve as another community 
resource to triage and process foreign language materials.
                           analyst work force
    Recognizing that the quality of our Intelligence analysis is 
determined by the strength of our analytical corps, the Intelligence 
Community is making a concerted effort in the areas of analyst 
recruitment, training, retention, and development. Although the 9/11 
terrorist attacks have substantially increased both the demand and the 
supply of new analytical recruits, the challenges of training and 
retaining them also have increased dramatically. And despite our 
general recruiting successes, the Community remains hard-pressed to 
attract and train people with expertise in certain geographic areas, 
disciplines, and languages.
    In collaboration with prominent research institutions, the ADCI/AP 
has undertaken an initiative entitled the ``future of the analyst'' 
which looks precisely at the issues that are the focus of today's 
briefing.
    <bullet> One project is focusing on developing ``new quantitative 
analytical tools''--and reemphasizing neglected older ones such as 
comparative analysis--to better equip the ``analyst of the 21st 
century'' to understand and analyze today's complex transnational and 
region-specific security challenges.
    <bullet> Another project is looking at the gamut of issues 
respecting recruitment, training, and retention with an eye to learning 
from best practices in the private sector, including the business 
community.
    <bullet> Still others are aimed at expanding the nexus between the 
Intelligence and broader knowledge communities outside the government 
through the building of data-bases that will provide analysts with up-
to-date information on future conferences in their fields and the best 
expert institutions to tap for outside expertise. A new prominent guest 
speaker program will further facilitate analyst outreach to other 
knowledge communities.
    <bullet> Individual agencies also have undertaken major outreach 
efforts, and one challenge for the Community is to better coordinate 
them and share the substantive results of such outreach.
    To better guide our analyst recruitment, training, and retention 
efforts, the ADCI/AP has developed a Community-wide Analytic Resources 
Catalog (ARC) of analyst assignments, experience, language expertise, 
and education.
    <bullet> This Catalog is providing a key management tool for the 
DCI, the ADCI/AP, and agency directors across the Community to identify 
analytical expertise and language skills in order to support crises, 
surge requirements, and analytic shortfalls. It also will help us to 
optimally assign Community analysts across the Community to meet 
Intelligence priorities.
    <bullet> Agencies will update data in the Catalog semi-annually to 
ensure that the information remains current.
    The National Intelligence Priorities Framework (NIPF) is another 
important management tool created by the ADCI/AP that the DCI will use 
to provide guidance to the Community about intelligence objectives, 
which in turn will influence our decisions on the full range of 
Community resources.
    <bullet> The Priorities Framework identifies the countries and 
Intelligence topics of greatest concern and therefore will guide 
investment decisions on analyst recruitment and training.
    <bullet> The Framework will help determine the kind of analysts we 
should be hiring respecting education, experience, skills, foreign area 
expertise, and language ability.
    Joint educational experiences within the Intelligence Community 
break down cultural barriers, erode organizational stovepipes, and 
increase interactivity and collaboration.
    <bullet> Toward that end, we will strive to complement the progress 
in agency specific training programs with an expanded Community 
training component for new and middle-level Intelligence officers. We 
are unsure at this time about the course content and organizational 
aspects of this initiative, but the ADCI/AP in collaboration with 
agency officials will develop it further.
    Mr. Chairman, the DCI and the Intelligence Community he heads 
remain committed to building and analytical corps second to none as we 
confront the transnational and regional challenges that threaten our 
national security. The analyst of the future must be well educated; 
steeped in knowledge of his or her substantive area; equipped with the 
most advanced analytical tools and tradecraft; fully fluent in at least 
one and oftentimes several foreign languages; and committed to his and 
her profession. The initiatives and programs I have described to you 
today are important components of our strategic investment in our 
analytical corps.

    The Chairman. I think as Mr. Rodriguez comes to take the 
table, we will ask General Clapper from the National Imagery 
and Mapping Agency to address us.

  STATEMENT OF JAMES CLAPPER, DIRECTOR, NATIONAL IMAGERY AND 
                         MAPPING AGENCY

    General Clapper. Thank you, Mr. Chairman, Congresswoman 
Harman. As you know, this is my second time around as an 
intelligence agency Director, and I have appeared before this 
panel before when I served as Director of the Defense 
Intelligence Agency. I commend the committee for holding this 
hearing. I think having these hearings is a positive thing to 
keep the light of day on this subject.
    I would like to mention that Joann Isham, my deputy, who 
now, I believe, is the senior woman in the Intelligence 
Community. This is a fact of which I am very proud, as both of 
us are strongly committed to diversity not only because it is 
the right thing to do, but because it is requisite to our 
business and inherent to our mission that we look outward to 
the rest of the world. This is particularly true in the case of 
NIMA where our business is the rest of the world's geography, 
thermography, culture, language, et cetera. For us, diversity 
is a big deal.
    I have enjoyed the senior leadership in NIMA since I 
arrived over 2 years ago to foster an inclusive work 
environment. We want, like everyone else, NIMA to be the agency 
of choice, the employer of choice. A conviction that I have 
arrived at after my 4 years as Director of DIA and now into my 
third year at NIMA is that the ultimate solution to diversity 
and balance is sustained and focused recruiting, and that 
basically underlies the philosophy as I have approached it in 
NIMA of a number of our fiscal year 2003 recruitment efforts 
which will continue to be designed for diversity; for example, 
participating in the model U.N. Conference, and we have struck 
up an arrangement with that forum. We have diversity 
recruitment program managers specifically to focus on that.
    Our challenge--of course, NIMA is probably--as the newest 
and perhaps lesser known of the intelligence agencies is just 
making all of our applicants aware of what NIMA is and what we 
do. We have no real change in overall minority or female 
representation over the past 2 fiscal years. Our minority 
representation increased slightly, four-tenths of a percentage 
from 2002 to 2003, from 17.3 percent to 17.7 percent, and our 
female representation similarly increased slightly. Now, what 
has affected that, we have also transitioned a significant 
portion of our noncore occupations to the private sector, and 
so that affected our population as a proportion of our overall 
government workforce because many of these people who are women 
and who are minority members transitioned as contractors 
instead of government employees as we outsourced some of our 
noncore competency functions.
    One thing I would like to highlight which I have come to 
believe is extremely important is a practice called alternate 
dispute resolution, which has been very successful in resolving 
issues that surround equal opportunity before they become 
formally litigated. If you enter into formal litigation, it is 
my conviction it is a lose-lose for the employee involved and 
for the Agency. We have greatly strengthened and energized our 
entire training ladder from entry level to our senior 
executives, and one of the principal tenets there that we 
foster is inclusiveness. And whom we select for these training 
courses is something we try to be sensitive to.
    For challenges and solutions, I would mention there are--
clearances requirements are going to become more of a challenge 
as the demographics of the Nation change, as the population 
proportion of minority members increases. The stringent 
security requirements, I think, are going to work against us 
somewhat in promoting diversity. Not to whine or an excuse, but 
just a fact. And the fact that lengthy security clearance 
process, I have found, discourages many entry-level candidates 
unless we go back and begin the recruitment process as early as 
high school, and certainly into college, to get them sort of 
connected with us.
    And as I mentioned, we don't have the same level of name 
recognition, a situation that is going to be complicated when 
and if--I will be optimistic--when the National Defense 
Authorization Act is signed into law and our name changes to 
the National Geospacial Intelligence Agency. So we will have a 
public relations channel there.
    So we are transformational, and NIMA by definition, since 
it stood up in 1996, is transformational. We will continue to 
focus throughout on our most important asset, our people, which 
they, too, are transforming. Diversity is a mission imperative, 
and we are working to maintain an inclusive working environment 
that values each employee's unique capabilities and 
contributions, and I do hold our seniors responsible for that. 
And one of the things I found very effective is a series of 
peer reviews when they make personnel actions, which I think is 
an imposing sociological impact.
    And again, we want to make NIMA the agency of choice for 
those seeking a career in the IC, and I will end where I began: 
It all begins and ends with focus and intense recruiting. Thank 
you, sir.
    The Chairman. Thank you very much, General Clapper.
    The Chairman. And we turn to Secretary Peter Teets. Mr. 
Teets.

STATEMENT OF PETER B. TEETS, DIRECTOR, NATIONAL RECONNAISSANCE 
     OFFICE, ACCOMPANIED BY ANNETTE WYATT, DIRECTOR, EQUAL 
  EMPLOYMENT OPPORTUNITY AND MILITARY EMPLOYMENT OPPORTUNITY, 
                 NATIONAL RECONNAISSANCE OFFICE

    Mr. Teets. Thank you, Mr. Chairman, and good morning to you 
and Ranking Member Harman and distinguished members of the 
committee. It is a pleasure to be here this morning and have an 
opportunity to talk to you about one of my favorite subjects, 
which is the NRO workforce.
    Our job, of course is to attract, retain, develop, motivate 
and keep at work some of the highest-class professionals in the 
world, and, of course, our mission is to develop space-based 
reconnaissance systems which can serve our intelligence needs. 
Clearly the NRO workforce is the key to our success.
    We are inherently a joint operation which provides some 
diversity in and of itself. We are an organization that is made 
up of a sizable number of CIA professionals, Air Force 
professionals. We have representatives as well from the Army, 
the Navy, the Marine Corps. And also at the NRO, we have 
professionals from the National Security Agency, from the 
National Imaging and Mapping Agency, NIMA, as well as some 
representation from DIA as well. And so we have a certain joint 
character here, and we also have, of course, over 12 personnel 
systems that we deal with in terms of having these people who 
are assigned to us from their mother agencies.
    I also want to say with me today is Ms. Annette Wyatt. She 
is Director of Equal Employment Opportunity and Military 
Employment Opportunity out at the NRO and is part of a strong 
Office of Human Resources effort that we have underway. This HR 
effort that we have had ongoing now for more than 2 years is 
designed really to create a number of initiatives, to define 
and manage current and future workforce requirements, to 
recruit and retain a diverse world-class workforce, to 
implement expanded career development and training programs, 
and, of course, to conduct formalized succession planning for 
key leadership and technical skill positions.
    I would like to now just say a few words, if I may, about 
the NRO and diversity. First of all, I want to say that 
diversity is one of the core values at the NRO. We have five 
core values, and diversity certainly is one of them. I meet 
quarterly with what we call our Unity Council, and this Unity 
Council is a group that is comprised of the chairpersons from 
each of our special emphasis councils, and they are chartered 
really to raise management awareness of breadth of diversity 
issues.
    We have bimonthly cultural awareness programs. I am proud 
to say that some of those cultural awareness programs, we have 
had distinguished speakers such as Congressman Reyes come out 
to the NRO during Hispanic Awareness Month and gave a stirring 
talk really to a full auditorium of people who were very 
interested of learning Congressman Reyes' background and his 
experiences on the border between Texas and Mexico. And it was 
a great day, Congressman Reyes. We continue to appreciate it 
and talk about it.
    We also were fortunate to have a visit from Senator Inouye 
at a gathering that we had for Asian Pacific Island Awareness 
Month. We have had Congressman Bishop come out during Black 
History Month to discuss, again, his perspective on diversity 
issues. We have had American Indian representation in terms of 
having the group that came out with windtalkers. Diversity is 
an important core value at the NRO, and we honor it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Teets.
    [The prepared statement of Mr. Teets follows:]

Prepared Statement of Peter B. Teets, Director, National Reconnaissance 
                                 Office

    Mr. Chairman, Ranking Member, and distinguished Committee members, 
I am pleased to be here today to talk to you about ``Building 
Capabilities: The Intelligence Community's National Security 
Requirement for Diversity of Languages, Skills, and Ethnic and Cultural 
Understanding''.
    The National Reconnaissance Office (NRO) workforce is the key to 
its success. Our mission is a complex and critical one and we are 
striving to attract, train, and retain the right people to perform this 
important work. In order to collect data and information from space, 
the NRO conducts space system research and development, manages 
acquisitions, conducts launches, and operates overhead systems. The NRO 
has an ongoing responsibility to provide pioneering technologies, 
systems, and operations methodologies to deliver unparalleled 
intelligence, surveillance, and reconnaissance capabilities to our 
Nation. To accomplish this mission, the NRO must acquire the nation's 
best scientists, engineers, and operators (from both government and 
industry) to work as a team focused on providing decisionmakers and 
warfighters the information advantage they require.
    Today, the NRO workforce consists of a cadre of dedicated, 
talented, and innovative personnel committed to mission success and 
steadfast in their pursuit of excellence. It comprises a unique mix of 
government civilian, military, and industrial professionals who are 
managed under more than a dozen different sets of Human Resources 
policies and procedures from across the Department of Defense, Central 
Intelligence Agency (CIA), and other Intelligence Community Agencies. 
This complex workforce embraces a diversity of characteristics, 
backgrounds, experiences, and viewpoints that have converged within the 
NRO and have led to the superb technologies that we deploy.
    Our objective is to continue implementation of our strategic human 
resource plan that fosters a challenging and productive work 
environment; encourages and supports individual career development; and 
builds a system that attracts, develops, and retains a talented and 
diverse team of professionals able to meet the future challenges of the 
NRO. Part of this process involves crafting new ways of hiring people 
into the organization. It also involves finding ways to motivate and 
satisfy employees at all levels and job classifications and provide the 
training and broadening opportunities necessary to develop our future 
space and intelligence leaders.
    The ability of the NRO to maintain and improve this diverse work 
force is challenged by many factors. Skills, knowledge, and abilities 
required for the development and operation of space systems are the 
same skills, knowledge, and abilities in high demand throughout the 
space engineering sector, a demand unlikely to change for the 
foreseeable future. The NRO must compete with industry as well as other 
government agencies for critical talent.
    Recognizing these challenges, we are positioning ourselves to 
effectively compete within today's rapidly changing human resources 
environment. The NRO Strategic Plan, revised in Fiscal Year (FY) 2003, 
placed an increased emphasis on a number of strategic workforce 
initiatives undertaken following the creation of the NRO's Office of 
Human Resources (OHR) in 2001. Our strategic plan focuses on developing 
and maintaining a world-class workforce through three enabling 
objectives:
        --Creating and maintaining a diverse world-class workforce;
        --Mastering program management as an NRO core competency; and
        --Developing a state-of-the-art systems engineering competency.
    The NRO continues to work toward improving day-to-day personnel 
operations as well as fostering workforce transformation to meet future 
needs. OHR's Strategic Performance Analysis Group was chartered to 
develop HR performance measures and to conduct analytic studies in 
support of initiatives addressing workforce issues. We have increased 
the use of objective analyses to guide improvement activities and 
strategic workforce programs in FY 2003 improved our ability to 
effectively manage our diverse workforce.
                 requirements definition and management
    In January 2003, the NRO completed mapping of all parent 
organization occupational classification systems into a standard series 
of NRO occupational categories. Parent organization variability in 
occupation definitions had precluded consistent, actionable analyses in 
the NRO for some time. The mapping overcame this impediment and 
provided the NRO with its first ever capability to analyze the entire 
organization in a consistent fashion along occupational lines.
    The first application of the new occupational categories was an 
analysis of the NRO's positions to determine that ``tooth-to-tail'' mix 
of mission versus support activities. As a result of the analysis, the 
NRO was able to gauge the impact of recent reengineering and internal 
realignment efforts to free positions for reallocation to mission 
activities. These actions have resulted in a 3 percent reduction of the 
NRO's support tail in favor of mission elements.
    In addition to recent reengineering and realignment activities, the 
NRO is initiating its first corporate attempt to project total position 
requirements and establish annual position occupation mix targets. 
These efforts are driven by the development of the NRO's technical Way 
Ahead, which lays out a vision for future programs in accordance with 
the NRO Strategic Plan. We have begun to map the space system lifecycle 
to the Way Ahead schedules for each system and to determine the 
personnel complements that would be required in each phase of the life-
cycle, thus painting an overall picture of future requirements. We have 
also begun to outline the concept of operations for a corporate 
decisionmaking body to oversee the reallocation of positions to meet 
these future needs.
    To further support the shift toward a more mission-oriented 
occupational mix, a number of functional reviews are underway to 
streamline and/or reduce redundancies in capabilities. The largest of 
these efforts are an on-going review of positions within the Management 
Services and Operations (MS&O) Directorate and a cross-organizational 
position review of the NRO's information technology functions. 
Additionally, the NRO's newly created Deputy Director for 
Administration plans to conduct reviews of embedded support functions 
across the organization to assess the feasibility of shared support 
alternatives for improved efficiency and effectiveness of support 
activities.
                 workforce recruitment and acquisition
    Acquiring the personnel to meet the NRO's manpower requirements is 
a challenge. Reasons include rising retirement rates as ``baby 
boomers'' leave the government and increasing competitive pressure from 
both the private sector and the parent organizations for limited 
technical resources. During recent years, the NRO experienced 
increasing vacancy rates in its two most critical mission occupations: 
engineering and program management. To remedy these vacancy concerns, 
the NRO has placed added emphasis on targeted recruiting of engineers 
and program managers. The Office of Development and Engineering, for 
example, launched aggressive recruiting campaigns in partnership with 
the CIA's Recruitment Center. The NRO provided senior technical 
personnel for these recruiting campaigns at a number of universities, a 
strategy that has proven effective in garnering more interest among 
targeted populations. CIA technical hiring for the NRO doubled from 
2002 to 2003. Coupled with the Air Force military element's efforts to 
improve assignment rates of technical personnel, the NRO saw a marked 
improvement in its engineering and program manager vacancy rates.
    While the vacancy rates in the NRO's most critical mission 
occupations improved in FY 2003, the NRO's overall vacancy rate did not 
improve, and in fact, crept slightly higher to 14.4 percent of our 
total personnel allocation versus 13.5 percent for FY 2002. This 
happened for the following reasons: first, higher operational tempo of 
the parent organizations since September 11th has begun to affect the 
speed with which vacancies are filled in the space operations and 
intelligence occupations. Second, the NRO has seen an increase in the 
vacancy rates for non-technical CIA personnel, primarily in the 
administration area. This is partly due to the lower priority to fill 
such positions in light of the CIA's focus on critical mission skill 
recruiting. The implementation of the CIA's Deployed Support concept 
also carries inherent delays in staffing support vacancies within the 
NRO. At this juncture, the vacancy trends in space operations, 
intelligence, and administration are not having a profound impact on 
mission accomplishment, but they warrant continued close observation.
                    training and career development
    We continue to expand our workforce development system by adding 
new guidance tools and learning opportunities. We have started to 
revise our competency models to better reflect the mission requirements 
of the 21st Century NRO. We piloted a new, leadership development 
course, Leadership Landscape, which provides case studies and materials 
tailored to the complex operating environment of the NRO. Also, we have 
revised our annual training program call process to provide a more 
equitable environment in which employees may compete for placement in 
prestigious external training programs. In addition, the NRO continues 
to reap benefit from several well-established functional training 
centers that are chartered to provide NRO unique, program-tailored 
material. The NRO's Acquisition Center for Excellence, for example, 
provides acquisition training and support for the NRO and its mission 
partners, ensuring common standards and best practices are effectively 
integrated into our programs. Furthermore, the NRO established a 
Corporate Learning and Development Group to deliver professional multi-
disciplinary development training to improve the overall quality of 
management, promote continuous learning, and to acculturate employees 
to the NRO's distinctive environment. This element also offers career 
counseling services, manages the NRO's robust mentoring program, and 
provides other tools to facilitate lifelong workforce learning.
                          succession planning
    In 2002 we began a succession planning program that will ensure 
continuity of NRO operations through development of a leadership cadre. 
This program identifies critical management positions and the 
competencies and experiences required to fill them and allows all 
personnel insight into the development required to successfully compete 
for these jobs. Individuals may assess themselves against published 
requirements and self-nominate for consideration for positions among 
other qualified applicants. The construct of this program affords 
opportunities for individuals who might not otherwise have been 
assessed in the selection process to be considered for our most 
critical jobs. In addition to offering new assurance that that NRO 
employees can fairly prepare and compete for critical jobs, this 
program also holds promise for improving the representation of women 
and minorities in these key leadership posts.
                         the nro and diversity
    The NRO continues to emphasize diversity and fairness throughout 
the ranks, embracing the characteristics and capabilities that comprise 
a multi-cultural workforce and leveraging them to strategic advantage. 
To those ends, our Office Of Equal Employment Opportunity and Military 
Equal Opportunity sponsors a robust Diversity program that includes:
          --Special Emphasis employment programs required by Title VII 
        29 CFR 1614;
          --17 collateral duty Diversity Liaison Officers (DLO) at our 
        sites around the world responsible for promoting cultural 
        awareness within the workforce;
          --6 Workforce Excellence lectures for our Headquarters 
        employees; and
          --Quarterly diversity-centric meetings between the Director, 
        NRO and our Unity Council, a group that is comprised of the 
        chairpersons from each of the Special Emphasis Councils and 
        chartered to raise management awareness of a breadth of 
        diversity issues.
    In January 2002, we published a new Strategic Plan for Diversity to 
augment our ongoing efforts in this area. We are partnered with other 
intelligence Community agencies to evaluate recruitment and retention 
strategies, and participate in outreach programs to elementary, high 
school, and university students. In addition, we are also implementing 
an NRO Disabilities Internship Program with four slots identified for 
FY 2004. Although the overall representation of minorities within the 
NRO's administrative specialties is still below the Bureau of Labor 
Statistics benchmark for the U.S. population, the representation of 
women and minorities in our technical specialties now exceeds those 
benchmarks, as a result of the continued emphasis in this area. Because 
the NRO does not have its own workforce and is, therefore, limited in 
its ability to influence diversity demographics, it is critical that we 
continue to partner effectively with the parent agencies and to achieve 
acceptable representation in all NRO occupations.
                               retention
    In addition to improving its approach to acquiring personnel, the 
NRO has undertaken efforts to preserve as much NRO experience as 
possible within the workforce. With lifelong NRO careers largely a 
thing of the past, the NRO has attempted to increase the percentage of 
its workforce that has prior NRO experience through deliberate efforts 
to bring personnel back following mandatory rotations to their parent 
element. The NRO maintains alumni and experience rosters and monitors 
the career progress of prior-NRO personnel with an eye to future return 
assignments. One NRO element, in fact, has established personnel 
practices that expedite hiring of military personnel back into the NRO 
following their retirement. These combined efforts paid modest 
dividends: we experienced a 3.5 percent increase in the average NRO 
years of experience in its workforce from 1999 to 2002 and we expect to 
see a continuing upward trend.
                         the nro climate survey
    We are committed to providing our workforce with an environment 
that promotes high productivity through tools and infrastructure as 
well as a supportive culture. Annually, we conduct a climate survey to 
gauge employee satisfaction across the full spectrum of work 
environment, diversity, and HR support programs. Since its 
implementation in 1998, the survey has been invaluable in helping to 
direct and focus workforce programs. Consequently, all factors measured 
by the survey now exceed the minimum satisfaction rating and most 
factors exhibit high levels of workforce satisfaction. In 2003, all 
human resources related factors (like quality of life, training, and 
performance recognition) showed a measurable increase in employee 
satisfaction.
                               the future
    The NRO continues to improve and transform its workforce to meet 
the needs of the future through implementation of several new 
initiatives:
    First, the Way Ahead--which lays out our vision for future 
programs--defines the overarching demand for human resources to meet 
future needs. We will continue to assess the overall impacts of this 
vision on personnel and their development and drive our workforce 
planning and implementation activities commensurate with that vision 
and mission.
    Second, the NRO Strategic Plan emphasizes mission-critical skills, 
particularly systems engineering and program management competencies, 
thus further dictating the development of focused plans for the growth 
and management of the workforce. While earlier efforts have garnered 
some improvements, we must continue to carry out targeted workforce 
planning to achieve further advancements. With assistance from our 
Deputy Director for Systems Engineering, we plan to conduct a deeper 
investigation into the health and dynamics of the engineering and 
program management populations, and to identify actions to strengthen 
these areas.
    Finally, with the advent of the space professional cadre concept, 
the national security space community has initiated space-specific 
workforce planning activities in a number of the parent organizations 
that support the NRO. These activities will enhance the quality of the 
NRO's future workforce and will drive other initiatives in management, 
development, and utilization of the cadre. In addition, we have drafted 
our own strategy for managing space professionals during their NRO 
tours with an eye toward meeting our unique mission needs while 
ensuring compliance with parent organization standards.
    In summary, the NRO is fully committed to creating and maintaining 
a world-class workforce to meet the needs of the NRO and of the Nation. 
Our people are the key to continuing our long record of unparalleled 
accomplishment, innovation, and service and our mission requires the 
full commitment and dedication of each and every member of the NRO 
team. We will continue to attract, train, motivate and retain the right 
people--the best people--to perform our critical work.

    The Chairman. We now go to the Honorable William Black, 
Deputy Director of the National Security Agency.

   STATEMENT OF WILLIAM B. BLACK, DEPUTY DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    Mr. Black. Thank you very much, Chairman Goss and Ranking 
Member Harman. This is my report to you from the National 
Security Agency.
    I think it is important for everyone to understand that 
what I will talk about is the Federal civilian workforce at 
NSA. But the truth of the matter is half of our placement is 
military, and also we are spread throughout the United States 
and in many other parts of the world, and this has had a major 
impact on our people which is absolutely critical to what our 
mission is about.
    The fact that our work strength had been reduced over 
recent years has caused us to concentrate on targeting specific 
mission areas and to align our work skills with this because we 
have gone through a major transformation in the Agency. We have 
taken initial steps to improve our situation by, first of all, 
moving our diversity office itself into our human resource 
organization so that all of our human resource actions will, in 
fact, reflect the diversity on which we are built.
    Between the fiscal years of 1990 and 2001, the reduction, 
as I mentioned, in our civilian workforce was such that if it 
wasn't for this committee's support, we probably would not be 
able to grow as we are now and to have the impact we are having 
on the workforce. Fifteen percent of the Agency's workforce has 
been hired in the last 3 years. The growth projected in our 
manpower strategy will allow us to increase that percentage to 
40 percent by fiscal year 2008. As an example of the 
opportunity presented by this influx of personnel, the Agency 
hired 350 minority employees in the past 2 years, which is as 
many as we had hired in the previous 4 years.
    In this past year, NSA recruiters logged more than 290,000 
miles on 268 recruiting trips. These trips have included 27 
colleges and universities and significant minority population 
in many of these institutions. NSA exceeded its hiring goals in 
the last 3 years and maintained its 18 percent diversity hiring 
rate. Our students program hired an additional 333 students and 
achieved a 21 percent diversity rate.
    One goal for the coming year is the creation of a new 2-
year Congressman Stokes program geared toward language 
students. We also intend to significantly increase the 
percentage of language students accepted into the 4-year Stokes 
program that we have had ongoing for several years at NSA and 
to develop a High School Native Speaker Program.
    While target and mission expertise is critical, the foreign 
language proficiency of the language professional is essential. 
We must understand not only the words, but the intentions 
behind the words. This is defined as ``Level 3'' proficiency, 
the formal requirement for working a cryptologic language.
    In this new environment, retaining skilled linguist 
professionals is particularly important. Earlier this year, we 
rewarded professionals who have the requisite language 
proficiency by increasing their foreign language and incentive 
pay ceiling. And additionally, we recently approved the second 
step, the Language Analyst Recruitment Bonus and Milestone 
Reward Program, which consists of a recruitment bonus for new 
hires and a 2-year Milestone Reward Program to retain linguists 
and encourage the Level 3 proficiency which is critical for our 
business.
    I thank this committee for its support in the last 2 years 
in the Intelligence Authorization Act. We are working now on 
what we call 21st Century Distributed Learning. This ground-
breaking work revolutionizes our language education through 
``just-in-time'' language learning opportunities. We are 
sharing this information throughout the Nation and particularly 
with Flagship Universities. These universities sponsor programs 
designed to produce Level 3 proficient graduates in such 
language as Arabic, Chinese and Persian-Farsi.
    The DCI has emphasized diversity as a corporate imperative, 
a strategic goal, and states, ``our people are our most 
precious assets, not satellites or high-speed computers.'' We 
have reaffirmed our commitment to diversity well beyond the 
recruitment and hiring initiatives mentioned above. Diversity 
is not just about fairness. It is mission-critical, and we 
incorporated this principle into our strategic and business 
planning in the day-to-day operations. People remain, to NSA's 
success, a key to the 21st century and beyond. We remain 
dedicated to those efforts that will ensure we have a truly 
diverse workforce, with the right people with the right skills 
in the right jobs.
    As we grow the workforce, we have unprecedented opportunity 
to further our transformation. We will do this by eliminating 
the barriers that prevent a truly integrated, seamless, 
cooperative learning and thriving information enterprise. With 
your help, we will continue to provide the vital information 
that will enable the United States to maintain a decisive 
information superiority edge.
    Thank you, Mr. Chairman, members of this committee, for 
this opportunity to testify.
    [The prepared statement of Mr. Black follows:]

   Prepared Statement of William B. Black, Deputy Director, National 
                            Security Agency

                              introduction
    Thank you very much Mr. Chairman, Ranking Member, and Members of 
the Committee for the opportunity to report on the National Security 
Agency's (NSA) progress in meeting the Human Resources (HR) and 
diversity challenges that are central to the continued transformation 
of the NSA. Enhancing our expert work force and effectively leading and 
managing our people is a critical task and the key to constructing the 
unified, end-to-end enterprise needed to achieve and maintain 
information superiority for America.
    Since 1999, in concert with the Director of Central Intelligence's 
(DCI) Strategic Intent, the transformation of the NSA has been focused 
on four strategic goals:
    <bullet> Ensure responsive intelligence information and information 
assurance for national decision-makers and military commanders.
    <bullet> Continuously modernize the cryptologic system by using 
advanced technology to provide solutions for the production and 
protection of information.
    <bullet> Shape the NSA work force to meet SIGINT and Information 
Assurance mission challenges.
    <bullet> Maximize the use of resources through effective business 
processes and prudent risk to achieve and sustain responsive Signals 
Intelligence and Information Assurance solutions.
    NSA has made great progress in each of these areas but much remains 
to be done as we embark on the Director's new vision of Transformation 
2.0: Cryptology as a Team Sport. This vision furthers the above goals 
by focusing on dependencies not only within NSA/CSS, but increasingly 
on dependencies beyond the fence line--in the larger DoD and 
Intelligence communities. Faced with a variety of changes that include 
increasing the scale and scope of computer network operations; 
expanding and in some cases tailoring our products to serve customers 
at the federal, state, and local levels; meeting new demands 
necessitated by precision targeting; tracking people and discrete 
things as well as organizations and nations; and automating processes 
throughout the enterprise, we will succeed only by improving NSA's 
collaborative relationships across the board.
    Our future objectives include:
        <bullet> Blending the SIGINT and Information Assurance 
        missions;
        <bullet> Integrating the strategic and tactical SIGINT 
        enterprise;
        <bullet> Transforming customer access to the SIGINT process 
        stream; and
        <bullet> Taking the lead in teaming by enabling more Community 
        collaboration along our five business lines: get it; know it; 
        use it; manage the mission; and manage the enterprise.
    Because people are key to the successful accomplishment of all of 
these goals and their associated programs/initiatives, NSA articulated 
a work force strategy that is based on growth, skills alignment and 
knowledge transfer. The strategy outlines the Agency's need to grow the 
work force to meet increased mission challenges and to acquire the next 
generation of SIGINT and Information Assurance professionals. But this 
growth will not take place equally across the Agency. It is targeted 
toward specific areas and realigns skills to enhance capabilities and 
readiness in language, focus on analysis, increase our ability to 
exploit the global network, preserve our expertise in cryptanalysis, 
strengthen our target development activities, protect our people, and 
modestly augment some of the enabling functions. The strategy also 
addresses the Agency's critical need to transfer knowledge between the 
expert on-board population and the new generation. This is vital to our 
future success and a critical aspect of transformation.
    NSA has made significant progress in hiring, recruitment, 
retention, skills mix, and training. Despite successes in these areas, 
NSA recognizes that its diversity is an area in which improvement is 
essential to sustaining our mission. NSA also recognizes, of course, 
that these steps to ensure diversity in our workforce must be 
consistent with the Constitution's guarantee of equal protection. We 
have taken initial steps to improve the situation, to include moving 
the responsibility for diversity management to the office that has 
successfully managed other HR initiatives.
After years of downsizing we are increasing the size of the civilian 
        work force . . .
    Between FY1990 and FY2001 NSA reduced civilian manpower by 32 
percent through voluntary means. With this Committee's support, NSA's 
manpower authorizations increased by 400 in FY2002, 428 in FY2003, and 
965 in FY2004. This growth allowed for significantly increased hiring 
programs to fill current vacancies and the additional authorized 
billets with 820 new hires in FY2002, 1125 in FY2003, and 1500 
projected for FY2004. As the Agency moves forward, it is now working 
with the Administration on the budget to increase civilian billets 
between FY2005 and FY2008 to enhance the existing work force with the 
multidisciplinary, analytic, and technical personnel needed to 
transform the cryptologic enterprise.
    This growth also presents a significant opportunity to increase 
NSA's diversity. Fifteen percent of the Agency's work force has been 
hired since FY2001 and the growth projected in the manpower strategy 
would allow NSA to increase that percentage to 40 percent by FY2008. As 
an example of the opportunity presented by this influx of personnel, 
the Agency hired as many minority employees in the past two years (350 
in FY2002 and FY2003) as it did in the previous four years (FY1998 
through FY2001).
We continue to improve recruitment processes . . .
    NSA continues to improve its recruitment processes and expand its 
presence in the job marketplace. This past year NSA recruiters logged 
more than 290,000 miles on 268 recruiting trips to 102 schools in 44 
States and one Territory. As a key part of the effort to hire more than 
1100 new employees and build a pipeline for FY2004, these trips 
included 27 colleges and universities that have a significant minority 
population (i.e., African-Americans, Hispanics, Asian-Pacific, and 
Native American) and 19 professional events.
    NSA's student programs, especially the Cooperative Education, 
Summer, and Stokes Scholarship (formerly Undergraduate Training 
Program) programs, serve as a prime source of new employee recruits by 
providing college students and graduates with Agency operational 
experience. Graduates of these programs can immediately begin 
productive and responsible assignments. As such, these programs are key 
feeders into the Agency's full-time hiring program.
    Other major recruiting improvements include:
        <bullet> Establishing an Employee Referral Program, which 
        encourages Agency employees to refer qualified candidates to 
        the NSA Office of Recruitment;
        <bullet> Doubling participation in Intelligence Community 
        collaborative recruiting events from 4 to 8;
        <bullet> Outsourcing scheduling, welcome center, and data entry 
        functions, which provides a high level of professionalism;
        <bullet> Awarding a new advertising contract, which offered the 
        opportunity to highlight diversity issues;
        <bullet> Refreshing the print media;
        <bullet> Enhancing web site features and functionality;
        <bullet> Deploying a new auto call center voice mail system to 
        assist applicants;
        <bullet> Hiring recruiters with private sector experience;
        <bullet> Initiating a recruiter training curriculum;
        <bullet> Publishing the third edition of NSA's award-winning 
        recruiting CD (recognized for excellence by the national 
        advertising industry) and effectively using other new 
        promotional items to market NSA as a quality employer (thanks 
        to this Committee's support for legislative authority to 
        execute this function);
        <bullet> Using invitation-only career fairs and skill group 
        interview sessions resulting in over 200 hires; and
        <bullet> Establishing a language hiring bonus and awards 
        program to compete in the extremely competitive language hiring 
        market.
    We would be happy to brief you at a later time on our plans for a 
new print media and web site advertising campaign in the spring of 
2004.
But we also need to retain talented people . . .
    Over the past two years NSA transitioned its workforce to an annual 
evaluation cycle that links rewards and recognition directly to 
performance. At the same time, NSA encouraged managers to push the 
decision level for promotion and awards down to the lowest possible 
level so that managers can recognize those who are key to achieving the 
Agency's mission. NSA increased the overall budget for recognition (10 
percent for promotion and seven percent for awards) at a time when 
employees were giving their all to support the Global War on Terrorism. 
In addition, the Agency received an additional $2.5 million 
specifically to recognize employees whose efforts supported the war in 
Iraq.
    NSA used retention bonuses to keep critical employees from leaving. 
Judicious use of these incentives allowed the Agency to retain just 
over 100 personnel primarily within the SIGINT Directorate, the 
Information Assurance Directorate, and in Research areas. NSA also set 
aside $1.5 million dollars for lump-sum performance awards for 
individuals demonstrating outstanding work in several of the Agency's 
most important and sensitive missions. Fifty-eight percent of these 
funds were offered to personnel working the SIGINT mission and 42 
percent were used for the Information Assurance mission.
We've focused our hiring program on core mission skills . . .
    One of the pillars of the NSA work force strategy is skills 
alignment, i.e., identifying the skill mix necessary to meet future 
goals and objectives. This includes evaluating the current work force 
skill mix, defining mission goals, matching the skill mix to the 
mission goals, and developing a plan to get from ``here to there.'' 
Hiring efforts in FY2003 were aligned with this plan. Over ninety 
percent of all FY2003 hires held a Bachelor's degree or above and the 
new hire class holds a 3.41 average G.P.A.
    NSA exceeded its hiring goals the last three years and maintained 
an 18.4 percent diversity-hiring rate. This is remarkable given that 
much of the Agency's hiring took place in the areas of language, 
analytical, and technical skills that traditionally have less diverse 
applicant populations. In addition, NSA achieved its best diversity 
results in computer science, organizational leadership and management, 
signals analysis, security, and cryptanalysis.
    Student programs hired an additional 333 students and achieved a 21 
percent diversity rate while shifting the skills of approximately 25 
percent of its FY2003 Cooperative Education, Summer, and Stokes 
Scholarship program skills from Electrical/Computer Engineering and 
Computer Science to language and intelligence analysis. New for FY2004 
is the Graduate Training Program, in which six outstanding technical 
undergraduates in Electrical/Computer Engineering, Computer Science, 
Systems Engineering, and Information Operations were recruited to 
continue their education at the Air Force Institute of Technology 
(AFIT) and the Monterey Postgraduate School (MPS). The Committee's 
inclusion of language authorizing this program in the FY2003 
Intelligence Authorization conference report is greatly appreciated.
    In addition, NSA's goals in FY2004 include a new two-year Stokes 
Program, geared towards students who have already started the study of 
a language in college; a significant increase in the percentage of 
language students accepted into the four-year Stokes Program; and the 
development of a High School Native Speaker Program, with a projected 
implementation date of fall 2004. Through this latter program, NSA will 
employ high school seniors, who have a native capability in a 
critically needed language, as high school work-study students, then 
employ and mentor those students through college while paying their 
college tuition. NSA also plans to bring in additional language 
students by participating in the Intelligence Community Analyst 
Training Program, when it becomes available.
We are particularly focused on language . . .
    In the past, much of the foreign language material that NSA 
processed for national security was somewhat formatted. We basically 
knew who our enemies were and we knew pretty much what to expect. That 
is no longer the case. Our enemies can be anywhere, and many of them 
would do us harm in ways that were previously unfathomable. While 
target and mission expertise is still critical for successful SIGINT 
work, the foreign language proficiency of the language professional is 
essential to successfully protect our country. We must understand not 
only the words, but also the intentions behind the words. This is 
defined as ``Level 3'' proficiency, which DIRNSA documented in April 
2002 as the formal requirement for working cryptologic language.
    At NSA, the Senior Language Authority works in a collaborative 
partnership with the Military Services and the Defense Language 
Institute/Foreign Language Center (DLI/FLC) on plans to bring the 
entire cryptologic language workforce, military and civilian, to Level 
3. These plans identify a need for considerable increases in funding to 
support adjustments in training, assignments, and numbers of billets.
    In this new environment, retaining skilled language professionals 
is particularly important. Earlier this year, NSA rewarded the 
qualified and stable staff of professionals who have the requisite 
language proficiency by increasing the Foreign Language Incentive Pay 
ceiling for civilians and encouraging DOD action for commensurate 
military increases in Foreign Language Proficiency Pay. In addition, 
the DIRNSA recently approved the second step--the Language Analyst 
Recruitment Bonus and Milestone Award Program. This program consists of 
two parts. First, a recruitment bonus for new hires will be used to 
enhance NSA's ability to set starting pay for language analysts at 
competitive levels. Second, a two-year milestone award program will 
serve as an incentive to retain new language analysts and encourage 
them to attain Level 3 language proficiency in the language for which 
they are hired.
    Thanks to the support of this Committee in the FY2003 Intelligence 
Authorization Act, NSA is working with the National Security Education 
Program (NSEP) and the National Foreign Language Center (NFLC) on 21st 
Century Distributed Learning (LangNet). This groundbreaking work at the 
University of Maryland revolutionizes language education in ``less-
commonly-taught languages'' (LCTLs) and at higher levels. This is 
accomplished by providing ``just-in-time'' language learning and 
maintenance opportunities on demand at a learner's convenience--night 
or day--through the Internet. To date, more than 1000 learning objects 
in 15 languages have been delivered.
    While the optimal language-learning environment remains a 
classroom, building a language workforce at the Level 3 proficiency 
requires 21st century alternatives. All learning objects align with the 
specific learners' preferences and needs based on diagnostic 
assessments. All are unclassified and can be shared throughout the 
nation at large and particularly with the new Flagship Universities, 
which sponsor programs designed to produce Level 3 proficient graduates 
in such languages as Arabic, Chinese, and Persian-Farsi. NSA is proud 
to support and advocate for this first-ever language-related academic 
initiative for our nation.
In calendar year 2005, two major language initiatives will begin . . .
    A new capability-driven language testing system will allow NSA to 
streamline its language assessments. NSA will go from its current two-
part performance-based testing system to a one-part proficiency-based 
assessment of reading and listening comprehension. In alignment with 
the Director's goal for all language analysts to maintain a minimum of 
Level 3 in reading and listening, additional funding has been allocated 
in FY2004 and beyond to provide training opportunities at the NSA 
National Cryptologic School with local vendors and, where possible, 
immersion training. NSA is committed to providing continuous learning 
and development opportunities for its language workforce worldwide. All 
language analysts are encouraged to pursue a variety of proficiency 
performance opportunities to maintain and improve their language 
readiness.
    The second major initiative is the Center for Advanced Study of 
Language (CASL) at the University of Maryland: The nations' 10th 
University Affiliated Research Center (UARC). The CASL at the 
University of Maryland will ensure sustained, sophisticated research in 
language and linguistics, critical to intelligence work related to the 
Global War on Terrorism. CASL represents a significant step toward 
strengthening our nation's language competence by building a community 
of researchers actively engaged in the practical scientific exploration 
of a skill so critical to the defense of our nation.
    Intelligence Community and Department of Defense Language Boards 
(composed of senior professionals from NSA, CIA, DIA, DLI, FBI, State 
Department, and the Services) identified the requirement for the UARC 
as part of an end-to-end solution to address and improve the U.S. 
government's foreign language deficiency. In addition to its value in 
foreign intelligence, the initiative will support effective response to 
language skill deficiencies identified by combatant commanders and 
combat support agencies.
    With an understanding of the critical nature of languages in 
national security, CASL will perform innovative research that is framed 
in the reality of classified missions. The research paradigm will shift 
from a traditional academic approach to a more pragmatic approach, 
investigating and improving how language professionals apply their 
skills in actual language work. Research will be responsive to the 
requirements collected, documented, and prioritized by U.S. government 
language professionals. CASL will also support the federal and national 
language skill communities by sharing knowledge, conducting independent 
evaluations, and fostering language and linguistics education.
    CASL will initially be comprised of approximately 80 University of 
Maryland staff members and U.S. government personnel, growing to 150 to 
200 personnel over the next five years. NSA, collaborating across DoD 
and the IC, will coordinate research priorities based upon unique and 
crucial needs of member components. NSA, DoD, and IC component agencies 
will provide technical leadership for management of the center and will 
integrate language professionals from their components into the 
research activity itself.
We're ensuring a well-trained work force with current skills to meet 
        NSA's evolving needs . . .
    NSA is committed to providing the highest level of training, 
development, and educational opportunities for its employees. In 
addition to offering a myriad of in-house, specialized technical, and 
cryptologic training, NSA contracts with academia, industry, and 
consultants to enhance the business and management skills of the 
workforce. NSA has a proud reputation of supporting the continuing 
education of its employees, and for FY2004 spent over $6 million to 
support continuing after-hours educational endeavors.
    NSA is an active partner in the Meyerhoff Scholarship Program 
created at the University of Maryland at Baltimore County in 1988 with 
a substantial grant from the Robert and Jane Meyerhoff Foundation. The 
program supports high-achieving students who are interested in pursuing 
doctoral study in the sciences or engineering, and who are interested 
in the advancement of minorities in the sciences and related fields. 
The National Science Foundation and The New York Times recognized the 
program as a national model. NSA has been supporting the program at an 
increasing level since 1992. The current grant allows NSA to sponsor up 
to 10 students.
    The Agency's new Center for Leadership and Professional Development 
has begun creating career road maps for the NSA work force throughout 
the 22 skill communities to which they belong and creating 
opportunities for employees to share technical knowledge and work 
experiences. NSA is aligning training and development initiatives with 
the mission needs of individuals, professional communities, and 
organizations and with values critical to the NSA transformation.
    NSA is dedicated to developing ``the leadership in all of us,'' no 
matter the level of the organization or the job title of the employee, 
whether the individual is a manager or a technical leader or an 
individual contributor called upon to lead a project or collaborate 
with a partner agency. While NSA's leadership and professional 
development efforts are focused primarily on strengthening the 
capability of team leaders, supervisors, managers, and senior leaders 
to achieve mission success through others, we recognize the need for 
all our employees to hone both their technical and leadership skills. 
Each NSA employee must be ready to assume leadership roles when the 
challenge arises and, for transformation to take hold, each employee 
must participate fully in this team sport called ``cryptology.''
    Within the Agency's new Center for Leadership and Professional 
Development, we launched an ambitious program of training and 
development targeted at both basic leadership competencies and specific 
management skills. In addition to management and leadership courses, we 
are offering opportunities for leadership assessment, coaching, 
mentoring, peer networking, and on-line resources to complement and 
reinforce learning.
We value diversity . . .
    NSA recently increased its ability to link diversity with strategic 
Human Resource policies, plans, and programs by placing the Office of 
Diversity Management (ODM) in the Associate Directorate of Human 
Resource Services (ADHRS). This move emphasizes the importance of 
attaining a diverse workforce by including ODM personnel in the 
development of strategic manpower management initiatives. The closer 
integration of these two offices will greatly increase partnership 
opportunities with key human resources personnel responsible for 
program development and administration, work force planning, 
recruitment and hiring, employee relations, dispute resolution, and 
customer service and support.
    The DCI emphasizes diversity as a corporate imperative--a strategic 
goal--and states, ``Our people are our most precious assets--not 
satellites, or light tables or high-speed computers.'' NSA needs to 
recruit and retain the best that America has to offer from all of her 
people.
    NSA has reaffirmed its commitment to diversity well beyond the 
recruitment and hiring initiatives mentioned above. Diversity is not 
just about fairness; it is mission critical. We incorporated this 
principle into our strategic and business planning and day-to-day 
operations.
    <bullet> NSA employees routinely provide leadership and consulting 
services to the Community Management Staff, IC partners, and the 
Defense Equal Employment Management Institute.
    <bullet> NSA's EEO and Diversity Strategies are clearly linked with 
the DCI Strategic Diversity Plan and are fully incorporated into the 
NSA Strategic Plan.
    <bullet> To ensure that Diversity Management is seen as a 
leadership imperative, we modified executive contracts to include 
``Leveraging Diversity'' as a critical component for success.
    <bullet> We established a team of six Executive Diversity Champions 
from the most senior ranks of our business and six Corporate Diversity 
Councils with charters designed to enable our business objectives.
    <bullet> We continue to offer and provide a wide range of diversity 
training to all of our employees.
                               conclusion
    People remain the key to NSA's success in the 21st century and 
beyond. We remain dedicated to those efforts that will ensure that we 
have a truly diverse work force, with the right people with the right 
skills in the right jobs. As we grow the work force we have an 
unprecedented opportunity to further transformation by eliminating the 
barriers that prevent a truly integrated, seamless, cooperative, 
learning, and thriving information enterprise. With your help, we will 
continue to provide the vital information that will enable the United 
States to maintain a decisive information superiority edge.
    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to testify before you today.

    The Chairman. Mr. Rodriguez from the Defense Intelligence 
Agency, the Office of Diversity Management and Equal 
Opportunity. We welcome you, sir.

STATEMENT OF ARMANDO E. RODRIGUEZ, CHIEF, DIVERSITY MANAGEMENT 
       AND EQUAL OPPORTUNITY, DEFENSE INTELLIGENCE AGENCY

    Mr. Rodriguez. Representative Goss, Representative Harman, 
committee members, on behalf of Admiral Jacoby, Director of the 
Defense Intelligence Agency, thank you for the opportunity to 
address you today. As you are aware, I am the new Chief of our 
Diversity Management and Equal Opportunity, having joined DIA 2 
weeks ago. I am honored to talk about the extensive and 
innovative programs and initiatives being implemented across 
the Defense Intelligence Agency to optimize the Intelligence 
Community's capabilities.
    I chose DIA over other departments and agencies for their 
leadership, commitment to diversity and acquiring a workforce 
with the skills required to meet the formidable challenges we 
face now and into the future. The key to building DIA's future 
workforce are through unprecedented strategic initiatives, 
which I will highlight as they are related specifically to the 
areas you have expressed.
    DIA recruitment, retention and training strategies have 
been transformed to create and maintain the critical talent 
required to meet the challenges of the 21st century. We have 
launched key initiatives to ensure a partnership of highly 
skilled people and leading-edge technologies to provide 
warfighters, policymakers and planners with assured access 
through acquired intelligence.
    The competition with the private sector. DIA does compete 
with the private sector for talent on both the hiring and 
retention fronts. On the hiring front, competition has 
increased precipitously with the hope of new private sector 
companies making their foray into the intelligence domain. 
There has also been additional competition from other IT 
organizations as well as States and local governments who are 
also building their own intelligence capabilities.
    On the retention front, public sector organizations have 
been a bigger competitor in the private sector. Of those who 
have left DIA over the past 3 years, approximately 40 percent 
have indicated their employer has been a public sector 
organization, and only about 10 percent private sector 
companies. Beginning in fiscal year 2003, we have instituted 
rigorous attrition analysis in order to better understand the 
factors of attrition. The Agency is also currently developing 
corresponding mitigation strategies to address these factors.
    In the recruitment and development efforts, our diversity 
efforts are overwhelmingly focused on the critical skills area. 
We would emphasize, however, that our targeted outreach efforts 
will not be conducted in a manner that undercuts equal 
opportunity and recruitment of all racial and ethnic groups, 
both minority and nonminority, nor are our diversity programs 
intended to achieve proportional representation on the basis of 
race or ethnicity.
    Human Resources has worked with Agency directorates to 
develop annual workforce plans which will define the needed 
skills. Armed with these skill requirements, Human Resources in 
conjunction with Diversity Management and Equal Opportunity 
built a recruitment program that targeted a diverse set of 
applicants with the necessary skills mix for mission 
accomplishment. To assist in this effort, DIA has hired the 
services of a professional advertising agency, TMP. TMP has 
received national recognition by the Society of Human Resource 
Management for three ads designed specifically for DIA. These 
ads were recognized in the creative excellence award category 
for design and presentation both in black and white magazine ad 
category as well as the online advertising. DIA's ad campaign 
was designed to reach the broadest audience nationwide.
    In fiscal year 2003, DIA embarked on a very intense and 
aggressive hiring program to meet the current and future skill 
set. DIA participated in 72 recruitment events at academic 
institutions, military sites and professional organizations. We 
hired over 600 employees in fiscal year 2003, by far the 
largest influx of new employees in recent memory.
    With regard to development of DIA language capabilities, 
DIA has morphed its strategy to meet the growing global 
requirements. Today we recruit individuals with a number of 
targeted languages. Many requirements for linguists since 9/11 
have been filled with contract linguists. DIA has a distinct 
advantage in our attacks system in that the majority has 
language proficiency. Currently we have a requirement for 
nearly 1,000 linguists who will be--who will enhance their 
capabilities by being in a country and learning the cultural 
context of the area. DIA has--is concentrating on recruiting 
people with language capabilities that will support our 
requirements.
    The ability to replace large numbers of experienced 
persons. Challenges associated with the number of recruitment-
eligible employees continues to exist at DIA. Currently 30 
percent of our workforce is eligible for some form of 
retirement; however, only 10 to 15 percent of those eligible 
actually execute retirement options each year. We recognize 
this and have identified the need for a formal succession 
planning framework to minimize the loss of critical 
institutional knowledge and mission-critical skills. DIA's 
workforce planning effort is currently developing a succession 
planning transition plan that will establish and institute 
succession planning into DIA's business processes.
    We have made a keen investment to ensure that our 
capabilities are the capabilities required to meet the emerging 
and evolving mission through our workforce planning efforts. 
Today the national security environment requires the Department 
of Defense reconsider traditional concepts and think in new 
ways about the global threat and our corresponding deterrence, 
warning and military superiority strategy. For Defense 
Intelligence Agency, the complexity of these challenges and 
breadth of the opportunities has never been greater. To address 
these challenges and maximize our accompanying opportunities, 
we have commissioned a workforce planning project to set a 
framework for making fundamental changes to the business 
processes and to our workforce.
    In summary, we are optimistic about the possibilities and 
believe we have a unique opportunity to transform the 
intelligence capabilities, personnel and processes to support 
those that protect and defend our country and its principles. 
DIA is exploring new and innovative approaches to attract and 
retain the diversity of skills and capabilities needed in this 
very dynamic, global, complex environment in which we live. We 
do not intend to let this opportunity pass. Rather, we are 
working to seize it and to optimize our capacity to serve our 
warfighters, support our planners, and inform our policymakers 
so they have the best basis for decision-making possible.
    Mr. Rodriguez. Our Nation requires it, our forces depend on 
it, and our professionalism demands it.
    I want to thank you, Representative Goss, Representative 
Harman and committee members. This concludes my statement.
    The Chairman. Thank you very much, Mr. Rodriguez.
    [The prepared statement of Mr. Rodriguez follows:]

 Prepared Statement of Armando Rodriguez, Chief, Diversity Management 
       and Equal Opportunity Office, Defense Intelligence Agency

                            i. introduction
    Thank you for this opportunity to talk about the extensive and 
innovative programs and initiatives being implemented across the 
Defense Intelligence Agency to optimize Intelligence Community (IC) 
capabilities. As the Chief, Diversity Management and Equal Opportunity 
Office, DIA, I am pleased to say that the IC agencies are collaborating 
at an unprecedented level in sharing ideas, resources and expertise to 
ensure that the IC has the diversity and skills that are required to 
meet the formidable challenges we face now and into the future.
    The keys to building DIA's future workforce are through 
unprecedented strategic initiatives, which I will highlight today as 
they relate to your expressed areas of interest. DIA recruitment, 
retention, and training strategy have been transformed to create and 
maintain the critical talent required to meet the challenges of the 
21st Century. DIA has launched key initiatives to ensure a 
``partnership of highly skilled people and leading edge technologies to 
provide war fighters, policymakers and planners with assured access to 
required intelligence.''
                ii. competition with the private sector
    DIA competes with the private sector for talent on both the hiring 
and retention fronts. On the hiring front, competition has increased 
precipitously with a host of new private sector companies making their 
foray into the intelligence domain. There has also been additional 
competition from other IC organizations as well as state and local 
governments, which are also building their own intelligence 
capabilities. On the retention front, public sector organizations have 
been a bigger competitor than the private sector. Of those who left DIA 
in the past three years, 35% indicated their next employer as a public 
sector organization and only 10% as private sector companies. Beginning 
in FY03, DIA instituted a rigorous attrition analysis program in order 
to better understand factors of attrition; the Agency currently is 
developing corresponding mitigation strategies to address these 
factors.
   iii. recruitment and development efforts to create and maintain a 
   workforce with the necessary educational, linguistic, ethnic and 
                  experiential backgrounds and skills
    I want to emphasize that our diversity efforts are overwhelmingly 
focused on the critical skill areas. In the years prior to 9/11, the 
focus of DIA's strategic recruitment program focused on academic 
disciplines steeped toward analysts, collectors, and information 
managers with specialized skills. Directorate requirements changed 
little from year to year, and essentially mirrored those skill sets of 
the current workforce.
    While some efforts were made toward a more strategic approach to 
defining future skills requirements prior to 9/11, the terrorist 
attacks drove the Agency to accelerate and redefine the very nature of 
our intelligence officer and support officer core. DIA's analytical 
focus returned to truly ``all source'' analysis, providing immediate 
on-demand access to all sources of data. Its collection focus changed 
from episodic reconnaissance, primarily from technical collection 
platforms, to long-dwell, persistent surveillance, with a heightened 
emphasis on Human Intelligence (HUMINT) collection. Information 
management focus shifted toward content tagging and building 
interoperability at the data, vice systems level, enabling horizontal 
integration of information from all sources, at all levels of 
classification.
    To meet this change in Agency focus, DIA's Office for Human 
Resources (DAH) worked with Agency directorates to develop annual 
workforce analysis plans which defined the needed skill sets. Armed 
with the skills requirements, DAH, in conjunction with the Diversity 
Management and Equal Opportunity Office (MD), built a recruitment 
program that targeted a diverse set of applicants with the necessary 
skills mix for mission accomplishment. Last year, DIA hired a 
professional ad agency, TMP. The three DIA specific ads they developed 
won National recognition through the Society of Human Resources 
Management. The DIA ads were recognized in both the creative excellence 
award category for design and presentation, and in the black and white 
magazine ad category.
    In FY03, DIA embarked on a very intense and aggressive hiring 
program to meet current and future skills sets. DIA participated in 72 
recruitment events at academic institutions, military sites, and 
professional organizations. DIA hired over 600 new employees in FY03, 
by far the largest influx of new employees in recent memory!
    Hiring:

                                               HIRING RATE SUMMARY
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                       FY01            FY02            FY03
----------------------------------------------------------------------------------------------------------------
DIA.............................................................               9              10              16
Federal Government..............................................             *20            **21           ***17
----------------------------------------------------------------------------------------------------------------
* Based on BLS data from calendar year January-December 2001.
** Based on BLS data from calendar year January-December 2002.
*** Based on BLS data from September 2002-August 2003.

     With regard to development of DIA language capabilities, DIA has 
morphed its strategy to meet growing global requirements. Over the past 
several years, Agency demand for analysts with language capability has 
increased significantly. We are transforming a workforce able to meet 
multiple global crises, meet the ability to surge as required, and meet 
a growing need for a more geographically mobile workforce. Language 
capability and cultural awareness via overseas experience enhances our 
ability to meet these mission needs.
    In addition to an increased language emphasis for our analytical 
workforce, DIA's renewed emphasis in the area of HUMINT necessitated a 
corresponding increase in the requirement for language skills. Today, 
DIA recruits individuals with a number of targeted languages. DIA has a 
distinct advantage in our attache system, in that the majority has 
language proficiency.
    Many requirements for linguists since 9/11 have been filled with 
contract linguists. Currently, DIA has a requirement for nearly 1000 
linguists, who will enhance their capabilities by being in a country 
and learning the cultural context of the area. Reservists offer us 
another resource and we are using them in all our operations.
    Prior to 9/11, recruitment of analysts and HUMINT personnel with 
language skills was highly desired, but not an absolute requirement. 
DIA intends to expand and make language proficiency and cultural 
orientation mandatory for many of our specialists.
    DIA is concentrating on recruiting people with language 
capabilities, and targeting recruitment in areas in the U.S. with high 
representation of ethnic capabilities that will support our 
requirements.
    We would emphasize, however, that our targeted outreach efforts 
will not be conducted in a manner that undercuts equal opportunity and 
recruitment for all racial and ethnic groups, both minority and non-
minority. Nor are our diversity programs intended to achieve 
proportional representation on the basis of race or ethnicity.
    At the Intelligence Community level, DIA participates in four 
recruitment events per year as part of a collaborative effort to 
enhance the IC presence at colleges, universities, and professional 
association events. Additionally, DIA maintains a presence on the 
Intelligence Community Internet website, and has led and participated 
in Intelligence Community advertising programs. In fiscal year 2003, 
DIA led an unprecedented initiative to develop and publish a joint 
Intelligence Community Agency ad, in three of the broadest reaching 
minority publications.
    The Community Diversity Issues Board (CDIB) maintains a key focus 
on academic outreach. We believe the key to effective strategic 
recruitment is connecting with students and the faculty that prepares 
them to enter our agencies. We need to make them aware of the academic 
majors and skills we require, including foreign languages, and the many 
exciting and rewarding career opportunities that we offer. Therefore, 
student programs and academic outreach are a very important part of our 
strategy. IC agencies, individually and jointly through the IC 
Recruiting Working Group, participate in a host of job fairs each year 
to reach diverse candidates in critical skill areas. Some examples of 
career fairs that agencies will jointly participate in this fall 
include:
          <bullet> Women for Hire, Crystal City, VA;
          <bullet> Career Expo for People with Disabilities, 
        Washington, DC;
          <bullet> Asian Diversity for Hire, New York City; and
          <bullet> American Indian Science and Engineering Society, 
        Albuquerque, New Mexico
IC agencies will participate in many similar recruitment activities 
        throughout the year
    The CDIB led two Intelligence Community Colloquia in FY 03. The 
purpose of the colloquia is to increase awareness of the role, mission 
and contributions of the IC among colleges and universities that have 
significant minority enrollments and to foster enhanced recruiting and 
academic relationships with these schools. The initial pilot for our 
colloquia was held at Trinity College here in Washington in October 
2002. Trinity is a college for women and also has a large enrollment of 
African-American students. In September 2003, DIA led an IC colloquium 
at New Mexico State University where Dr. Mark Lowenthal was our guest 
speaker. Dr. Lowenthal, along with eight other senior executives from 
across the community, enthusiastically shared about the real world 
challenges we face, the importance of what we do, and the type of 
talent we need. The target group at New Mexico State was Hispanics. 
Approximately 60% of the students enrolled in the Intelligence Studies 
program there are Hispanic. New Mexico State University is home to an 
intelligence studies program that develops key skills and competencies 
in full alignment with intelligence agency requirements. Students often 
work directly with intelligence contracts as part of their academic 
experience, and have a security clearance upon graduation, thereby 
expediting their transition into our work environment. An additional 
colloquium is planned in Atlanta in November which targets Historically 
Black Colleges and Universities. We are also considering a colloquium 
on the west coast that targets Asian-American and Hispanic students. In 
publicizing the colloquia, we make it clear that we are focusing on 
students majoring in area studies, international studies, languages, 
engineering, and other core skill subjects.
    The CDIB has acquired the services of the Hudson Institute, the 
renowned organization that published Workforce 2000 and Workforce 2020, 
to assist us developing innovative diversity recruitment and retention 
strategies. In Workforce 2020, the Hudson Institute predicts that 
competition for the type of skills required by the IC will greatly 
intensify. It also predicts continuing growth in the proportion of 
minorities and women in the workforce. Currently, at least one third of 
all new entrants to the workforce are minorities and half are women. We 
must become more deliberate in our outreach to these growing segments 
of the population if we expect to effectively compete for the talented 
applicants. We have asked the Institute to conduct an analysis of the 
U.S. labor force in relation to core IC skill requirements, such as 
area studies and languages, and recommend recruitment and retention 
strategies tailored to the IC.
    HPSCI language in the FY04 Intelligence Authorization requires a 
diversity pilot project to ``improve diversity throughout the 
intelligence community using innovative methodologies for the 
recruitment, hiring and retention of ethnic and cultural minorities and 
women with the diversity of skills, languages and expertise reflective 
of the current mission''. The Community Diversity Issues Board is 
excited about this project and has already identified two initiatives 
that we will undertake to meet the challenge.
    (1) Targeted Marketing. The first initiative is targeted marketing. 
This effort involves the development of marketing strategies tailored 
to reach specific ethnic, cultural and minority groups. We know that 
traditional methods alone, such as career fairs, will not achieve the 
results we want.
    With the assistance of professional marketing consultants, we will 
obtain feedback from focus groups representing the target populations 
in order to design and place ads that will most effectively attract the 
right candidates. CIA is taking the lead in this effort and the 
community will build on what CIA has already successfully accomplished. 
CIA has already conducted focus groups of Chinese, Korean, Arab, 
African, and Hispanic Americans. Additional focus groups are planned 
for Native Americans and persons with disabilities.
    To give you some idea of the value of the focus groups, allow me to 
describe what was involved in conducting the Arab-American groups. 
Eight focus groups were convened in areas where large numbers of Arab 
Americans reside, including Detroit, Michigan and Tampa, Florida. 
Participants were asked about resources they use when looking for a job 
and their perceptions about working for the government and the 
intelligence community. Using their responses, as well as their 
feedback on proposed advertisements, CIA developed a print ad 
specifically geared to Arab Americans and published the ad in media 
most likely to reach high potential candidates. The response from Arab-
American job-seekers has been outstanding.
    Our objective is to expand on what CIA is doing by developing 
Intelligence Community ads as well as applying the results of CIA's 
marketing study to develop DIA's marketing strategies. We will ensure 
that IC ads focus on the language skills, cultural background and 
regional expertise we need. We envision applying a wide array of media, 
including radio, television, newspapers, ethnic publications, and the 
internet.
    (2) High School Outreach. The other initiative is High School 
Outreach. Our goal is to reach potential candidates earlier and create 
an interest in IC careers with an emphasis on critical skill 
categories. Waiting to contact students until they are already in 
college may be too late to influence their choice of an academic major. 
It also places the IC at a disadvantage when competing with large 
corporations that are household names. For the pilot, we will start 
with high schools in the Washington metropolitan area, a region rich in 
diversity. We will target schools offering science and technology 
programs, language programs, and other programs that prepare students 
for the college majors we need. In addition, we will target bilingual 
and bicultural students. Some of the activities planned include 
participation in high school career days as well as hosting a regional 
IC Career Fair. Ultimately, our objective is to steer high potential 
candidates into one of many IC student programs and convert the most 
successful students to permanent employees.
iv. ability to replace the large number of experienced persons soon to 
                       be eligible for retirement
    Challenges associated with the number of retirement eligible 
employees continue to exist at DIA. Currently, 30% of DIA's workforce 
is eligible for some form of retirement; however, only 10% to 15% of 
those eligible actually execute their retirement option each year. DIA 
recognizes this, and has identified the need for a formal succession 
planning framework to minimize the loss of critical institutional 
knowledge and mission critical skills. DIA's Workforce Planning effort 
is currently developing a succession planning transition plan that will 
establish and institute succession planning into the way DIA does 
business.

 
                                             ATTRITION RATE SUMMARY
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                                       FY01            FY02            FY03
----------------------------------------------------------------------------------------------------------------
DIA.............................................................               7               9              11
Federal Government..............................................             *16            **16           ***15
----------------------------------------------------------------------------------------------------------------
* Based on BLS data from calendar year January-December 2001.
** Based on BLS data from calendar year January-December 2002.
*** based on BLS data from September 2002-August 2003.

    DIA has made a keen investment to ensure it has the capabilities 
required to meet emerging and evolving mission through its workforce 
planning efforts. Today's national security environment requires that 
the Department of Defense reconsider traditional concepts and think in 
new ways about the global threat and our corresponding deterrence, 
warning, and military superiority strategy. For the Defense 
Intelligence Agency, the complexity of these challenges and breadth of 
opportunities has never been greater. To address these challenges and 
maximize accompanying opportunities, DIA commissioned a Workforce 
Planning project to set the framework for making fundamental changes to 
our business processes and our workforce.
    This project is a long-term multi-year effort that began in January 
2003. We hired two contractor teams to assist in this project and 
developed a four-phased approach that will be completed at the end of 
this calendar year. Phase one involves capturing the future 
environment. We hired Toffler Associates and Dove Consulting to conduct 
research and provide context for the future, specifically in the areas 
of technology, process, structure, strategy, and people. For Phase two, 
we hired BearingPoint and Keane Federal Systems to capture information 
about our current workforce and the business processes that support it. 
Phase three will require both contractor teams to identify the gaps 
between our current workforce and processes and the workforce of the 
future, and make recommendations on closing those gaps. Phase four is 
the transition planning phase that will provide transformational 
roadmaps in eight specific areas: Succession Planning, Compensation and 
Rewards, Training, Recruiting, Career Development, Performance 
Management, Staffing, and Workforce Planning. Each of these transition 
plans will help us institutionalize the changes we need to make in our 
processes and workforce, and build the capability to put the right 
people with the right skills in the right place at the right time.
                               v. summary
    In summary, we are optimistic about the possibilities and believe 
we have a unique opportunity to transform the intelligence 
capabilities, personnel, and processes that support those that protect 
and defend our country and its principles. With full collaboration 
across IC agencies, and partnerships with both academia and 
professional consultants, DIA is exploring new and innovative 
approaches to attract and retain the diversity of skills and 
capabilities needed in this very dynamic, global and complex 
environment in which we live. We do not intend to let this opportunity 
pass; rather, we are working to seize it and optimize our capacity to 
serve our war fighers, support our planners, and inform our 
policymakers so they have the best basis for decision making possible. 
Our Nation requires it, our forces depend on it, and our 
professionalism demands it.

    The Chairman. At this point, I am going to go to panel 
questioning, and I think we can go about 45 minutes or so 
before we bring in our second panel, would be my intent. I am 
assuming no votes.
    Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and I thank our 
witnesses for explaining in great detail what they are doing to 
recruit and retain a diverse workforce. It matters. And you are 
obviously all making a great effort.
    In 1969, when I graduated Harvard Law School, one of a tiny 
little band of women and minorities, almost none of us, or none 
of my predecessors who were women and minorities, were hired by 
the big law firms. In my graduating year, for the first time, 
the law school insisted any law firm that came to campus had to 
interview--had to--all qualified applicants. And lo and behold, 
women and minorities were hired by law firms.
    Thirty-four years later--but who is counting--now there are 
women and minorities in the Fortune 50, there are women and 
minorities who are deans of law schools, including Harvard and 
major business schools, there are women and minorities in the 
top tiers of all recent administrations including this one, but 
there is only one woman and no minorities in the top tier of 
the Intelligence Community agencies.
    The only woman who has made it to that level, or is 
presently at that level is JoAnn Isham, who is Jim Clapper's 
very able partner. And she is there, not because it is 
politically correct, but because she earned it. And she 
functions there, I know he will tell all of us, as a very 
valued senior employee of NIMA.
    Here is what I want to get at in my remaining 2 minutes. It 
is why reaching for the entire talent pool matters. In Jim 
Clapper's testimony--we happened to get it in its first version 
and then its excised version--there was this sentence that 
said: ``the impact of diversity includes the benefit of often 
divergent perspectives in solving problems, and presents 
opportunities for creativity not available to a more 
homogeneous group.'' I am not sure why that sentence was 
excised; I certainly agree with it, and I think most of the 
witnesses testified to it in their testimony.
    But, anyway, here is my question: In The Washington Post 
earlier this week, I thought there was a very good article 
about what we are reportedly learning from Tariq Aziz, one of 
the senior Iraqi officials who has now been captured by our 
forces, and he was analyzing the personality of Saddam Hussein 
and why it might have been that the weapons of mass destruction 
weren't there but Saddam Hussein could not admit that because 
of the importance of saving face.
    Now, that is a perspective that I think some of us might 
think about. But my question specifically is, if we had more 
diversity at senior levels in your agencies as you helped 
collect and analyze information on the Iraq problem, do you 
think that that diversity might have added something to your 
understanding of the psyche of Saddam Hussein and that might 
have added something to our understanding of whether he had 
weapons of mass destruction or not; and if he did not, what his 
motivation might be for not telling us that at the time?
    General Clapper. I will take a try at that. That is kind of 
a clairvoyance question. But I think it is safe to say, 
Congresswoman, that were there more diversity, it certainly 
would not detract from the analytic approach to trying to 
understand the psyche of Saddam Hussein. I think that is a safe 
statement. The extent of how might we empirically measure were 
there more diversity at the senior levels, which I think is 
your question, that is hard to say. But it certainly would not 
hurt it.
    Ms. Harman. If I might add, Mr. Clapper, and to all of us, 
I am not just asking about the empirical scientific 
information, I am asking about the understanding of Iraqi 
culture and the motivation of Iraqi leaders perhaps to mislead 
us in ways that we had not properly assessed.
    Mr. Teets. I would just simply say that both in my career 
in industry as well as my current activity within the 
government, I have found diversity to be an enormously powerful 
tool. And given any difficult problem, as certainly the 
collection of intelligence is a difficult problem and the 
analysis of intelligence is a difficult problem, any problem 
like that, you get much, much better perspective when you have 
a diverse group of individuals who are coming at the problem in 
a positively spirited way but from very different backgrounds. 
And the power of diversity has been demonstrated amply in many, 
many basis.
    Mr. Black. If I could. In the case of the National Security 
Agency, you noticed I mentioned Level 3 in linguists. That 
means a linguist is almost native. We, in fact, require that 
the individuals totally understand their target and who they 
are, how they function, and how they think. Even if we take a 
Level 3 individual off the street and bring them into our 
business, it takes us 18 months to take an American that speaks 
at the level 3 level to begin to once again understand their 
target.
    The understanding of the target, which diversity obviously 
impacts, is critical to us. We could not do our job without it. 
So yes, it is an important aspect.
    Ms. Harman. And Mr. Black, if you could hire someone with 
built-in language competence and that cultural awareness, 
because that person has the background or that person is an 
Iraqi American, a patriotic Iraqi American, wouldn't that jump-
start a lot of this and help you use your scarce resources to 
train even more folks to be knowledgeable?
    Mr. Black. Yes, ma'am. The fact is that is where we get an 
awful lot of our very best.
    Mr. Harman. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Hastings.
    Mr. Hastings. Mr. Chairman, when I sat here, Mr. Reyes and 
I, after our witnesses finished, decided that we may as well 
pack up and go home because everything is okay. And I am 
vitally interested in a number of things that I recognize are a 
continuing problem.
    I want to begin with a program that was initiated by one of 
our predecessors, Mr. Lou Stokes, in the late eighties. He 
helped create the Undergraduate Training Assistance Program. 
The goal of that program was to increase minority and female 
representation in the community. I would like to know why has 
there been a marked decline in the number of minority and 
female participants in the program. The total number of CIA 
participants in the program dropped by approximately 90 percent 
from the early nineties to 2000.
    Now, Lou spoke with me personally about his concern about 
the direction of the program. I would like to hear from some of 
you that know something about it.
    Mr. Cryer. Mr. Hastings, I know you have addressed CIA on 
this subject on a number of occasions, and I would say to you 
that we are also concerned, as you are, with the drop-off of 
participation of minorities in that program. We have now, in 
the CIA, centralized that effort under the Director of 
Recruitment, Harold Tate, and our progress to date shows that 
we are now increasing our numbers of students in that program.
    We have also taken another step to look not only at high 
school students, but students who are in their first and second 
year of college, as potential candidates to come into that 
program. But we also see the problem of drop-off not just being 
a recruitment issue, but as we have studied this problem we 
learned from many of the participants in the programs that once 
they were recruited, got into those offices, they really got 
into situations that weren't nurturing and certainly did not 
encourage their continuation.
    Mr. Hastings. So you are going after that?
    Mr. Cryer. Right. So we are going after that problem.
    Mr. Hastings. Well, the numbers are horrible, and I just 
wanted to share with you that the author of the program at 
least is concerned.
    But Mr. Cryer, while you answer, tell me your view 
regarding specifically African Americans in the CIA at this 
point. I think the track of Hispanics and women will follow 
pretty much what I am asking at this time.
    Now, you, Mr. Tate, Ms. Stroud have reached a moderate age 
in the agency, as well as----
    Mr. Cryer. Thank you, sir.
    Mr. Hastings. As well as many of your colleagues that are 
black, and you all ain't gonna be there much longer. I would 
like to know what is in the pipeline that is going to replace 
you and what direct efforts are going on. Because as I look at 
it--and I think I know the answer, and I am not trying to be 
rhetorical--there are not too many people doing what you all 
are doing, in a position to do what you do when you leave. So 
we are going to wind up with a problem, a gap, when you all 
retire.
    Mr. Cryer. Right. Well, we are very much aware of that 
problem. We know that many of our senior executive minority 
officers will be retirement eligible in the next 5 years. One 
of the things that we have done in the community is to bring in 
a predictive analysis model that looks at all of the dynamics 
of hiring, attrition, promotions, advancement, et cetera, to 
predict what those outcomes will be 5, even 10 years out, so 
that we can come up with strategies to mitigate against the 
kinds of concerns that you are addressing. So we are looking at 
that problem.
    The other side of this, of course, is that many 
organizations are faced with the same problem of losing 
institutional knowledge, senior executives, and there are 
strategies that are being looked at to find ways to retain 
those persons longer in the workforce than would otherwise be 
the case. So I can tell you that we are very focused on that 
issue and hope to come up with strategies to help us to deal 
with it.
    Mr. Hastings. I appreciate that very much. I think what the 
agency has, or the Intelligence Community has in the way of a 
problem is developing a hoops-to-jump-through problem. From 
time to time the models have changed and the hoops have 
lessened, but when a hoop is removed--let us take marijuana for 
example; it was a big hoop 40 years ago, and you couldn't 
become an agent if you had smoked marijuana. So they got rid of 
that hoop and said if you admit it, then maybe it will be all 
right if you can vet on the rest of it. But there are other 
kinds of hoops.
    And I keep saying this, and I am going to say it until 
somebody hears me: Everybody does not have to have more degrees 
than a thermometer to be a spy. You can find some people that 
may not speak as accurately or with articulation that many of 
us claim to do that can do what you do, but you have to get 
beyond it. And that is true here in the congressional culture 
as well as if we are talking about diversity.
    Mr. Chairman, I think I have overspent my time. I thank you 
very much for the time.
    The Chairman. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman, and I wanted to thank 
you for holding this hearing. As you know, I am finishing up my 
third year on this committee, and this is an issue that I think 
is imperative that we not just address in this hearing but 
continue to address because the statistics, in my opinion, are 
horrible in terms of diversity for the Intelligence Community.
    I wanted to thank Secretary Teets for your words and also 
pass on to Mr. Tenet, who both of you have given me an 
opportunity to come out and address the issue of diversity, and 
I appreciate that. And I do so because I think, as the Chairman 
set out his three main reasons for the importance of this 
hearing, the highest one is national security and the fact that 
I believe, based on my experience--and I couldn't agree more 
with my colleague--that you don't need a whole litany of 
degrees to do good work in this area.
    In fact, based on my experience, you have got to be able to 
blend in, and that doesn't mean that you go out and get people 
that look ideal in a three-piece suit. You have got to get 
people that can pass off as scumbags. That is the reality of 
it. And that doesn't just include minorities. I have had an 
extensive career as a chief in the Border Patrol where 
antismuggling and working undercover operations were an 
important part of being successful on the U.S.-Mexican border. 
So this is an issue that is vitally important to me.
    But I want to start off by addressing two issues. The first 
one, Mr. Rodriguez--and welcome on your third week, it must be 
a daunting challenge to come before the committee to defend an 
abysmal record in terms of diversity. But let me tell you that 
the Defense Attache Program, which you mentioned, is usually 
the most senior U.S. department official in a host country. It 
is a very important and visible position. That is the face that 
the Defense Department is putting forth abroad. How diverse is 
the Defense Attache Corps?
    I do extensive traveling as a Member of Congress, and I can 
remember one minority being in that defense attache position. 
Do you know how diverse that Attache Corps is?
    Mr. Rodriguez. I do not have any data to give you the 
racial or ethnic breakdown of that particular part of the 
organization, but we do know that when you talk about 
diversity, you are talking about beyond the racial and ethnic 
looks of an individual.
    When you look at that particular part of an organization, 
you have to look at the skills set. And I can assure you that 
our first and foremost requirement is the skill. That is what 
we need there. What we need to do as a community, if I may, 
sir, what we need to do as a community when we talk about 
succession planning, we have more opportunities today to bring 
diversity into the workforce than we have ever had in this 
country. When you start looking at filling jobs at the higher 
level, you are filling jobs primarily with a labor pool or an 
applicant pool that is the tail end of the baby boomers, and 
that is where we lack a lot of diversity.
    So once we understand that dynamic, we know that if we are 
going to diversify the workforce in the manner that I believe 
you are looking at, you need to start very diligently with the 
intakes of the entry-level individuals.
    Mr. Reyes. The pipeline that my colleague was referring to.
    Mr. Rodriguez. The pipeline loses diversity as you look up, 
based on the available labor pool that would qualify for those 
particular positions.
    Mr. Reyes. Well, that brings me to my second point which is 
that, according to Table 15 in the DCI's fiscal year 2002 
diversity report, the overwhelming percentage of people 
attending senior military service schools and military command 
and staff colleges are white men. To say that I find that 
troubling is an understatement. And I wanted to get your 
perspective as panelists on personnel that are being groomed to 
lead through these efforts, not adequately representing the 
workforce of this country, and certainly taking into account 
the conflicts and challenging worldwide mission that we have 
seen brought home since 9/11.
    How does the Intelligence Community intend to increase the 
diversity of participation in these critically important 
career-enhancing programs? We will start, Mr. Teets, with you.
    Mr. Teets. I would simply say that I would encourage all of 
our diverse employee force to engage--embrace methods of 
personal development. And as it relates to attendance at senior 
service schools, I don't have the demographics at my disposal 
right at the moment as to the NRO population and how many 
people attend senior service schools versus those that don't, 
but I would be more than happy to take that as a question for 
the record and get it back to you.
    I would encourage in a major way all of our employees to 
take a hand in their own career development and aggressively 
engage and take advantages of the opportunities that are 
afforded to employees at the NRO.
    Mr. Reyes. But from my perspective, when we hear this 
morning that since 2000 we are doing really good because our 
classes have 20 percent diversity, that to me is horrible to 
hear that since 2000 only 20 percent of those that we are 
recruiting are minorities. That is the figure that was given to 
us this morning.
    It seems to me like if we identify that we have a 
shortfall, that we have underperformance in a particular area, 
shouldn't we be trying to compensate? Shouldn't we be going not 
just to universities and colleges but to police departments and 
other entities to try and balance that off in terms of what we 
are trying to compensate for, and still maintain the same level 
of entry-level competence that is required by a very, very 
critical element in keeping this country's national security 
uppermost in everybody's mind?
    Mr. Rodriguez. If I may speak for DIA in terms of that 
particular effort, we recognize that we have to do more than we 
have done in the past. And if you take just as an example what 
we are doing in terms of the target of recruiting, using the 
advertising agency, I think that is a monumental step in moving 
in the right direction. And by that I am referring to the 
specific ads that will be placed in specific targeted journals, 
if you will, newspapers with professional organizations, et 
cetera, that begin to tell people about the opportunities 
within our agency.
    I think that is paramount, and we are doing that now. Our 
efforts are actually bearing fruit. Our diversity continues to 
grow. No, it is not perfect, but at least the progress is in 
the right direction. So we will continue to step up efforts 
like that, because people don't know who we are, certainly in 
the minority community. This is a brand new opportunity for 
them that they have never been exposed to.
    So here we are starting to make the leaps in that area. I 
think that is critical. I think we are all going to be stepping 
up to the plate on that and you will see results, slowly, 
unfortunately, but you will see results over the coming years.
    Mr. Hastings. Would my colleague yield for a statistical 
sentence? Seventy percent of all Intelligence Community 
managers are male, and 77 percent of the managers at the senior 
executive level are male. I hope you all hear us here.
    Mr. Reyes. Let me just, Mr. Chairman, thank you for your 
patience on this. But let me just give another statistic so 
that all of us may mull this over, because we are talking about 
the feeder pipeline in recruits out there, and this relates 
specifically to congressional fellowships and how candidates 
are being selected for these fellowships.
    In fiscal year 2002, 58 percent of fellowships were white 
males, 23 percent were females, and 17 percent were minority 
males. That is the reality. Those are the statistics. And you 
can come in here and try to put the best face on we are going 
to, we are about to, we are thinking about, but the reality is 
this is a horrible, horrible track record in a very critical, 
critical issue for national defense. And we have got to do 
better or else we are going to reap the whirlwind of disastrous 
consequences by not being able to understand the culture, by 
not being able to get in the mindset of those very same enemies 
that we so worry about repeating 9/11.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Hoekstra.
    Mr. Hoekstra. Thank you, Mr. Chairman.
    Mr. Black, you said we couldn't do the job without it, and 
I think you are talking about having diversity, having language 
capabilities, and having cultural understanding. As I have had 
the opportunity to travel and visit with our folks in the field 
and talk with Dr. Kay and go to Afghanistan and other hot 
spots, it is clear that we can't do the job without it. They 
are having great difficulty getting their jobs done because we 
don't have enough folks with these kinds of skills readily 
available to go in and act in a timely way to get their jobs 
done, and I think we are paying a price for it.
    Some of what I have heard today says that we are doing more 
of the same that we did maybe during the nineties. This is not 
a new issue. When I first came on the committee 3 years ago, 
this was something that was brought up consistently, a lack of 
diversity, a lack of language skills and those types of things. 
I would like the panel members to talk about what are the 
barriers that we have faced during the nineties--as I believe 
this was an issue through the nineties, or at least the late 
nineties--what are the barriers that prevent us from getting 
this diversity both in language skills and cultural 
understanding?
    What are the barriers to getting these people into your 
organizations; and are we doing something more, are we making 
some more fundamental shifts to remove these barriers so that 
in 5 or 7 or 9 years we are not still talking about those same 
kinds of issues?
    Mr. Black. In 1990 to 2001, our population decrease was 
such that we honestly closed our Office of Recruitment because 
we didn't have enough people leaving to replace them in the 
attrition. So we couldn't do what you are talking about except 
through re-training within our existing workforce.
    Since then, and in fact as of the year before the 9/11 
event, we began a massive transformation at NSA. Our first 
initiative was to offer the opportunity for senior, long-term 
Federal employees to retire early or to retire with a bonus so 
that we could in fact have the room that you are talking about 
to build for that. This last year, we hired over 1,200 people, 
whereas years before we hardly hired anyone. And in that mix, 
at least half of them probably linguists. So we are trying to 
fix it now as best we can.
    I would also tell you that the military services that we 
are working with, we have told them that they must bring us 
linguists of a higher capability than in the past. And to be 
honest, our business was built on the Soviet Union. In many 
instances, our target wasn't much above a 2 level itself, and 
it required us not to push the way we have today.
    Today, we are facing a global linguistic major problem that 
is requiring us to look in every place we can and do what I 
would call mid-career hiring, which is very new for us, 
bringing people in that in fact already have a lot of linguist 
capabilities out of other jobs and converting them into being a 
cryptologic linguist.
    Mr. Hoekstra. It is pretty difficult to change the face of 
your organization over the period of 10 or 11 years if you are 
not adding any new people in.
    Mr. Black. Yes, sir, exactly.
    General Clapper. Sir, if I may just pile on there, I guess 
being the unit historian here, having been in the Intelligence 
business about 40 years. First of all, the origins of the 
Intelligence Community are basically white male, if you go back 
to World War II and its aftermath. And that may be a lingering 
legacy yet today.
    As the nominal founding father of the Defense HUMINT 
Service, just to pick up on a point made earlier, DIA is of 
course dependent on military departments for the officers who 
emerge, particularly in the attache cadre, which I always 
consider a unique national resource. So where we as agencies 
can influence, for example, participation in service schools, 
professional military education courses, those we have 
selection authority, which is normally not the military 
officers who are assigned to our agencies. Just a point.
    Bill Black, I think, made a very key point here, in that 
prior to 9/11--and this is certainly the case when I walked in 
the door of NIMA on the 13th of September, 2001--my agency at 
least was on a drawdown path. We were on a reduction path. We 
were going to consolidate facilities, move out of the Navy Yard 
because of the continued path in the post-Cold War environment 
of reducing the size of the Intelligence Community. When I was 
director of DIA, I presided over reduction of almost 23 percent 
of the personnel at DIA.
    Now, that has a slow bathtub effect, in that we are only 
now beginning to turn the tide and we are on the uptick. The 
trends are upward in terms of bringing on new people. So all 
these numbers you hear, which are quite dramatic that we are 
now able to bring on, is after a period of pretty thin pickings 
in terms of our ability to recruit when essentially we were 
more focused on reducing the workforce.
    I would go back to a point I made at the outset. I believe 
this begins and ends with focused and sustained recruiting. And 
the problem we both face, you as a committee and we here, is 
that we are both essentially transients. We are temporary 
stewards of these positions, and that is one of the things I 
personally signed up to since I was asked to serve for 5 years, 
is to sustain recruiting, assuming that our personnel trends 
continue upward, because I believe long term that is the way to 
rectify these imbalances.
    One more thing, if I may. Mr. Teets has inspired me too. I 
would be remiss if I didn't acknowledge Congresswoman Harman's 
visit to our agency. She gave a stirring speech to our women on 
the occasion of Women's Day. So, Pete, thank you for that cue.
    Mr. Cryer. I want to thank Mr. Hastings for coming out to 
the CIA.
    Ms. Harman. Mr. Chairman, if you would yield to me. We are 
a very busy committee, and I am very happy that so many members 
have been out and about in the Intelligence Community. We are 
also a very diverse committee, and I think that is 
unprecedented, this level of diversity. And that says good 
things about our leadership in the Congress because we are 
personally appointed here by our leaders.
    Thank you, Mr. Chairman.
    Mr. Cryer. If I could make one further point. One of the 
things that has happened, as we have come forward to say what 
we are doing to address diversity management issues in our 
agencies in the community, we talk about making progress, and 
indeed the trends are going upward. But when you look at those 
trends, those trends are not indicative of the kind of progress 
that you expect. One of the things that we are trying to do is 
to be smarter about our practices with regard to these issues. 
So we are trying to use modeling tools to help us to 
understand, if we continue doing the things that we are doing 
now, where we will be in 5 years with regard to diversity 
management issues. We think that that is going to help us to 
improve our outcomes in the future tremendously, because we 
will know those things that are paying off and those things 
that are not and we can focus on the things that are promising 
and helpful.
    The Chairman. Mr. Hoekstra.
    Mr. Hoekstra. I would just close with it does become a 
performance issue. If you don't have the capabilities on the 
staff, just like if we don't have the latest satellites in the 
sky or those types of things, if we don't have the diversity in 
language skills and cultural understanding, we can't get the 
information and you can't provide us with the insights and the 
knowledge that we need as decisionmakers to implement policy.
    So it is more than a check in a box sometimes that some of 
the programs in the private sector may sometimes be viewed. It 
really does become a performance basis, and I hope we can work 
together and remedy these issues and accelerate the process to 
address it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hoekstra. Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman, and to our Ranking 
Member, for your joint commitment, along with all the members 
of the committee to have these public hearings which are so 
important to the people of our country, because they really 
don't know or have an appreciation or get to see who is on the 
House Intelligence Committee. And to make a public hearing 
central to this issue of what diversity and linguistics mean to 
our Nation's capability to operate in the world today on the 
critical issues that really face us as a Nation, I think says 
something in and of itself. I think it is an eloquent statement 
about what the topic of this hearing is about.
    I would like to begin with Mr. Black. Last year, NSA was 
authorized an additional 290 billets for linguists and 
analysts, and these billets were to be added to the billets 
already allocated in 2003 for hiring additional linguists. The 
committee expected that NSA would hire more than 290 linguists 
and analysts in 2003 to address what was the documented 
shortage of linguists. The conferees were so concerned about 
this issue that it was made an item of congressional concern 
requiring the NSA to get prior approval from the committees to 
use these billets for any other purpose.
    Yesterday, the committee received a memo from General 
Hayden summarizing the fiscal year 2003 hiring. To quote the 
memo, ``NSA just concluded a highly successful fiscal year 2003 
campaign, hiring 1,125 full-time workers, which represents a 27 
percent increase over fiscal 2002. NSA hired only 200 linguists 
and analysts out of 1,125 new hires, well below who was 
authorized by this committee.''
    I think I need to be very clear about this. The committee 
expected more than 290 additional linguists and analysts. So 
can you explain why NSA's hiring did not comply with 
congressional direction? How many linguists quit, retired, or 
were assigned to positions outside their specialty in 2003?
    You said in your testimony this morning that half of the 
1,200 hired are linguists. You just stated that a little while 
ago. So I think that there are two different cases here, or 
maybe three; what this committee and the Senate Intelligence 
Committee absolutely insisted upon. There was a high concern 
that they came out of the conference with the language that 
they did, and then what the NSA is doing. Can you explain what 
these differences are about and why? They run contrary to 
everything we are here for and what you somewhat testified to.
    Mr. Black. In the numbers that you have in the memo, I 
think there are about 350 people not even accounted for, in 
that it only highlighted certain fields. We hired another 400.
    Ms. Eshoo. I think you need to explain that. I don't know 
what those words mean.
    Mr. Black. As I recall the memo you are speaking about, we 
probably don't even have it here, it talked about 200 in a 
certain category, another number, and if I added it all up, I 
don't think I would have come to the 1,125. We owe you an 
answer.
    Ms. Eshoo. How many linguists and analysts were actually 
hired?
    Mr. Black. We owe you an answer. We will have to get back 
to you to be exact.
    What we did in many instances, also, we hired computer 
scientists to become analysts because of our new environment. 
That is part of the confusion. The linguists, I know we hired 
more than this, and I will get back to you with exactly what 
numbers we have in this particular instance.
    We have picked up, I know, 450 in the pipeline to be hired. 
We can only hire so fast in our place because of the security 
requirements, et cetera. But the most important thing here is, 
let me get back to you, give you an official answer with the 
exact numbers, Congresswoman.
    Ms. Eshoo. I think you need to review General Hayden's 
memo.
    Mr. Black. Yes, I agree, the way it is written.
    Ms. Eshoo. I am only quoting the memo. And then you gave us 
testimony this morning that half of the 1,200 hired are 
linguists.
    Mr. Black. Yes, I did, and I was thinking more in terms of 
what we have in the pipeline and what we are spending our time 
trying to get. But we will come back to you with the exact 
numbers.
    Ms. Eshoo. With all due respect, I think that when you are 
talking about hiring linguists, that you be very clear. Is it 
your hope about hiring, is it in the pipeline? When we kind of 
push back and ask the questions, it is not what is actually 
presented, and I find that just a little disturbing. It is 
better for us to know, to have the ground truth on this, so 
that we can measure what the congressional directive was, how 
the agency has responded to it with very clear numbers. That 
way we are all working from the same numbers and we know the 
progress that we are making and also where we need to go. But 
this is not clear, to put it mildly.
    To General Clapper, thank you for the work that you do and 
the attitude with which you approach it. Every time you testify 
before us, I am very glad that you head up the agency. I think 
you do a terrific job.
    You mentioned that heightened security requirements may 
negatively impact your diversity efforts. Do you have 
suggestions for ways to address this challenge, and also maybe 
touch on why you think this is so?
    General Clapper. Thank you, first of all, for your generous 
characterizations. I appreciate that. It is a particular 
problem for NIMA because we do not have--which I find amazing, 
it was a decision made at standup--our own organic personnel 
security apparatus. I am trying to rectify that.
    What that means is I am dependent on others, DIA, OPM, and 
others, to do our security processing and, most importantly, 
adjudication. As I say, I am trying to rectify that. That is 
not a cheap proposition, and we have laid out over the FYDP a 
program to generate our own organic capabilities. So what that 
means to me is I am not in a position to adjudicate personnel 
security issues and get people cleared rapidly.
    I do not mean this as a criticism of those on whom we 
depend, notably DIA. They do a great job for us. But they have 
their own priorities as well. So for me this is a particularly 
critical problem.
    The other point I alluded to, which I think will apply to 
all of us, is as the demographics of this country change, 
wherein the predominance of what are now minority groups grows, 
that the approach we take to security clearances is going to 
cause us even more of a challenge in bringing on a diverse 
workforce.
    Ms. Eshoo. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Gibbons.
    Mr. Gibbons. Thank you, very much, Mr. Chairman, and, 
gentlemen, I do apologize for missing your opening remarks. I 
did have some questions, because this is an area of increasing 
interest to not only the United States but this committee that 
has looked at this issue of language, skill based, and 
diversity capability the last several years. I have been on 
this committee for 7 years. It has been an issue from the very 
beginning of that service, and I am sure for much longer before 
that.
    My question is one based on my understanding of qualitative 
versus quantitative analysis when you look at the problem of 
diversity and language skill. And to each of you, I would ask 
you to respond to this question. If we are to have an agency 
which mirrors the population of the demographics of this 
country, how do we surge in areas where a majority of the 
requirement in resources are vastly different than the 
demographic makeup of the country and the population mix that 
you are trying to achieve?
    For example, Afghanistan. When the majority of the 
resources in our Intelligence Community were required to have 
an understanding and a knowledge and education in that part of 
the Middle East, those language skill capabilities, whether 
they were Pashtu, Urdu, Farsi, how do you take the resources, 
when you mix the capabilities based on diversity, and have a 
requirement that is specific in another language capability?
    Where is the analysis, where is the analytical part that 
goes into the makeup of the demographics of the agency with 
regard to the surge requirements and the needs on a 
quantitative side? Mr. Black, we will start with you.
    Mr. Black. What you have presented is probably one of the 
biggest problems we have in regard to some of the areas of the 
world. We have our own internal programs of training as well as 
the weeding out of the analysts, linguists that we use, to be 
sure that we can in fact put on the priorities of the problem 
the best people for the top priorities.
    When you go against one of these targets, there is such a 
diverse requirement that what we do is we have to allocate what 
we will work on first, what will give us the highest paid 
results and put our best people on that. For us, the 
Information Age has almost brought on to us the world of too 
much, too hard to understand. It is an inundation problem for 
us and a prioritization, so that we can put what resources we 
have; and we have some people, of course, that have been and 
understand the target for a long time and we have them training 
others. But it is a very difficult and constant problem.
    General Clapper. Sir, let me try that from a little 
different dimension. I think the challenge that we collectively 
face, I know it is certainly true in my agency, is the ability 
to surge. The current tenet is that we are to know a little bit 
about everything everywhere, which is fine until you have a 
crisis in a particular area. Then the challenge is bringing to 
bear the additional resources that you need to focus on a 
particular area.
    Case in point for me is Afghanistan. Prior to 9/11, 
Afghanistan was an area, a country that we had not devoted a 
lot of resources to. The geospacial foundation currency was not 
what we would like, but with the focus on other areas, you are 
always faced with a challenge of surging up, building up your 
workforce.
    This is not so difficult in my case, because geospacial 
analysts, imagery analysts, are somewhat fungible, in that you 
can move them around from area to area, although there is an 
area of expertise they acquire. With linguists, that is pretty 
hard to do. You have a stable of linguists in a variety of 
languages and they are not nearly as fungible. So you have that 
problem, and, of course, it takes time to train them and all 
that.
    So I am not sure that that directly bears on your question, 
but it certainly conjured up that thought in my mind with 
respect to NIMA.
    Mr. Gibbons. Anybody else want to attempt to answer that? 
Yes, sir.
    Mr. Cryer. Can't answer the question. I think the agency is 
faced with a similar problem, trying to figure out how do we 
balance all of these competing requirements and sustain a 
workforce that enables us to be right at the point when things 
happen so that we can react to it appropriately and so on. So 
we are involved in that process now of trying to figure out 
what that balance is needed to sustain our efforts and 
certainly allow us to surge when necessary.
    Mr. Gibbons. Well, this country has a wonderfully rich, 
diverse population from which we have enormous amount of 
resources in terms of personnel and capabilities out there. 
Have the agencies, whether it is NSA, CIA, DIA, considered 
using a reserve force based principally in terms of diverse 
populations, skilled capabilities that stand by ready to serve, 
identified, cleared, and trained in a reserve capability to 
meet the surge requirements of our agencies?
    Mr. Cryer. The agency does have such a reserve corps and we 
are building on it all the time, yes, sir.
    Mr. Rodriguez. I would get back to the question, sir. I 
think one of the things that happens in government, when we 
start looking at and using phrases such as we want our 
workforce to be the face of America, that is very idealistic. 
It is wonderful if you have occupations, for example, that 
require perhaps not the skills that we need in some of our 
particular agencies. When you start focusing on the skills mix 
and diversity, that is where the gap comes in. And when we 
solve that problem, I think we are going to be in very, very 
good shape. We are trying to do that. It is something that has 
been in existence for a very, very long time, and, 
unfortunately, because it has been the pattern pretty much 
historically, it makes it very difficult to find diversity very 
quickly that matches up with our particular skills needs.
    So our first and foremost requirement, of course, is the 
skills need. Then we try to attach diversity to that. We 
haven't been very successful. We are making progress and we 
will continue to make progress. But there are two different 
elements. If we were the Department of Education and we wanted 
the workforce to look like the face of America, I am sure it 
would be a lot more simple than it is being in the Defense 
Intelligence Agency, CIA, or any of my partner agencies.
    Mr. Gibbons. One final question, if I may, Mr. Chairman, 
and that is have we set a mold or a criteria that presupposes 
that the skills required in this eliminates certain people, 
whether it is classes of people, types of backgrounds, et 
cetera, that have been standardized over the years?
    In other words, we have come at this with our own 
predisposed prejudices. I would presume that everybody has to 
have a college degree, everybody has to have a law degree or a 
CPA certificate, they have to have a 3 level in a language that 
we are looking for before we set the standard of can this 
person achieve that with lesser and sometimes no formal 
education background? Have we set a standard that is too high 
in achieving diversity?
    Mr. Rodriguez. I don't think so. Our efforts are leading to 
a model that actually begins to identify the skills mix needed, 
so that that can be communicated to what I consider the younger 
population.
    We heard earlier today that one of the efforts is going 
back to the high school level and begin there and pretty much 
talking to young people about the possibilities and the careers 
in the Intelligence Community. That has to continue, looking at 
college students who have what would be considered some of the 
basic requirements, bringing them into our workforce, training 
them, educating them and giving them the kind of experience 
that would lead to those individuals with skills mix that we 
need to further our efforts throughout the world. We are doing 
that.
    We are partnering with academic institutions, we are 
partnering with professional organizations, we are partnering 
with communities that have the kind of ethnicity that we see 
has the cultural mix, if you will, that will address and help 
us address some of the issues throughout the world. We are 
doing those things. It is just very, very difficult. It is a 
new phenomena for America, if you will.
    And so as an agency that has that as a requirement, it is 
rather slow going, but we are making progress. But as far as 
setting the standards too high, I don't believe so.
    Mr. Gibbons. Well, thank you, Mr. Chairman. I know that in 
dealing with the question of barriers to entrants into our 
Intelligence Community, many have seen the barriers as one of 
the reasons why we haven't achieved the diversity that we 
should have in these communities. But, again, it goes back to 
the qualitative versus quantitative assessment, the skill 
versus diversity issues that we have a need for, the surge 
requirements, and where the problems lie in this world and the 
prediction of what resources we will need to meet those demands 
in the future.
    With that, Mr. Chairman, I will yield back my time.
    The Chairman. Thank you, Mr. Gibbons. I am going to address 
the tyranny of the clock, very briefly. We had expected to 
bring the second panel up at about 10:45. That time has come 
and gone. What I propose to do, after canvassing members, is to 
recognize Mr. Holt briefly for about two questions, and Mr. 
Boswell for one, and then reserve the balance of their time 
until after the next panel, if that is satisfactory. And Mr. 
Ruppersberger and Mr. Cramer also will have priority after the 
next panel has concluded their presentation.
    If there are no objections, we will proceed. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. I want to try to 
underscore the importance of what we are talking about here. 
There was mention made recently, a moment ago, that you look 
for skills first and diversity second. This is not an effort to 
get the Intelligence Community to look like the face of 
America. It is not a matter of just fairness and opportunity, 
we are talking about life and death here. National security.
    I have talked with Dr. Kay, who, when I asked him how many 
of the hundreds and hundreds of people who are working for him 
looking for traces of weapons of mass destruction in Iraq, how 
many of them understand science and technology and are 
proficient in the language, of the hundreds and hundreds of 
people, he took out one hand and started counting fingers. It 
is a real problem in our ability to do our job.
    Recently we were talking with agency employees who were 
working in the hillsides of Afghanistan collecting 
intelligence. I asked them how many knew the native language, 
and they said, well, since we have been on the job for a year 
or two, we have picked up a little Pashtu. I would argue that 
our ability to find Osama bin Laden, to collect intelligence, 
is compromised more by the paucity of language capability than 
by limitations in combat and small arms training.
    These people on the hillsides have good backgrounds in 
special forces and so forth but they are unable in many 
circumstances to collect intelligence, which is why they are 
supposed to be there, so that they can save lives. And so this 
is not just to feel good about diversity. This is so that we 
have the skills throughout our Intelligence Community to 
collect intelligence.
    Let me get to my questions, because the Chairman has asked 
us to be brief. With respect to languages, I hear about all of 
the efforts you are making in recruitment, and it sounds 
admirable. You are going around the country, you are appearing 
before lots of groups and so forth. Is the problem not just 
shortcomings in recruitment but we are trying to recruit from 
an almost nonexistent pool?
    When I looked at the numbers--and we have far more 
Americans studying ancient Greek in college than we have 
studying Arabic, Korean, Pashtu, Urdu, and others combined. Far 
more. Are there any programs that you see that are worth 
investing in that would increase that pool? Because programs 
can work. The National Defense Education Act of 1958 changed 
education in America. At the time, some people said, well, 
maybe it is just throwing money at it. But by making programs 
available, we ended up with more people studying science, for 
example.
    Why have we let the National Security Education Trust Fund 
created by Boren in 1992, why have we let that be spent down to 
almost zero now? This is to provide immersion language programs 
and other things for students. Do you know of any programs that 
will increase the pool and that we should be doing more to 
enhance those programs?
    General Clapper, let me start with you, because I think you 
have shown the greatest sensitivity to what we are talking 
about here.
    General Clapper. I appreciate that, and having said that, I 
do not know the answer to your question. And again, I have not 
dwelled too much in the language area in my current capacity, 
save for our interest in journeyman-level knowledge of 
languages as it pertains to place names, which is an art unto 
itself, that I have learned in the last couple of years. But I 
guess I would have to take that for the record, and if you 
would permit me a more thoughtful response to your question.
    Mr. Holt. Other witnesses. Mr. Cryer.
    Mr. Cryer. One of the things that we are considering at the 
community level to address this shortfall of talent and skill 
is a concept called centers of excellence, where we partner 
with schools to develop curriculums, including language courses 
that are geared to provide the kind of talent and skills that 
we need, where we have a shortfall. We are hoping to stand up 
this concept or project during this coming fiscal year as a 
part of our--one of our new creative and innovative approaches 
to addressing the problem of skill diversity as well as ethnic 
diversity.
    Mr. Holt. Thank you. Any others?
    Do you know of any programs that would increase the pool of 
linguists? Not people who have been recruited who are then sent 
to Monterey to learn languages, but, rather, increase the pool 
from which we can recruit linguists?
    General Clapper. There have been in the past. I know from a 
historian reference here, when I was director of DIA--and this 
came up during the Somalia engagement--there were some 
innovative things that were done to hire contract linguists. 
Their duties were somewhat insulated such that the clearance 
requirements for a full-fledged clearance were suspended, and 
their tasks were circumscribed in such a way they didn't 
require a clearance.
    So that is one way to at least obviate the issue of how do 
you surge when suddenly you need an exotic language which your 
day-to-day workforce doesn't include. You can contract for 
linguists for a specific time, if their duties can be 
circumscribed in such a way--which was done in the Somalia 
engagement--that would not require the clearance. I thought 
that was, at the time, a fairly innovative way to obviate that 
challenge.
    Mr. Holt. Let me leave you with a request to get back to us 
about, and that has to do with the National Security Education 
Act. As I mentioned a moment ago, that fund has been 
essentially spent down to zero now. Congress has not 
appropriated money to refill it. I realize your actions are not 
supposed to guide the appropriations in Congress, it is 
supposed to be the other way around; but I would venture to say 
that if there were recommendations from the Intelligence 
Community for programs such as the National Security Education 
Fund that would improve the pool of linguists in America just 
as the National Defense Education Act greatly improved the pool 
of scientists in America back in the late fifties, then the 
appropriations might well follow. You might not get everything 
you ask for, but as it is, this fund that was created in 1992 
has not been replenished since. And it may be because of our 
shortcomings here in Congress, but it also may be in part 
because you haven't asked. And I would like to hear from you 
about that program and related programs and what should be the 
funding level or are they useless.
    Please tell us. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Holt. Mr. Boxwell.
    Mr. Boswell. Thank you, Mr. Chairman.
    I, in the interest of brevity, I would like to say I 
associate myself with what has been said. I think there is a 
message here, and I read your faces that you are hearing it, 
and I hope that is true. There is a sense of urgency. I think 
you sense that, and we certainly do.
    I kind of wonder sometimes as I go out across the country, 
where is the sense of sacrifice. Are we at war? The Director 
said we were a long time ago. People being killed every day. 
And those of you and those of us who have led troops in combat 
know damn well you have to have intelligence or else you can't 
do your job.
    Mr. Chairman, I will hold off on my question because the 
information coming back that Ms. Eshoo and others have brought 
up will answer those questions.
    I would just like to say this. I think Mr. Hastings made a 
pretty significant statement in the opening in talking about 
not having the skill sets. You know, I don't think Mr. Hastings 
or even you, Mr. Reyes, or myself, if we had to meet all the 
skill sets, we would even be here today. But we are here. And 
you know, I think that proves a point to some degree. So I hope 
that we can get the information back timely. I think some good 
points have been made asking for the information. I trust you 
do.
    And I will just close with this. We would like to share a 
few nice things back and forth. I came down to NIMA and got a 
wonderful briefing and I asked you to come out to our State and 
brief our emergency folks. Eleanor Gordon--you have heard the 
name--one of the most outstanding women I know in a leadership 
position. And it was well appreciated and caused a lot of 
things to be moving on. So I want to thank you for that as 
well.
    And with that, Mr. Chairman, I do as you requested give you 
back the time.
    The Chairman. Thank you, Mr. Boswell. We will reserve more 
time for you in the next round. I want to thank this 
distinguished panel very much.
    We have some additional information requested coming back, 
and this is not a one-time event. I think you understand this. 
This committee has an abiding and continuing strong interest in 
this subject. We will be continuing to pursue it in our regular 
oversight. Whether all the meetings will be open like this or 
we will operate in our more normal closed session will be the 
decision of others in the future. But rest assured that there 
will be a call again for you to come up and talk on behalf of 
your agencies on how you are doing on these matters.
    So I hope you will keep that in mind as you go back, and 
also thank the employees that you have for the extraordinary 
hard work they are doing under very difficult circumstances, we 
know, today. I know how hard people are working in the 
Intelligence Community. And it is very reassuring for me to 
know that, that our community is well led and well motivated. 
And that wouldn't be happening if we didn't have good people 
doing our jobs.
    I am going to excuse this panel and ask the next panel to 
come forward. Mr. Wes Bush is the Corporate Vice President and 
President of Northrop Grumman Space Technology where he is 
responsible for all general management responsibilities for 
Northrop's space technology business. Northrop Grumman has a 
clearly stated mission to support and nurture a diverse 
workforce that mirrors the communities in which we reside, and 
in fact offers a diversity speaker series to provide a forum in 
which community partners, employees, and leaders can give 
insight in ethnic and cultural diversity. Previous to his 
position at Northrop Grumman, Mr. Bush served as President and 
CEO for TRW Aeronautical Systems. I would point out that Mr. 
Bush is no relation to other Mr. Bushes in this town, to the 
best of my knowledge.
    Major General, Retired, Robert A. Harding is the President 
and CEO of Harding Security Associates, LLC, where he provides 
consulting and support services to U.S. Government agencies on 
human counterintelligence and security and MASINT. Previously 
General Harding served as the Executive Vice President for 
Operations at Innovative Logistics Techniques in McLean, 
Virginia. In his last military assignment, General Harding 
served as the Army's deputy G2, Intelligence, and prior to 
that, he was the Director for Operations at the Defense 
Intelligence Agency.
    General Harding, welcome. Mr. Bush, welcome.
    Moving forward, Ms. Juliette Kayyem is the Executive 
Director of the Executive Session on Domestic Preparedness at 
the John F. Kennedy School of Government, Harvard University. 
Her work is focused on terrorism, domestic preparedness and law 
enforcement. Ms. Kayyem also served on the National Commission 
on Terrorism with Ms. Harman, I presume, which was created to 
provide a review of America's counterterrorism efforts. Ms. 
Kayyem is also a national security analyst for NBC News and the 
National Public Radio's--NPR's--On Point. Welcome.
    Mr. Miguel Diaz is the Director of the South America 
Project at the Center for Strategic and International Studies. 
The South America Project focuses on advising U.S. policymakers 
and the private sector on political and economic developments 
in the region. His expertise is U.S.-South American relations, 
with an emphasis on regional economic integration initiatives, 
Latin American financial markets, regional electoral politics, 
and structural reform initiatives. And you must be a very busy 
man, because things are popping south of the border.
    Thank you. We welcome you all. And I think the order of 
presentation would be the order of introduction. So, Mr. Bush, 
I will begin with you. We ask that you try and hit our 5-minute 
mark if you can.

   STATEMENTS OF WES BUSH, PRESIDENT, NORTHROP GRUMMAN SPACE 
TECHNOLOGY; MAJOR GENERAL ROBERT A. HARDING, PRESIDENT AND CEO, 
 HARDING SECURITY ASSOCIATES, LLC; JULIETTE KAYYEM, EXECUTIVE 
 DIRECTOR, EXECUTIVE SESSION ON DOMESTIC PREPAREDNESS, HARVARD 
   UNIVERSITY; AND MIGUEL DIAZ, PROJECT DIRECTOR, SCIS SOUTH 
                        AMERICA PROJECT

                     STATEMENT OF WES BUSH

    Mr. Bush. Thank you, sir. Chairman Goss and Ranking Member 
Harman, distinguished members of the committee, I would like to 
thank you for inviting me to provide a private sector 
perspective on the importance of recruiting and developing a 
world-class workforce for the future of the Intelligence 
Community. My company has served your committee and the 
Intelligence Community for many years, and we are honored that 
you would ask us to participate in this discussion today. We 
share your view that this is an issue of national priority, and 
I believe this is a critical time to be rededicating ourselves 
to this task.
    Industry faces many of the same workforce development 
issues as the government side of the Intelligence Community. We 
are both committed to attracting the best and brightest minds 
in our country to develop and maintain systems to protect our 
national security. And although we compete for talent with one 
another at times, we must together address a fundamental 
obstacle to expanding the pool of talented and dedicated 
citizens who are willing to commit themselves to national 
security. This fundamental obstacle is the declining trend in 
college enrollment of U.S. citizens in science, engineering, 
and the physical science fields, including math and computer 
sciences.
    The expansion of the workforce required to meet our common 
objectives simply cannot occur without attracting more minority 
and female participation into the fields of study that support 
our national security mission.
    I would like to provide some examples of things we do at 
Northrop Grumman to help attract women and minorities to math 
and science careers, as well as steps we take to promote their 
career development. Our recruitment and development strategy 
begins with support for programs that promote interest in math 
and science from preschool and elementary education through 
postsecondary fellowships. We believe the premise that students 
need to be turned on to math and science very early in their 
education. That is why we focus our financial commitments and 
volunteer commitments on schools that are fostering curricula 
designed to increase the percentage of women and minority 
students interested in studying math and science in college.
    For example, more than a decade ago, we helped found a math 
and science magnet high school in southeastern Los Angeles, 
California, the California Academy of Math and Science, or CAMS 
as we call it. We have continued a very active presence in 
their development. The CAMS student body is drawn from more 
than 11 school districts in L.A. County, representing one of 
the most diverse populations in our Nation. Two-thirds of its 
students come from inner city schools. CAMS has produced 1,300 
graduates with 100 percent graduation rate; 85 percent of CAMS 
graduates advance to receive degrees from 4-year universities.
    In addition to financial assistance, we have placed 
Northrop Grumman executives on the CAMS corporate advisory 
committee. Each summer we have hired CAMS students as interns 
at our Space Park facility in Redondo Beach, California. As the 
students move through university education, they are eligible 
for college-level summer internships. Our goal is to develop 
CAMS students into strong contributors to our Nation's future 
workforce, whether they choose Northrop Grumman or another 
employer.
    We also participate in NASA's summer high school 
apprenticeship program, hiring about 15 interns a year. This 
program is designed to encourage the career paths of students 
that have been traditionally underrepresented in math, science 
technology, engineering and geography. Each intern works for a 
mentor for 8 weeks, gaining exposure to cutting-edge research 
using state-of-the art equipment. We support these programs 
because they increase the likelihood that these students will 
someday seek math or science careers.
    At the undergraduate level, we manage a broad array of 
programs with the explicit objectives of increasing the quality 
and diversity of our workforce. We are active partners in the 
minority engineering programs at about 20 U.S. Universities, 
providing both financial support and Northrop Grumman 
representation on their boards. For example, we are sending a 
group of executives to Stanford University to address the first 
one. And just this week, I spent an entire day with engineering 
undergrads at MIT, working to draw them into careers at space 
and defense.
    In addition to our university programs, we maintain strong 
partnerships with national diversity engineering programs to 
serve students' needs, such as the Society of Hispanic 
Professional Engineers, the National Society of Black 
Engineers, the Society of Women Engineers, and the American 
Indian Science and Engineering Society. While these 
relationships clearly serve the competitive needs of our 
business, they also encourage broader participation of 
underrepresented groups in math and science careers across the 
board.
    Diversity plays an extremely important role in our direct 
college recruiting as we are pursuing the best minority and 
female talent. We operate a diversity engineering scholarship 
program whereby a minority or female student majoring in 
engineering or related discipline can complete a summer 
internship at Northrop Grumman and receive a stipend for each 
academic year they remain in the program. More than one-third 
of these interns become full-time Northrop Grumman employees 
upon graduation. This program provides our company access to 
top minority and female students, while at the same time 
increasing their access to experienced mentors and high-
technology projects not available in any other workplace.
    Shifting emphasis from recruitment to employee development, 
our diversity objective is to help employees succeed in 
building their careers within our company. We want to increase 
the diversity at all levels of our company's management. And we 
have worked hard to provide meaningful career paths for women 
and minorities. For example, nearly one-third of Northrop 
Grumman's space technology vice-presidents today are female or 
minority executives. We provide a number of career development 
programs designed, specifically for underrepresented groups in 
our workforce including nine diversity networking groups each 
at the vice president level. These groups sponsor professional 
development activities, networking opportunities, diversity 
education, awareness events and community outreach.
    In addition to our own programs, we are strong partners 
with professional development organizations that provide 
opportunities for our employees to continue to learn from 
professionals in their field. These organizations have 
recognized Northrop Grumman professional employees with a 
variety of awards: the Hispanic Engineering National 
Achievement Award, the Black Engineer of the Year Award, and 
similar other recognitions.
    I provided a few examples of how important we at Northrop 
Grumman view the recruitment and development of a talented and 
diverse workforce within our own company, our industry, and 
across the broader Intelligence Community.
    It is important first to expand the pool of potential 
employees and help them to successfully build their careers. 
There is one more factor, however, that makes this a critical 
time to focus on developing the workforce, and that is building 
a stable future for our industry. In 2003, we at Northrop 
Grumman Space Technology have more than tripled the number of 
college hires compared to last year, which provides 
significantly greater opportunities to increase the diversity 
of our workforce. One of the reasons we have been so successful 
in recruiting college students this year is that for the first 
time in more than a decade, we are able to convey to students 
the potential for stable programs in the coming years. The 
spending downturn of the 1990s created an environment of 
shrinking employment and reduced opportunity. At Space Park, 
for example, our population shrank from nearly 20,000 employees 
down to less than 8,000. It is very difficult to attract the 
best and brightest minds to a declining industry. Today, things 
are different. We have great new technology programs that have 
the promise of stable continued funding.
    The future does look very bright. Now is the time to excite 
our elementary and high school students about math and science 
and the important technologies that they can develop. And now 
is the time to emphasize to our brightest engineering students 
that national security is a noble endeavor worthy of their 
skills and efforts. If we can sustain that continued stability, 
we can and will expand the talent pool for our industry and for 
the Intelligence Community. We can build the more diverse 
workforce that we will strive to attain.
    The Chairman. Thank you very much Mr. Bush.
    [The prepared statement of Mr. Bush follows:]

   Prepared Statement of Wes Bush, President, Northrop Grumman Space 
                               Technology

    Chairman Goss, Ranking Member Harman and distinguished members of 
the Committee, I am Wes Bush, President of Northrop Grumman Space 
Technology, and I want to thank you for inviting me to provide a 
private-sector perspective on the importance of recruiting and 
developing a world-class work force for the future of the Intelligence 
Community. My company has served your committee and the Intelligence 
Community for many years, and we are honored that you asked us to 
participate in this discussion. We share your view that this is an 
issue of national priority. And I believe this is a critical point in 
time to be dedicating ourselves to this task.
    Industry faces many of the same work force development issues as 
the Government side of the Intelligence Community. We are both 
committed to attracting the best and brightest minds in our country to 
develop and maintain systems to protect our national security. And 
although we compete for talent with one another at times, we must 
together address a fundamental obstacle to expanding the pool of 
dedicated and talented citizens who are willing to commit to careers in 
national security. This fundamental obstacle is the declining trend in 
college enrollment of U.S. citizens in science, engineering and the 
physical science fields, including math and computer sciences. The 
expansion of the work force required to meet our common objectives 
simply cannot occur without attracting more minority and female 
participation into the fields of study that support our national 
security mission.
    I'd like to provide some examples of things we do at Northrop 
Grumman to help attract women and minorities to math and science 
careers, as well as steps we take to promote their career development.
    Our recruitment and development strategy begins with support for 
programs that promote interest in math and science from preschool and 
elementary education through post secondary fellowships. We believe the 
premise that many students need to be ``turned-on'' to math and science 
careers very early in their education. This is why we focus our 
financial and volunteer commitments on schools that are fostering 
curricula designed to increase the percentage of women and minority 
students interested in studying math and science in college.
    For example, more than a decade ago, we helped found a math and 
science magnet high school for females and minorities in southeastern 
Los Angeles, California--the California Academy of Math and Science, 
and we have continued to have an active presence in their development. 
The CAMS student body is drawn from more than 11 school districts in 
L.A. County, representing one of the most diverse populations in the 
nation. Two-thirds of its students come from inner-city schools. CAMS 
has produced 1,300 graduates, with a 100 percent graduation rate. 
Eighty-five percent of CAMS graduates advance to receive degrees from 
four-year universities.
    In addition to financial assistance, we have placed Northrop 
Grumman executives on the CAMS Corporate Advisory Committee. Each 
summer, we hire CAMS students as interns at our Space Park facility in 
Redondo Beach, California. As the students move through university 
education, they are eligible for college-level summer internships. Our 
goal is to develop CAMS students into strong contributors to our 
nation's future work force, whether they choose Northrop Grumman or 
another employer.
    We also participate in NASA's Summer High School Apprenticeship 
Research Program, hiring about 15 interns per year. This program is 
designed to encourage the career paths of students who have been 
traditionally underrepresented in science, math, technology, 
engineering and geography. Each intern works with a mentor for eight 
weeks, gaining exposure to cutting-edge research and using state-of-
the-art-equipment. We support these programs because they increase the 
likelihood that these students will someday seek math or science 
careers.
    At the undergraduate college level, we manage a broad array of 
programs with the explicit objective of increasing the quality and 
diversity of our work force. We are active partners in the minority 
engineering programs at about 20 U.S. universities, providing both 
financial support and Northrop Grumman representation on their boards. 
For example, last week we agreed to send a group of executives to 
Stanford University to address its Diversity Forum. And just last 
Monday, I spent the day with engineering undergrads at MIT, trying to 
lure them to careers in space and defense.
    In addition to our university programs, we maintain strong 
partnerships with national diversity engineering programs that serve 
student needs, such as the Society of Hispanic Professional Engineers, 
the National Society of Black Engineers, the Society of Women Engineers 
and the American Indian Science and Engineering Society. While these 
relationships clearly serve the competitive needs of our business, they 
also encourage broader participation of underrepresented groups in math 
and science careers across the board.
    Diversity plays an extremely important role in our direct college 
recruiting as we are pursuing the best minority and female talent from 
the top schools. We operate a Diversity Engineering Scholars Program, 
whereby minority or female students majoring in engineering or related 
discipline can complete a summer internship with Northrop Grumman and 
receive a stipend for each academic year they remain in the program. 
More than one-third of these interns become full-time Northrop Grumman 
employees upon graduation. This program provides our company access to 
top minority and female students while at the same time increasing 
their access to experienced mentors and high technology projects not 
available at many other workplaces.
    Shifting emphasis from recruitment to employee development, our 
diversity objective is to help employees succeed in building their 
careers within our company. We want to increase the diversity at all 
levels of our company's management, and we have worked hard to provide 
meaningful career paths for women and minorities. For example, nearly 
one-third of Northrop Grumman's vice presidents today are female or 
minority executives.
    We provide a number of career development programs designed 
specifically for underrepresented groups in our work force, including 
nine diversity networking groups, each with a sponsor at the vice 
president level. These groups sponsor professional development 
activities, networking opportunities, diversity education and awareness 
events, and community outreach.
    In addition to our own programs, we are strong partners with 
professional development organizations that provide opportunities for 
our employees to continue to learn from other professionals in their 
field. These organizations have recognized Northrop Grumman 
professional employees with awards such as the Hispanic Engineering 
National Achievement Award, the Black Engineer of the Year Award and 
other similar awards.
    I've provided a few examples of how important we at Northrop 
Grumman Space Technology view the recruitment and development of a 
talented and diverse work force, within our own company, our industry 
and across the broader Intelligence Community. It is important first to 
expand the pool of potential employees and then help them successfully 
build their careers. There is one more factor, however, that makes this 
a critical time to focus on developing the work force. And that is 
building a stable future for the industry.
    In 2003, we at Northrop Grumman Space Technology have more than 
tripled the number of college hires compared to last year, which 
provides significantly greater opportunities to increase the diversity 
of our work force. One of the reasons we have been so successful 
recruiting college students this year is that for the first time in 
more than a decade, we are able to convey to students the potential for 
stable program growth in the coming years. The spending downturn of the 
1990s created an environment of shrinking employment and reduced 
opportunity. At Space Park, for example our population shrunk from 
nearly 20,000 employees down to less than 8,000. It is difficult to 
attract the best and brightest minds to a declining industry.
    Today, things are different. We have great, new technology programs 
that have the promise of stable, continued funding. The future looks 
bright. Now is the time to excite our elementary and high school 
students about math and science and the important technologies they can 
help develop. And now is the time to emphasize to our brightest 
engineering students that national security is a noble endeavor, worthy 
of their skills and efforts. If we can sustain that continued 
stability, we can, and will, expand the talent pool for our industry 
and for the Intelligence Community. We can build the more diverse work 
force that we all strive to attain.
    Thank you.

    The Chairman. General Harding.

          STATEMENT OF MAJOR GENERAL ROBERT A. HARDING

    General Harding. Chairman Goss, Congresswoman Harman, I 
appreciate the opportunity to appear before this committee 
again. Like many Americans, I have been following the work of 
this committee and applaud you for your continued bipartisan 
and effective support of the Intelligence Community as well as 
your continued innovative approaches and recommended solutions 
to the many seemingly intractable problems the community 
seniors face everyday. This issue of diversity clearly is in 
that category. Robert Callum, from the Center for Naval 
Analysis, wrote an article entitled ``The Case for Cultural 
Diversity in the Intelligence Community.'' It is found in the 
Journal of Intelligence and Counterintelligence in Spring of 
2001. In it he suggests the following: ``* * * while the 
leaders of the CIA, DIA, NSA, and the NRO have all acknowledged 
lack of diversity and have created focused recruiting efforts, 
the acceptance of minorities into the Intelligence Community 
has been disappointing to date. The reason, in part, is that 
diversity has been viewed as a legal and moral imperative and 
not as an analytical necessity.''
    I sincerely hope, given the current state of our analytical 
community, that we have collectively overcome that sentiment. 
So I will not spend time trying to convince this committee 
about the pressing need for diversity, but rather share some 
thoughts and observations on the continuing challenge as seen 
by someone who has followed the diversity issue in the 
Intelligence Community for more than 30 years.
    Although this is my fourth appearance in front of this 
committee, it is my first out of uniform. And in spite of my 
initial feelings to the contrary, it is still just as daunting 
as when I was in uniform. As the Director of Operations for 
DIA, I had three very precious and rewarding opportunities to 
ask this committee to support the President's budget with 
respect to human intelligence. Your unfailing support was 
always a source of strength to me personally and to DIA in 
general. To my side each time was my counterpart, the Director 
of Operations of CIA. And I survived three DOs: Dave Cohen, 
Jack Downing and Jim Pavitt. And all remain good friends to 
this day in spite of one particular professional challenge they 
posed: They recruited my people.
    During testimony in the spring of 1998, this committee 
remained steadfastly clear about the need for diversity in the 
ranks of CIA. My counterparts at CIA were not only mission 
driven, but precisely focused on addressing that issue in short 
order. The following year, during spring testimony, as the CIA 
DO held up resumes and waved them at the committee with photos 
of young, talented, and linguistically adept recruits, I looked 
over and began to recognize my best and brightest from DOD. 
Betrayed? Not at all. The military experience, combined with 
language training and willingness to commit to this line of 
work, was something that not only benefited CIA and the Nation, 
but DOD as well.
    These soldiers, airmen, marines, and civilians actually 
added cement to a bond that grew closer and closer between DIA 
and CIA, and it was very important at that time for these 
agencies to do that. It was sort of the argument of you are not 
losing a son, you are gaining a daughter.
    But could we continue to sustain large losses like that 
initial one at DOD? Of course not. But the experience made us 
focus on the issue of diversity and the need to field a first-
class workforce in each of the agencies. In the case of DOD 
HUMINT we would have to build a system and incentives to 
attract, maintain and sustain the diverse group of gifted 
HUMINT operatives. In addition to bridging the gap in the 
cultural understanding between the two organizations, many of 
the young DIA analysts and collectors had experience overseas. 
DIA had the advantage of being a subset of the diversity extant 
in the Department of Defense. CIA did not have a similar 
demographic pool to pull from until they started pulling them 
from me and DHS. Right before I left my DO job in March of 
2000, Mr. Tenet and I handed out diplomas together at the 
training school, to what he described as the most culturally 
diverse class in the history of the agency.
    My point is that my friends at CIA went after what they 
needed to ensure diversity of languages, skills, and ethnic and 
cultural understanding. It was not just a congressional 
mandate. It was a matter of survival. I have been aware for a 
couple of years now, but I suspect that sustainment of that 
effort has been both challenging and to a degree unsuccessful. 
I often wondered if CIA and DIA--if they ever developed the 
capability and flexibility to hire multicultural talent at 
senior levels to help work this troubling issue. Creative and 
flexible approaches to hiring seniors with diverse backgrounds 
just seems logical.
    After leaving the military a couple years ago, I consulted 
in private practice for about a year. But about 2 months ago I 
decided to go after government contracts, specifically in 
homeland security areas relating to counterintelligence. 
Working with larger defense contractors like Northrop Grumman 
and others, I find that bringing in multicultural talent 
remains challenging, especially on classified contracts, but 
doable. The freedom that I have to simply pitch that ideal 
candidate without worrying too much about a bureaucratic 
process is both liberating and enjoyable. If I need a native 
linguist, I will find one. As a minority-owned company, I 
constantly reach out to a diverse workforce and feel I have the 
responsibility to do that. More importantly, it makes the 
company exceedingly more capable.
    It seems to me that the Intelligence Community that I love 
still needs senior folks with language and cultural diversity 
at the top, folks who feel that responsibility in a 
particularly focused way, never taking their eyes off the 
ball--and I have seen that both in DOD and the Intelligence 
Community in the past.
     When Joan Dempsey moved to the front offices within DIA 
and then DOD, then CIA and then to the DCI, the number of women 
seniors increased. Mind you, not nearly at the rate equivalent 
to the male counterparts, but at a significantly more rapid 
rate, in my opinion, than they would have absent Joan's 
insights, her influence, and her mentoring. And she violated no 
civil service regulations.
    When General Shinseki became the Army Chief of Staff, I 
noticed a much-welcomed increase in the number of Asian 
Americans on the Army staff. Mind you again, not nearly at the 
rate equivalent to the non-minority counterparts, but at a 
significantly more rapid rate, in my opinion, than they would 
have absent General Shinseki's insights, influence and 
mentoring, and I am sure he violated no personnel regulations.
    When General Claudia Kennedy became the Army's Chief of 
Intelligence, I noticed a significant increase in the number of 
senior intelligence females in key positions in the Army, again 
not at the same rate as their male counterparts, but way better 
than before General Kennedy arrived. But did she ensure that 
she mentored, coached, and developed the sometimes forgotten 
minorities at a pace and rate equal to their non-minority 
counterparts? Absolutely. And I was included in that group, as 
was my late wife who went on to become a Senior Executive 
Service member in the CI and security field.
     My point here is the same as with my experience with the 
professional proselytizing done by my CIA DO counterparts. 
Their strategy: If you want to see a healthy increase in your 
numbers, don't come back to Congress with only a strategic 
plan. Go tap the talent directly, and maybe that has something 
to do with just being human and they know that is how you get 
what you want. If you want to see more women at senior levels, 
then bring them in at senior levels. Don't wait and grow them.
    I heard Mr. Black in the previous testimony talk about NSA 
bringing them in at the mid-levels, I am talking about above 
that. Don't wait to grow them. Find them. Send them to whatever 
finishing program you choose, and then appoint them to 
positions of responsibility, and just watch what happens 
throughout your organization. It has been done and it has been 
done without violating the sensibilities of the civil service 
lawyers. Selections must be made at the senior levels. Many 
ways to do that, I believe. But if legislation is needed, then 
maybe that should be part of the discussion here.
    Chairman Goss, Congresswoman Harman, and members of the 
committee, thank you for allowing me to share this long-held 
view. And I would be happy to address any questions.
    The Chairman. Thank you very much.
    [The prepared statement of General Harding follows:]

 Prepared Statement of MG Robert A. Harding, USA (Retired), President 
              and CEO of Harding Security Associates, LLC

    Chairman Goss, Congresswoman Harman, I appreciate the opportunity 
to appear before this committee. Like many Americans, I have been 
following the work of this committee and applaud you for your continued 
bipartisan and effective support of the Intelligence community as well 
as your continued innovative approach and recommended solutions to the 
many seemingly intractable problems the community seniors face on a 
daily basis. This issue of diversity is clearly in that category. 
Robert Callum from the Center for Naval Analysis wrote an article 
entitled: The Case for Cultural Diversity in the Intelligence 
Community. It's found in the Journal of Intelligence and 
Counterintelligence in Spring 2001. In it he suggests the following: 
``While the leaders of the CIA, DIA, NSA, and NRO have all acknowledged 
the lack of diversity and have created focused recruiting efforts, the 
acceptance of minorities into the IC has been disappointing to date. 
The reason, in part, is that diversity has been viewed as a legal and 
moral imperative, and not as an analytical necessity.'' I sincerely 
hope that, given the current state of our analytical community, that 
we've collectively overcome that sentiment. I will not spend time 
trying to convince this committee on that point. However, it would not 
surprise me if you were somewhat disappointed with the numbers provided 
you by my former colleagues in the previous session. Therefore, I would 
like to spend the next few minutes sharing my observations as someone 
who has followed the diversity issue in the intelligence community for 
more than 30 years.
    Although this is my fourth appearance, it's my first out of uniform 
and in spite of my initial feelings to the contrary, it is just as 
daunting as when as I was in uniform. As the Director for Operations at 
DIA, I had four very precious and rewarding opportunities to ask this 
committee to support the president's budget with respect to Human 
Intelligence in the Department of Defense. Your unfailing support was 
always a source of strength to me personally and to DIA in general. To 
my side each time was my counterpart, the DO of CIA. I survived three 
CIA DO's--Dave Cohen, Jack Downing and Jim Pavitt--all remain good 
friends to this day in spite of one particular professional challenge 
they posed. They recruited my people. During testimony in the Spring of 
1998, this committee remained steadfastly clear about the need for 
diversity in the ranks of the CIA. My counterparts there at CIA were 
not only mission driven but precisely focused on addressing that issue 
in short order. The following year, during Spring testimony, as the CIA 
DO held up resumes, with photos, of the young, talented and 
linguistically adept recruits--I looked over and began to recognize 
some my best and brightest out of DoD. Betrayed? Not at all. The 
military experience combined with language training and a willingness 
to commit to this line of work was something that not only benefited 
CIA and this Nation, but DoD as well. Those soldiers, sailors, airmen, 
marines, and/or civilians who left DIA for CIA added cement to a bond 
that grew closer and closer between the two agencies at an important 
time. It was sort of the ``you're not losing a son, you're gaining a 
daughter argument.'' Could we continue to sustain large losses of key 
personnel like that initial one in DoD, of course not. But the 
experience made us all focus on the issue of diversity and the need to 
field a first-class workforce in each of the agencies. In the case of 
DoD HUMINT, we would have to build systems and incentives to attract, 
maintain and sustain a diverse group of gifted HUMINT operatives. In 
addition to bridging the gap in the cultural understanding between the 
two organizations, many of the young DIA analysts and collectors had 
experience overseas. DIA had the advantage of being a subset of the 
diversity extant in the Department of Defense. CIA did not have a 
similar demographic pool to pull from--until they started recruiting 
right out of Defense HUMINT Service. Right before I left my DO job in 
March of 2000, Mr. Tenet and I handed out diplomas together at the 
training school, to what he described as the most culturally-diverse-
combined CIA/DIA class in the history of the agency.
    My point is that my friends at CIA went after what they needed to 
ensure diversity of languages, skills and ethnic and cultural 
understanding; it was not just a congressional mandate, it was a matter 
of survival. I've been away for a couple of years now, but I've often 
wondered if DoD maintains the capability and flexibility to attract and 
hire multicultural talent at senior levels.
    After leaving the military a couple of years ago, I consulted in 
private practice for a while, but two months ago, I decided to go after 
government contracts--specifically in homeland security areas related 
to counterintelligence, HUMINT and MASINT. Working with larger defense 
contractors, I find that bringing in multicultural talent remains 
challenging, especially on classified contracts. But the freedom I have 
of simply pitching that ideal candidate without worrying too much about 
a bureaucratic process, is both liberating and enjoyable. I can 
negotiate directly on salary, benefits, and flexibility. If I need a 
native linguist, I'll find one. As a minority-owned company, I 
constantly reach out to a diverse workforce and feel that I have a 
responsibility to do that. More importantly it makes the company 
exceedingly more capable. It seems to me that the intelligence 
community that I love still needs senior folks with language and 
cultural diversity at the top--folks who feel that responsibility in a 
particularly focused way--never taking their eyes off the ball.
    I've seen folks like that in DoD:
    --When Joan Dempsey moved to the front offices within DIA, then to 
DoD, then to CIA, then to DCI--the number of women seniors increased. 
Mind you--not nearly at the rate equivalent to their male counterparts, 
but at a significantly more rapid rate, in my opinion, than they would 
have absent Joan's insight, influence and mentoring. And she violated 
no civil service regulations.
    --When General Shinseki became the Army Chief of Staff, I noticed a 
much-welcomed increase in the number of Asian American seniors on the 
Army Staff. Mind you again--not nearly at the rate equivalent to their 
non-minority counterparts, but at a significantly more rapid rate, in 
my opinion, than they would have absent General Shinseki's insights, 
influence and mentoring. And I'm sure he violated no personnel 
regulations.
    --When LTG Claudia Kennedy became the Army's Chief of Intelligence, 
I noticed a significant increase in the number of senior intelligence 
females in key positions in the Army. Again--not at the same rate as 
their male counterparts but way better than before LTG Kennedy arrived. 
But did she ensure that she mentored, coached and developed the 
sometimes forgotten minorities at a pace and rate equal to their non-
minority counterparts? Absolutely; and I was included in that group--as 
was my late wife who became an SES in the CI/Security field.
    My point here is the same as with my experience with the 
professional proselytizing done by my CIA DO counterparts. Their 
strategy: If you want to see a healthy increase in your numbers--don't 
come back to Congress with only a strategic plan; go tap the talent 
directly. (Could be something they learned as HUMINTers.) If you want 
to see more women at senior levels--then bring in more senior women at 
the top. Don't wait to grow them; find them, send them to whatever 
finishing program you choose and then ``appoint'' them to positions of 
responsibility and just watch what happens throughout your 
organization. It's been done without violating the sensibilities of the 
civil service lawyers. Selections must be made at the senior levels!
    Many ways to do that, I believe, but if legislation is needed then 
maybe that should be part of the discussion here.
    Mr. Chairman, Congresswoman Harman and members of the committee, 
thanks for allowing me to share this long-held view with you today. I'd 
be glad to address any questions.

    The Chairman. Ms. Kayyem, welcome.

                  STATEMENT OF JULIETTE KAYYEM

    Ms. Kayyem. Thank you for inviting me here today. I want to 
start by thanking Congresswoman Harman on this diversity issue. 
If I had a quarter for every woman who views you as the model 
for getting into intelligence and national security work, I 
would be a rich woman, as well as Suzanne Spalding, who is 
sitting behind you. I served with both of them on the National 
Commission on Terrorism.
    I am going to--I wrote remarks that you can--I am actually 
going to change a little bit about what I am going to talk 
about today, just based on the fact that you heard a lot of 
what I was going to say, and my personal experience as an Arab 
American within the national security community. Granted, I was 
within the law enforcement community, coming out of the 
Department of Justice, and then served on the National 
Commission on Terrorism, but perhaps I can provide some 
analogies for you all.
    I am not Muslim, I am Lebanese Christian, and I do not 
speak the language well. I can barely speak it, unfortunately. 
I am also, at the Kennedy School, the director of a new 
research project which may be of import to you on diversity in 
the Intelligence Community. And because of that project, not 
only are we sort of looking at the benefits of diversity, which 
have been clearly and well articulated by everyone here, but 
also some of the challenges.
    I have been in communication with a number of young Arab 
Americans and Muslim Americans who have had experience with the 
intelligence and law enforcement communities. Like you, I view 
the Arab and Muslim world as both a threat today, 
unfortunately, but also an opportunity for what we may and what 
the world will look like in the future.
    I also do not view diversity as merely an issue of 
diversity of personnel, not merely an issue of the translation 
of words, but really what you know and what you acquire from 
experience. It is basically what I call that dinner table talk. 
If you were around the dinner table of my family or other Arab 
and Muslim families, Republican or Democrat, I think the lead-
up to discussions about perhaps the Iraqi's reaction to our 
presence in Iraq after the war would have been very different, 
not politically based. I think it was just based on some 
understanding of our families abroad.
    So the diversity of--and bringing in more Arab and Muslim 
Americans into the Intelligence Communities is of great import 
to me, because it is not an issue of words, but really will 
change the content and quality of our intelligence, which 
cannot be dissociated from the question of recruitment and 
diversity.
    And I do agree with you on the senior levels. You can 
imagine what some of those conversations at the senior levels 
would have looked like if there had been probably more presence 
of Arab and Muslim Americans, a keen cultural understanding of 
that part of the world. And not that they would have been 
different or the policy decisions would have been different, 
but certainly more viewpoints are probably better than one, and 
certainly that more viewpoints, as was recognized--and I have 
in my written testimony--by Sandra Day O'Connor in the Michigan 
diversity case really will make a better institution and a 
better community.
    But I changed my oral remarks because I think that with due 
respect to the first panel, I think there is a bit of a pink 
elephant in the room that is important to discuss, and that is 
the perception by the Arab and Muslim communities about whether 
they are wanted in the Intelligence Community. It is important, 
and it is an important issue about recruitment right now, 
because you can have the best recruitment policies out there 
and they are not going to work if there is a feeling, which 
there clearly is right now--that is no secret within the Arab 
and Muslim communities--of a sense that they are not wanted; 
that it is, as I said in the written testimony, sort of the 
potential threat versus the government official.
    And so I want to talk about ways, having talked to people 
who are interested in the community, certainly myself who am 
very interested in the national security community, about 
bridging some of those gaps. I think that the recruitment 
efforts have to be much more targeted than they have towards 
people who not only can learn the skills, which is obviously 
important, but the people who actually have the skills that we 
need and particular language skills and cultural skills.
    We can--this is not new. We recognize it with parts of--
with our approach to community policing, our integration of 
police forces in urban police departments after the riots in 
the 1960s. We recognized that we had to do targeted recruitment 
to specific ethnic and religious groups, including I daresay to 
religious groups, mosques, Arab Christian facilities, and 
others where there is--trust me, because every time I would 
appear somewhere, I would get 20 cards of people wanting to 
enter government service, a cadre of law-abiding, patriotic 
Arab and Muslim Americans that want to join the force. The 
problem clearly is that many of the policies adopted by the 
United States Government, adopted by every administration, 
actually, because we were dealing with this issue when I was 
working for Janet Reno; we were dealing with the same issues 
that Attorney General Ashcroft is dealing with: the 
relationship between Federal law enforcement and communities 
that are predominantly lawful, but where we have a concern that 
some portion of them may be related to terrorist groups. It 
became, you know, obviously more focused after 9/11, but it is 
something we have been dealing with--both administrations have 
been dealing with.
    And nor do I suggest that the vigorous enforcement of our 
counterterrorism efforts, even if they have a disproportionate 
impact on Arab and Muslim communities, should be stopped simply 
because they may have that different impact. I do think that 
the face matters; however, I do think that had some of the 
lawful and even legitimate policies after 9/11 that had a 
disproportionate impact on the Arab and Muslim communities had 
been--if the face had been different, if there had been more 
outreach to Arab and Muslim leaders, the law enforcement 
experience, FBI agents who could talk to those communities, I 
think the reaction would have been very different. And the 
long-term consequences of that, I think, would have been people 
much more wanting and willing to enter law enforcement, 
national security and the intelligence communities. So I raise 
that in my written testimony.
    I have--in the preliminary research, I suggest where I 
think other recruitment efforts may be focused and where we can 
try to lure people who already have the skills--of course, they 
are going to have to go through security clearances--who can be 
put in and give us the atmospherics of the parts of the world 
that are presently the greatest threat but probably, hopefully, 
their greatest opportunity.
    Those are my both personal and also sort of sense of what 
is going on out there and it is important to say--to call it 
the pink elephant. I think we need to address that. I think we 
can't dance around the fact that there are 10 million Arab 
Americans in America whose resources we definitely need, who 
rightfully or wrongfully feel very alienated from the Federal 
law enforcement Intelligence Community, and we need to figure 
out really helpful, constructive, bipartisan ways to lure them 
in.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. Kayyem follows:]

  Prepared Statement of Juliette N. Kayyem, John F. Kennedy School of 
      Government, Former Member, National Commission on Terrorism

    The subject you are addressing today--Building Capabilities--is a 
very personal issue for me. I am an Arab-American who works in the 
national security community, a perspective that is important to this 
hearing. So, I will begin by relating my personal experience in the 
national security community as it informs what I believe to be 
essential aspects of America's intelligence requirements with respect 
to Intelligence Community personnel.
                               background
    Presently, I am a Senior Fellow at the John F. Kennedy School of 
Government where my work is focused on terrorism, domestic preparedness 
and law enforcement. For the last two years, I directed the Executive 
Session on Domestic Preparedness at the Kennedy School, a research 
program that addressed the domestic preparedness needs of local, state 
and federal policymakers with respect to homeland security. My work 
appears regularly in academic and popular publications and I consult 
with government and private institutions on America's counterterrorism 
strategies. I serve as a national security analyst for NBC News. I am 
also the co-editor of ``The First To Arrive: State and Local Responses 
to Terrorism'' (MIT Press, 2003).
    My entree into the world of national security and terrorism, 
however, was not a straight line. In fact, I began my legal career as a 
civil rights attorney at the Department of Justice. There, I litigated 
cases as a trial attorney. Eventually, I became a Special Assistant and 
then Counsel to the Assistant Attorney General for Civil Rights.
    I am an Arab-American and, to be specific, a Lebanese-Christian. My 
mother was born in Lebanon; my father comes from a small town in the 
Bekaa Valley. I do not speak Arabic. But, I was raised with a keen 
respect for my background and an understanding of the Arab world that 
likely only comes from being raised in that community.
    In 1998, then-Attorney General Janet Reno began a series of 
conversations between the Arab-American community and federal law 
enforcement agencies. At that time, like today, there was concern in 
the Arab-American community about the treatment of immigrants and 
citizens by the INS, FBI and individual U.S. Attorneys Offices. In 
particular, the Attorney General was concerned about a number of cases, 
known as the ``secret evidence'' cases, where individuals were being 
detained by immigration courts based on evidence that they could not 
see or contradict.
    There were, to be blunt, basically no other Arab-Americans at the 
Department of Justice who could sit in on those meetings and serve as a 
bridge for communication. While I had for some time been raising 
concerns at the Department about these cases and the weight of the 
secret evidence, it is just as likely that my presence at those 
meetings had as much to do with my background. I eventually would serve 
as an advisor to Attorney General Reno on national security issues 
related to the conduct of federal law enforcement agencies.
    Those meetings marked the beginning of an important dialogue 
between Arab-American groups and federal law enforcement regarding the 
relationship between their respective communities. What was clear from 
the outset was the extent to which federal law enforcement agencies had 
almost no ties to the Arab community of interest. The FBI and INS are 
predominantly white and predominantly male.
    At about the same time, Congress enacted legislation creating the 
National Commission on Terrorism that would provide an independent 
review of America's counterterrorism efforts. It was formed after the 
African embassy bombings and was chaired by L. Paul Bremer (now the 
civil administrator in Iraq) and included Congresswoman Jane Harman, 
General Wayne Downing and former CIA director Jim Woolsey. Suzanne 
Spaulding served as its Executive Director.
    I, too, was appointed to the Commission as there was a growing 
concern that a commission on international terrorism should be informed 
by at least one Arab-American. To be honest, while I am proud of the 
work of the Commission, I do not doubt that my appointment--at the age 
of 29--had much to do with the fact that there were so few Arab-
Americans who had any experience in national security.
    The Commission issued its report in June 2000. It was a detailed 
and exacting critique of our preparation for the growing threat of 
terrorism. It received some notice, but did not, unfortunately, have 
tremendous impact until after the terrorist attacks of September 11, 
2001. Its recommendations now serve as the foundation for much of the 
governmental reforms now taking place, and many of its members serve in 
senior positions in government related to terrorism.
    The recommendations include issues that will seem familiar to you 
today: the need to buttress intelligence capabilities and, more 
specifically, to buttress quick and reliable translation capabilities. 
The Commission also urged that America's counterterrorism efforts be 
fair and equitable and that America serve as an example of hope and 
justice both for ourselves and for nations struggling towards 
democracy. My presence at that table, I hope, led to important 
discussions about ethnicity, counterterrorism efforts affecting 
particular communities, and the need for greater dialogue and 
understanding.
          the demographics of our national security community
    Because of my background and work, I personally believe that the 
question of the content of our intelligence cannot be disassociated 
from the question of recruitment and diversity in the intelligence 
agency's workforce. I believe that they are fundamentally related in 
three important ways that suggest that America needs to begin a 
strategic recruitment effort to draw Arabs and Muslims into our 
intelligence agencies, rather than chasing them away.
    First, strategically, our law enforcement and intelligence 
communities are woefully inadequate in Arabic translation skills, and 
are often forced to contract out these vital duties. Today, much of the 
human intelligence that our agents go to such extraordinary lengths to 
gather is left unused, simply because it is left untranslated. A larger 
pool of people to choose from for translation services would mean that 
the intelligence we are gathering would actually be utilized.
    It would also mean that we would never have to employ people who 
may pose a security threat. Clearly, I say this in the context of the 
present controversy on Guantanamo Bay. Lately, there has been increased 
discussion of the risks associated with hiring Arab- and Muslim-
Americans or immigrants in America's counterterrorism efforts. 
Specifically, the recent allegations of potential sabotage by U.S. 
personnel on Guantanamo Bay--as many as 10 people who worked on 
Guantanamo Bay are under scrutiny for espionage--have raised concerns 
about the sentiments and allegiances of those we hire. It appears that 
all the men under scrutiny are either Islamic or of Arab descent. I do 
not know the cases specifically, nor do I personally agree with the 
longterm detentions of persons on Guantanamo Bay. But, we do seem 
particularly desperate for translators when public court documents 
disclose that Syrian-born airman Ahmad al-Halabi was under some sort of 
surveillance before he was ever on Guantanamo Bay. Obviously, he should 
never have been given access to the island, let alone prisoners, if he 
was already under suspicion. Yet we are forced to cut important corners 
because we simply do not have a big enough pool of people.
    Second, as was recognized in the 1960s after the race riots in 
America in relation to urban police departments, diversifying our 
national security communities will go far in creating effective bridges 
of communication between Arabs and Muslims and the federal government. 
That relationship today is not a very good one; some of the 
government's efforts are viewed as draconian and unforgiving. We now 
recognize that a community policing strategy--in which local police 
broaden the nature and number of police functions so as to relate 
better to their neighborhoods and the citizenry--coupled with a very 
strategic minority recruitment program has changed the nature of the 
relationship of the cops to the citizenry in many urban jurisdictions. 
We need to change the nature of the relationship between the citizenry 
and our national security community as well. In the end, the 
effectiveness of the policies we adopt will be influenced by those who 
work within government.
    Third, our strategic and cultural understanding of the Arab and 
Muslim world could be enhanced by better integration of all of our 
national security related agencies. It is often said that we need to 
bridge relationships with the Arab and Muslim communities so as to 
greater understand the potential threat of terrorism here in America. I 
find this claim to be without much merit. Indeed, the nineteen 9/11 
hijackers were not at all integrated into local Arab or Muslim 
communities. Instead, a more integrated national security workforce 
would likely provide two important benefits.
    Firstly, it would make our federal intelligence and law enforcement 
communities a more desirable place to work for Arabs and Muslims. 
Presently, there is a palpable tension between Arab and Muslim 
communities and the U.S. government because of detentions, 
interrogations, and strict immigrations policies. For young Arab and 
Muslim Americans, the prospect of serving their country in 
counterterrorism efforts is likely attractive, but also complicated. It 
is not entirely clear that they are wanted, as their relationship with 
our national security agencies tends to be one of suspect and 
interrogator.
    Secondly, the U.S. government is often forced to contract out or 
rely on people with their own potential agendas in order to better 
understand the Arab and Muslim worlds. For example, a recent non-
partisan report suggested that the information the U.S. government was 
receiving from Iraqi dissidents about what post-war Iraq would be like 
was outdated and sometimes ill-informed. This is not necessarily to say 
that our pre-war intelligence would have been more accurate if our 
agencies were better diversified; it is to say, however, that we would 
not have been so dependent on this one source of intelligence.
                   the problem of security clearances
    From the government's perspective, there are significant concerns 
about the security background of recent immigrants or those with ties 
to countries in the Arab region. Once again, my case is illustrative. 
My mother was born in Lebanon, as were 5 of her 9 siblings. Two of her 
sisters were born in Cuba. My security clearance was complicated and 
long. There were few records kept, for example, of their immigration to 
America.
    This fact, however, only suggests that more efforts may need to be 
made to grant those clearances early, not that the effort shouldn't be 
expended. Presently, there is a tremendous backlog of clearance needs, 
a backlog that has been addressed by Congress and will continue to be 
addressed by our security agencies. But to argue, as some have, that it 
is simply too hard to get security clearances for Arab and Muslims 
nationals or citizens is too gross a generalization. There will be hard 
cases, of course, but there will be easy ones as well, people who seek 
to serve their country in a unique and important way.
                     a strategic recruitment effort
    I am in the beginning stages of a research project at the Kennedy 
School related to the question of diversity and national security. It 
seeks to determine the experience of Arab and Muslim Americans in the 
intelligence and law enforcement communities. As yet, I have not been 
able to determine the demographics or representation of Arabs and 
Muslims in our national security agencies. The number is likely to be 
low. For the project, I am also exploring anecdotal evidence that Arabs 
and Muslims hired by the U.S government are finding their unique skills 
underutilized and sometimes facing hostile work environments.
     Though I have only just begun this research, the basic outlines of 
a recruitment strategy for Arab and Muslim Americans are clear. 
Initially, a recruitment effort would need to include the following 
aspects:
          <bullet> Partnering with Arab and Muslim American leaders to 
        attract qualified applicants;
          <bullet> Providing career development opportunities related 
        to the individual's unique skills;
          <bullet> Ensuring a non-hostile workforce;
          <bullet> Providing opportunities for greater dialogue between 
        law enforcement agencies and the communities of interest to 
        promote greater trust and less antagonism;
          <bullet> Recognizing that some counterterrorism efforts will 
        be viewed as antagonistic to certain communities, and taking 
        steps to either end or reduce the potential harm.
    Recently, the Council on Foreign Relations issued a report entitled 
``Finding America's Voice: A Strategy for Reinvigorating U.S. Public 
Diplomacy.'' The bipartisan report argues that the United States needs 
to spend more time and resources on public diplomacy in the Arab and 
Muslim worlds so that we can change the overwhelming negative 
perception about America. It is in America's security interest to do 
so. That assessment seems accurate, but surely part of that effort must 
be to engage those very communities here in America. A government 
recruitment plan that would make our national security agencies better 
reflect areas of the world that are not only a threat, but also an 
opportunity, should be part of that mission.
      There is tremendous discussion today about putting an Arab face 
on our post-war reconstruction efforts in Iraq. The argument goes that 
such a change would provide legitimacy to the occupation in Iraq. I do 
not know whether that is true or not, but I can understand the 
sentiment as it relates to our efforts here at home. A more diversified 
national security community makes sense not merely because of each 
employee's own perspective and the sensitivities that they may bring to 
the table. It may also bolster arguments that those enforcement 
policies we are pursuing are not aimed at any particular religious or 
ethnic group, but rather at identifiable threats and individuals.
    Last year, the Supreme Court addressed the difficult issue of 
diversity in the law school admissions process at Michigan Law School. 
I do not intend to discuss the merits of one particular recruitment 
plan over another. What is important is that we have, as a nation, 
seemed to reach a core consensus on the benefits of diversity in all 
aspects of our life. The majority opinion by Justice O'Connor notes 
favorably a brief filed by high-ranking retired officers and civilian 
leaders of the United States military wherein they wrote ``[b]ased on 
[their] decades of experience (a) highly qualified, racially diverse 
officer corps . . . is essential to the military's ability to fulfill 
its principal mission to provide national security.'' Grutter v. 
Bollinger, et al. (2002) at 18. Given the nature of the threat of 
international terrorism from particular areas of the world, it is 
important to remember, in the words of Justice O'Connor, that 
``participation by members of all racial and ethnic groups in the civic 
life of our Nation is essential if the dream of one Nation, 
indivisible, is to be realized.'' Id. at 19-20. Our national security, 
in the end, will be better served by a focused effort to attract a more 
diverse intelligence workforce. It is in our very strategic interest to 
do so.

    The Chairman. Mr. Diaz.

                    STATEMENT OF MIGUEL DIAZ

    Mr. Diaz. Mr. Chairman, members of the committee, thank you 
for this opportunity to testify this morning on the need for 
greater diversity in the Intelligence Community. The case of 
diversity is clear. Let me lay out some of the basic arguments 
in support of it.
    First, we should encourage diversity within the 
Intelligence Community because it is the right thing to do. The 
U.S. Intelligence Community, like the government as a whole, 
should reflect America. The Intelligence Community's personnel 
should reflect all the variations, cultural diversity, and 
coloration that have made our country great. It demeans us as a 
Nation to have such a wide discrepancy between the proportion 
of the population who are minority and the representation in 
the Intelligence Community. Closing that gap should be a 
national goal.
    Inclusion is a political imperative. Minorities have earned 
their seat at the table where foreign policy is made. We have 
been on the front lines, literally, in carrying out policy in 
Korea, Vietnam, Afghanistan and, more recently, in Iraq. And we 
have too much at stake to remain marginalized within the 
decisionmaking process. I am glad to see that our minority 
leadership in Congress is paying attention to the subject of 
foreign policy and I encourage them to persevere.
    Second and perhaps more importantly, we should pursue 
diversity within the intelligence services because it is the 
smart thing to do. In order for the foreign policy 
establishment, and the Intelligence Community in particular, to 
have the support of the American people, it must look like the 
American people. Historically that has not been the case both 
in the upper echelons of policymaking and in the bureaucracies. 
There is no denying that substantial progress has been made 
with the appointments of Colin Powell and Condoleezza Rice as 
Secretary of State and National Security Adviser, but down in 
the ranks of the State Department and the CIA, there is still a 
long way to go before we can say that these institutions truly 
reflect America.
    We need to take advantage of the fact that in this country 
we have a globalized society, unlike any other country in the 
world, to beef up our intelligence capability. Minorities have 
much to offer in the way of language capabilities, social 
skills, and cultural sensitivities that have been sorely 
lacking in the past. Because of the variety of our national 
origins, we look like the rest of the world, an important 
attribute in the intelligence business. It is a fallacy to say 
that diversity has to come at the expense of merit. 
Intelligence agencies must demand excellence and require all 
employees meet the highest standards of performance. Our Nation 
can afford nothing less.
    But while doing that, we can and must give minorities a 
better environment in which to compete and succeed. In some 
circumstances, this may require a proactive affirmative step. 
While the need to include more minorities may be self-evident, 
how to go about recruiting them in the intelligence service, 
retaining them and promoting them is less clear. There has been 
some progress in all three areas, but the fact that you are 
holding this hearing suggests there is more to do. Retention 
and promotion of minorities seems particularly exigent.
    Based on my 3 years working as an analyst in the 
Directorate of Intelligence nearly a decade ago, I can offer 
some reflections on the subject and I hope they prove relevant 
to the task at hand.
    On the subject of recruitment, I see multiple challenges. 
One is the need to overcome the reservations potential recruits 
may feel about working for the intelligence services. Many 
minorities hail from parts of the world where the CIA has, to 
put it bluntly, a bad name. First generation Hispanics like 
myself had to contend with the negative legacy the CIA had in 
Latin America. I suspect the same applies to Arab Americans, 
Asian Americans and others who have come from the developing 
world. Accusations surfaced a few years ago in some quarters 
that the CIA was complicit in bringing drugs into the country. 
The fact that such absurd accusations resonated with some 
minority groups tests the inevitable resistance the agency 
confronts in recruitment.
    Another challenge that the Intelligence Community faces is 
knowing where to recruit. Historically the agency had a 
reputation for recruiting only from the ivy leagues. There are 
indeed minorities at Harvard, Columbia and Yale, but the odds 
are greater of recruiting qualified minorities, Hispanics, at 
least in schools such as the University of Miami, University of 
Texas, or University of Southern California. I could also 
suggest there are publications better capable of putting 
recruitment ads in front of minority leaders.
    I also wonder whether the Intelligence Community can make 
better use of the minority personnel it already has to reach 
out to the minority community. In my case, I did not come 
across a single minority person during my entire recruiting and 
interview process. I will contend that there is no more 
powerful way to court a minority than being engaged by somebody 
who looks like you, talks like you, or comes from a part of the 
world that you come from.
    Let me now move ahead to the question of retention, where 
my own experience at the agency may be relevant. Joining the 
agency is daunting to everyone coming in, although I suspect it 
may be more so for minorities. At the agency, we are even more 
of a minority than we are on the outside world. The culture of 
secrecy further exacerbates this isolation. Some have to 
contend with those who saw us as tokens. I confess that at 
times I also felt distrusted, as if I was not American enough 
to be there. When you don't fit the bill of what a CIA man or 
woman looks like, this treatment can be very disconcerting.
    Undeniably, there was great pressure on the few of us to 
blend in. It seems to me that the time has come in America that 
we can rejoice in our differences. The reaction of many of us 
was to try to bend over backwards to prove that we belonged, 
that we were American and worthy of trust as everybody else. At 
times, some of us fell to the temptation of overcompensating, 
and, in the course of doing so, lost our sense of perspective, 
a dangerous mistake when your very business is making sound 
judgments. The pressure to blend in was not only cultural but 
also applied to how you carried out your work. Based on my 
experiences, the following are suggestions you might consider:
    Make more of an effort to make the minorities who join the 
agency feel more welcome. I believe that message of welcome 
should be delivered by none other than the CIA Director, both 
in private and in the public manner. The agency could also 
encourage the creation of a network of minority support groups 
to receive and mentor minority newcomers at the very starts of 
their career there. At the very least, new recruits should have 
new opportunity to take advantage of such a support network. 
This support may not be available--may be available, but it was 
not when I was there 10 years ago.
    I would also urge that the agency better treasure the few 
minorities it has been able to attract by entrusting them to 
seasoned managers, managers who have a track record of 
successfully developing minority professionals. The institution 
could be patient and open-minded in handling our adaptation to 
the ways of the agency. A little bit more time and guidance 
could be provided to overcome the historical difficulties 
minorities have had in adopting the DI writing style, a major 
stumbling block for minorities in the past. Bear in mind that 
many of us come from bilingual backgrounds and have a wider 
communications gap that we need to bridge than recruits for 
whom English is a first language.
    Finally, my thoughts on why there might be a dearth of 
minorities in the upper ranks in the Intelligence Community and 
what could be done to rectify the situation. One obvious 
explanation comes to mind. There is not a big enough pool of 
minorities to promote. Not many minorities will be promoted.
    Suspecting that politics may be more of a factor in 
competition for more coveted jobs, I would also recommend that 
more effective monitoring be marshaled to ensure that no 
discrimination takes place. A commission of CIA minority alumni 
can be called upon to play this role.
    Let me conclude by making a particular case for Hispanic 
inclusion in the intelligence service. I believe Latin America 
will pose a greater intelligence challenge in the years to 
come. Terrorism is no stranger to the region. Our economic 
interests have also never been more intertwined. Undoubtedly, 
having a cadre of Latino intelligence analysts who speak the 
language and have a special sensitivity to the region would be 
very valuable.
    I salute you in this initiative to raise the profile of the 
issue of minority inclusion in intelligence, and I hope my 
remarks have proven a value in thinking through on how to make 
further progress in this front. I look forward to answer any 
questions you may have.
    The Chairman. Thank you very much, Mr. Diaz.
    [The prepared statement of Mr. Diaz follows:]

 Prepared Statement of Miguel Diaz, Director of South America Project, 
           the Center for Strategic and International Studies

    Mr. Chairman, members of the committee, thank you for this 
opportunity to testify this morning on the need for greater diversity 
in the intelligence community. The case for diversity is clear. Let me 
lay out some basic arguments in support of it.
    First, we should encourage diversity within the intelligence 
community because it is the right thing to do. The U.S. intelligence 
community, like the government as a whole, should reflect America. The 
intelligence community's personnel should reflect all the variations, 
cultural diversity, and coloration that have made our country great. It 
demeans us as a nation to have such a wide discrepancy between the 
proportion of the population who are minority and their representation 
in the intelligence community. Closing that gap should be a national 
goal.
    Inclusion is a political imperative. Minorities have earned their 
seat at the table where foreign policy is made. We have been on the 
front lines--literally--in carrying out policy in Korea, Vietnam, 
Afghanistan, and more recently Iraq and we have too much at stake to 
remain marginalized within the decision making process. I am glad to 
see that our minority leadership in Congress is paying attention to the 
subject of foreign policy, and I encourage them to persevere.
    Second, and perhaps most importantly, we should pursue diversity 
within the intelligence services because it is the smart thing to do. 
In order for the foreign policy establishment, and the intelligence 
community in particular, to have the support of the American people, it 
must look like the American people. Historically, that has not been the 
case, both in the upper echelons of policymaking and in the 
bureaucracies. There is no denying that substantial progress has been 
made with the appointments of Colin Powell and Condoleezza Rice as 
Secretary of State and National Security Advisor. But down in the ranks 
of the State Department and the CIA, there is still a long way to go 
before we can say that these institutions truly reflect America.
    We need to take advantage of the fact that in this country we have 
a globalized society, unlike any other country in the world, to beef up 
our intelligence capability. Minorities have much to offer in the way 
of language capability, social skills, and cultural sensibilities that 
have been sorely lacking in the past. Because of the variety of our 
national origins we look like the rest of the world, an important 
attribute in the intelligence business.
    It is a fallacy to say that diversity has to come at the expense of 
merit Intelligence agencies must demand excellence and require that all 
employees meet the highest standards of performance. Our nation can 
afford nothing less. But while doing that, we can and we must give 
minorities a better environment in which to compete and succeed. In 
some circumstances, this may require proactive affirmative steps.
    Why we need to include more minorities may be self-evident, how to 
go about recruiting more minorities into the intelligence service, 
retaining them, and promoting them is less clear. I understand that 
there has been some progress in all three areas, but the fact that you 
are holding this hearing suggests there is much more to do. Retention 
and promotion of minorities seems particularly exigent.
    Based on my three years working as an analyst in the Directorate of 
Intelligence nearly a decade ago, I can offer some reflections on the 
subject. I hope that they prove relevant to the task at hand.
    On the subject of recruitment, I see multiple challenges. One is 
the need to overcome the reservations potential recruits may feel about 
working for the intelligence services. Many minorities hail from parts 
of the world where the CIA has--to put it bluntly--a bad name. First 
generation Hispanics, like myself, had to contend with the negative 
legacy the CIA had in Latin America, for example. I suspect the same 
applies to Arab Americans, Asian Americans, and others who have come 
from the developing world. Accusations surfaced a few years back in 
some quarters that the CIA was complicit in bringing drugs into the 
country. The fact that such absurd accusations resonated with some 
minority groups attests to the inevitable resistance the agency 
confronts in recruitment.
    Another challenge that the intelligence community faces is knowing 
where to recruit. Historically, the agency had a reputation for 
recruiting only from the Ivy leagues. There are indeed minorities at 
Harvard, Columbia, and Yale, but the odds are greater of recruiting 
qualified minorities (Hispanics at least) in schools such as the 
University of Miami, University of Texas, or University of Southern 
California. I could also suggest there are publications better capable 
of putting recruitment ads in front of minority readers than the 
Economist or the New York Times.
    I also wonder whether the intelligence community can make better 
use of the minority personnel it already has to reach out to the 
minority community. In my case, I did not come across a single minority 
person during my entire recruiting and interview process. I would 
contend that there is no more powerful way to court a minority than 
being engaged by somebody who looks like you, talks like you, or comes 
from a part of the world that you come from.
    Let me now move ahead to the question of retention, where my own 
experience at the agency is relevant. Joining the agency is daunting to 
everyone coming in, although I suspect it may be more so for 
minorities. At the agency, we are even more of a minority than we are 
in the outside world. The culture of secrecy, further exacerbates this 
isolation. Some have to contend with those who saw us as ``tokens.'' I 
confess that at times I felt distrusted, as if I was not ``American'' 
enough to be there. When you don't fit the bill of what a CIA man or 
woman looks like, this treatment could be very disconcerting.
    Undeniably, there was great pressure on the few of us to blend in. 
It seems to me the time has come in America that we can rejoice in our 
differences. The reaction of many of us was to try to bend over 
backwards to prove that we belonged: that we were as American and 
worthy of trust as everyone else. At times, some of us fell to the 
temptation of overcompensating, and in the course of doing so, lost our 
sense of perspective, a dangerous mistake when your very ``business'' 
is making sound judgments. The pressure to blend in was not only 
cultural, but also applied to how you carried out your work. Based on 
my experiences, the following are some suggestions you might consider.
    1. Make more of an effort to make the minorities who join the 
agency feel more welcome. I believe that message of welcome should be 
delivered by none other than the CIA Director, both in a private and 
public manner. The agency could also encourage the creation of a 
network of minority support groups to receive and mentor minority 
newcomers from the very start of their careers there. At the very least 
new recruits should have the opportunity to take advantage of such a 
support network. This support may now be available, but was not when I 
was there ten years ago.
    2. I would also urge that the agency better treasure the few 
minorities it has been able to attract by entrusting them to seasoned 
managers, managers who have a track record of successfully developing 
minority professionals.
    3. The institution could also be patient and open-minded in 
handling our adaptation to the ways of the agency. A little bit more 
time and guidance could be provided to overcome the historical 
difficulties minorities have had in adopting the DI writing style, a 
major stumbling block for minorities in the past. Bear in mind, that 
many of us come from bilingual backgrounds and have a wider 
communications gap that we need to bridge than recruits for whom 
English is the first language.
    Finally, let me share my thoughts on why there may be a dearth of 
minorities in the upper ranks of the intelligence community and what 
can be done to rectify the situation. One obvious explanation comes to 
mind. If there is not a big enough pool of minorities to promote, not 
many minorities will be promoted. Suspecting the politics may be more 
of a factor in competition for more coveted jobs, I would also 
recommend that more effective monitoring be marshaled to assure that no 
discrimination takes place. A commission of CIA minority alumni can be 
called upon to play this role.
    Let me conclude by making a particular case for Hispanic inclusion 
in the intelligence services. I believe that Latin America will pose a 
greater intelligence challenge in the years to come. Terrorism is no 
stranger to the region and its spread is easier now than ever before. 
Our economic interests have also never been more intertwined. 
Undoubtedly, having a cadre of Latino intelligence analysts who speak 
the language and have a special sensitivity to the region could be very 
valuable.
    Again, I salute you in this initiative to raise the profile of the 
issue of minority inclusion in intelligence and I hope my remarks have 
proven of value in thinking through how to make further progress on 
this front. I look forward to trying to answer any questions you may 
have. Thank you.

    The Chairman. We are going to start the questioning with 
Mr. Ruppersberger.
    Mr. Ruppersberger. It is a shame that the first panel 
didn't hear you all because I think they would have learned a 
lot. And I am very impressed with the testimony. I think 
today's testimony shows that we do need diversity within the 
Intelligence Community, and it is not just to be politically 
correct or meet certain goals. The bottom line, that is the 
future of the Intelligence Community and world peace as far as 
we are concerned.
    So let us talk about recommendations or how we get to where 
we need to be. We have identified that problem. Number one, Mr. 
Bush, you seem to have an effective program, and you are in 
business and we all know Northrop Grumman. Give me your opinion 
why you think you are doing the job and our Intelligence 
Community is not. And I know you have a lot of contracts and we 
will protect you from that.
    Mr. Bush. From a broad perspective, we have some 
flexibility that perhaps our government counterparts do not 
enjoy. Part of our flexibility is a bit more internal 
discretion. We are able to go out and financially support, 
based on our own view of what needs to be done, development 
programs, K through 12. Some years ago we figured out--it 
wasn't that students got to college before making decisions 
about what they were going to be, it was long before that. We 
have taken proactive measures to address the K through 12 
elementary system and high school system throughout our area, 
and we do it across the country as well with a focus of 
creating a broader pool of people. In aggregate, we are 
collectively failing at that because the enrollment in math and 
science continues to decline. But nevertheless, my point is we 
have some flexibility that those on the government side don't 
have necessarily.
    Mr. Ruppersberger. Let me ask anyone on the panel, do you 
think the civil service issues have a big deterrent, especially 
what you talked about, General, about bringing people in mid-
level or higher level? Unless we do something about that--I 
mean, intelligence is our security. And it is national 
security. Do you all have comments on the panel of how our 
civil service laws now reflect on what is going on as far as 
intelligence and diversity?
    General Harding. I would like to say to some degree not 
just the civil service system, but the military system has 
processes of moving up a ladder and structure that goes back to 
the flexibility that we have that neither the civil service nor 
the military system may provide. An example is over the last 
couple of months it was very easy for me to find a linguist who 
wanted to not be deployed. It is also easy to find linguists 
who only wanted to be deployed. The Nation needs both. When 
either one gets stuck in a system that forces them to do 
something they don't want to do, they tend to want to leave and 
look to us to provide them the flexibility, to say that ``The 
Nation needs folks like you back here to do documentation 
exploitation, because we have a contract and we can keep you 
here and provide you stability. You always want to deploy, and 
I can move you to a number of locations.''
    We have that flexibility. While I was in the military, I am 
not sure that they had that.
    Mr. Ruppersberger. You feel that we need to change our 
existing laws as it relates to civil service, as it relates to 
the Intelligence Community? Anyone have a comment?
    General Harding. I would say to the extent--we are all 
thinking this issue very seriously--and to that extent, I would 
say it should be reviewed with a bias toward changing.
    Mr. Bush. I have an opinion on that as well. The ability or 
flexibility of the Intelligence Community--and I think we see 
it in other parts of government--to compete, not only capturing 
talent but also retaining talent is critical and is impaired by 
some of the restrictions in the civil service structure.
    Mr. Ruppersberger. You have some of those issues, and NSA 
is an example as it relates to technology and the new 
generation that is much more competent in that area. So there 
is a lot of competition, too.
    Ms. Kayyem, your comments--and I think you were the first 
to bring it up today--but the Arab Muslim relationships and how 
important it is that we as Americans and the Muslim community 
not perceive that we are at war with Muslims. That was my 
biggest concern, more than anything about going to war with 
Iraq, that that would be perceived. And I think with the help 
of a lot of Muslims in the United States a lot of that was 
deterred, but it is still out there. And you have to learn a 
lot more about who you are dealing with, and why people react; 
and now that we are in Iraq, it is not just that we are there 
and maybe their life is better because of what happened with 
Saddam Hussein. But if we are going to help that country move 
to the next level we have to understand what they want, not 
necessarily what we want, as far as their everyday life is 
concerned.
    I was a county executive during 9/11 in Baltimore County, 
Maryland, and we had a mosque of about a thousand Muslims, and 
they had a school. And as soon as 9/11, I sent a couple of 
police cars over to protect them. By doing that I have been 
extremely close to the Muslim community. That was an act they 
couldn't believe that it was done. And we have tried to develop 
relationships. Now, as a result of those relationships, there 
are a lot of concerns about the PATRIOT Act and things of that 
nature. But what recommendations would you have as far as 
dealing with the Muslim community and as it relates really to 
recruitment of what we need in the area of intelligence?
    Ms. Kayyem. Well, a couple of them I mentioned. And let me 
pick up on one point you just said about sending the police 
cars on 9/11. I have to say little gestures like that--and I 
don't mean to belittle you--but gestures like that go an 
incredibly long way for a community. You have to remember that 
the Arab Muslim community that left the Middle East for a 
reason, totalitarian government--you know, no hope for a 
future--adore America because it provided them significant 
opportunity. And so things like that go a long way.
    I think one thing is we can't wait until the next terrorist 
attack to do this. We have known about this problem for 10 
years, the diversity in the Intelligence Community. And at that 
stage, and even now, there is no question. There is a lot of 
discussion about the mosques and whether they are recruitments 
for terrorist fund-raising. There are legitimate lawful mosques 
with legitimate leaders who have people who are young 
professionals, speak the languages, who would--who need to be 
approached, who need to be talked to by law enforcement 
agencies, the Intelligence Community to get it out there.
    Whatever recruitment--as I said before, whatever 
recruitment effort that was discussed by the first panel, it is 
just not being heard, it is not being heard by the community. 
The message they are hearing is unfortunately the PATRIOT Act 
or sort of the questioning things like that, so I think the 
counter important message needs to get heard a lot probably 
needs to be more focused.
    I also mentioned something in talking about the structure. 
The issue of security clearances is obviously an issue that is 
much bigger than this discussion and how long it takes. The 
people who are doing security clearances I think need to be a 
little bit more sensitive about talking to other people about 
peoples' background, where they come from, where their families 
come from. For example, documentation of the proof that my 
mother and seven siblings were born in Lebanon is very 
difficult for the 1940s and 1950s. Another two were born in 
Cuba. You can imagine from the FBI agents' perspective that 
list, seven people from Beirut and two from Cuba, didn't look 
too promising, but I am okay.
    I think discussions like--and I know people are trying to 
attract the Muslim and Arab community. I am very optimistic 
about this just based on both my professional research and just 
being out there in this world. I think that if we can tap into 
an enthusiasm for patriotism and enthusiasm for working in this 
world in the Intelligence Community and law enforcement 
communities and if we can just harness it more specifically, I 
think we can cure maybe some of these problems, and in the end, 
you know, maybe actually change some of the policies adopted by 
government, which may not--whichever administration--may be a 
good thing.
    Mr. Ruppersberger. The issue of security clearance is an 
issue that we all have to look at. Congressman Goss and 
Congresswoman Harman have discussed that before, how it is 
antiquated, if when we are trying to go out and recruit 
diversity in individuals. Right now in the Arab or Hispanic 
community, the different areas and hot spots in the world, a 
lot of people aren't going to wait for a long period of time. 
Because we did it one way, we have to really evaluate it. And 
there are ways to make sure and there are checks and balances.
    And I only raise this because it is something after this 
hearing, the more that I have been on this committee, that this 
whole security clearance has to be looked at. We will be 
sitting in a room with 15 people, even for CIA, you ask one 
question and half the room has to go out. That is ridiculous. 
And the need to know is fine. And if there is a breach, then we 
are going to deal with it. That is part of the network that has 
to be changed. Do you agree?
    Ms. Kayyem. If you are talking about people right out of 
universities who, based on my experience and I am sure others', 
it is not like you have a job and are waiting to get the next 
job. You talk about the financial issues involved especially 
with immigrant communities; it may not be as financially sound 
as others. It is a burden they just can't wait for as compared 
to if you were presently employed.
    Mr. Ruppersberger. I meant no disrespect to Ms. Harman 
about ivy league schools, but I agree with you that they may 
need to recruit--there are a lot of good people that are out 
there that you need to identify them. If you are trying to get 
4.Os from the ivy league schools, you will get a lot of 
intellectual individuals, but you may not get the best. It is 
important we look at not only in diversity in color and 
culture, but look at diversity in education and backgrounds and 
things of that nature, too.
    The Chairman. Thank you, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. I do agree with that 
remark. I think my friend, Ms. Kayyem, also went to Harvard Law 
School.
    Ms. Kayyem. I am married to one of the professors.
    Ms. Harman. I would like to extend a warm welcome to this 
panel. I think the testimony is excellent. Juliette Kayyem and 
I served on the National Commission on Terrorism, also known as 
the Bremer Commission. Jerry Bremer was the Chair and did 
valuable work, along with Suzanne Spalding who is the executive 
director. And Wes Bush heads a very critical part of Northrop 
Grumman, aided adeptly by Dan McLean behind him. And that part 
used to be called TRW in large part.
    And I just want to tell a tiny story about TRW, which is 
that 5 or 6 years ago the then-Israeli Minister of Defense came 
to the South Bay of Los Angeles because he wanted to visit TRW, 
because he wanted to thank the TRW workforce for its work on a 
program called THEL, the Theater High Energy Laser program, 
which is now quite well along and is a program that will use a 
laser mounted on a mobile platform to shoot down Kayusha 
rockets to be launched against Israel's northern border or 
against any war theater by anyone. This is not just a program 
that has application in Israel.
    At any rate, we went to Redondo Beach where TRW is 
headquartered, and now part of Northrop Grumman, as I said, and 
the program manager of the THEL program explained the program 
to the Israeli Minister of Defense. And her name is Joanne 
Maguire. And it was enormously impressive to have this very 
well-qualified woman in charge of this very successful program 
explaining it to a high-level foreign official. She has moved 
to an another aerospace company but she still is enormously 
talented.
    And it is to the great credit of some of the aerospace 
firms that they are not just growing but promoting and 
rewarding women and minorities in senior positions. So thank 
you.
    I just want to ask you one question, and it is the same 
question I asked the prior panel. Let us see what your answers 
are. That question is about perceptions and cultural awareness. 
I was recently at the CIA with Ms. Spalding and others, getting 
a briefing by the highest-level folks who wrote the 2002 
national intelligence estimate on Iraq, and all of the white 
males that did that were facing me. My question to all of you 
is, if we had more diversity at the top levels of our 
Intelligence Community, would the cultural awareness that 
they--that this diverse workforce brought to the effort to 
write good analytical products and other things perhaps make 
those products different? And in the case of understanding 
Saddam Hussein and his intentions with respect to WMD, do you 
think we might have had more accurate information?
    Ms. Kayyem. Short answer, yes. I mean as I discuss in my 
written testimony, I don't know if it would have led us to 
different policy conclusions. I think we may have headed that 
way anyway, but I certainly think that at least some of the 
perceptions that we have of Saddam Hussein's conduct and his 
relationship to Syria, Iran, Jordan, Lebanon and his--for want 
of a better word Arab, machismo attitude that he really held on 
to may have been part of the discussion, you know, how--what 
could be animating him besides the fact that he potentially had 
the weapons? I think more--as importantly, the perception, the 
understanding of the Arab street would have been vitally 
changed if that table--the table had looked very different, 
because I think people who have sort of current ties to the 
Arab street or Muslim street in the sense of family or visits 
or that sort of dinner table analogy that I use probably would 
have been clear about the potential reaction, which is where we 
are right now.
    Ms. Harman. Any other comments?
    General Harding. I absolutely agree with the comments you 
made.
    Mr. Diaz. I found a lot of institutional pressure at the 
agency to basically not rock the boat. And especially as a 
minority person, you really didn't want to stick your head out 
too far. I spent 10 years as a Wall Street economist and 
strategist for an investment bank. And the pressure there, 
interesting enough, was be counterintuitive, basically come up 
with something that nobody else had. And that is where the 
rewards were. I think--my experience, I think it led to better 
analysis and better work.
    Mr. Bush. I might offer a perspective, and I think 
Secretary Teets said it very well, that diversity always 
changes your thoughts. It changes the outcomes in any 
decisionmaking process. We value that within our corporation, 
and we have a diverse leadership team. I go in personally into 
those conversations thinking we might have one outcome, and 
very often come out with a very different outcome because of 
the diversity of thoughts and perspectives. So it always adds 
value, and I think we would all agree on that.
    Ms. Harman. I appreciate that.
    I don't have any further questions, Mr. Chairman. But I 
just would note that you and I met with some representatives of 
the 9/11 victims a couple of weeks ago, and one of their 
comments--in fact, their strongest comment--was that we don't 
do enough in public in this committee and in our Senate 
counterpart committee. I hope they are tuning in today. I see 
cameras in the room.
    This hearing and the testimony we have received and the 
comments by the members on a bipartisan basis I think is a high 
mark for this committee, and I am very proud of playing a small 
role in it. And I would like to thank all of our colleagues and 
staff for the role that they have played, and our witnesses, 
putting out there to the public something we all feel, I think 
to a person, is critically important.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Harman. I know the time is 
running.
    Gentlemen, do you have pressing questions you need to get 
in?
    Mr. Hastings. Mr. Chairman, I wish, if I could, to make one 
suggestion; and that is that the testimonies of our witnesses, 
that have been outstanding and scintillating, be prepared and 
be sent forward to the bureaucrats who, because of time 
constraints, had to leave, with the thought in mind that they 
would be encouraged to learn from many of the things that, in 
my view, were accurate reflections of the state that we are in.
    Secondly, I think it would be helpful if the committee were 
to look at all of the testimony with an eye toward potential 
legislation that might remedy some of the problems or model 
ourselves after some of the things that have been done, for 
example, at Northrop Grumman to give the Intelligence Community 
a great deal more flexibility in terms of going after certain 
students.
    And picking up on Ms. Kayyem's point, one of the things 
that needs to be understood is, today's young people grew up in 
a culture where they want to be rich quick. And that's all of 
them; it doesn't matter where they come from. And wanting to do 
that allows that we are going to have to have monetary 
incentives of major proportions in order to be able to recruit 
the skills mix that is needed.
    Mr. Diaz points out something that I think is vital with 
regard to the pressures, and I think Ms. Kayyem would have said 
the same thing with respect to Arabs. General Harding has known 
it himself personally, as well, in growing up; the Agency would 
be wise to hire all these people as consultants to give them 
some better understanding about how to get around some of the 
attorneys and civil service and all of those kinds of things.
    One hundred percent of the new senior-level people in the 
Intelligence Community are white males. Now, I don't have 
anything against white males, and I ain't Howard Dean either, 
but the fact of the matter is, the last six hires I made--one 
Haitian, two Hispanics, two females, and one person of the 
Jewish faith, and I am looking for an Arab. And the reason I am 
doing that is because I want that diversity in my office. And 
if we want it on this staff, if we want it at Northrop Grumman, 
if we want it at the CIA, we can make it happen.
    Thank you, Mr. Chairman, and thank you all.
    The Chairman. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And, again, I thank you 
and the ranking member for holding this very important hearing. 
And I should also point out that the compelling testimony that 
we have heard from all the panelists on this panel, in 
particular Mr. Diaz, we would have had similar insight from Mr. 
Fourquet, although he was pulled off the panel by the 
administration, and that was because he was going to be frank 
and honest, as a lot of you have been.
    And so one question I would have, Mr. Chairman, is it 
possible to have a closed hearing for on this issue? Because it 
is my understanding that Mr. Fourquet has been given the 
flexibility to testify before the committee if it is a closed 
hearing. Would it be possible?
    The Chairman. I suspect it is definitely possible. I could 
advise you that I had asked, as I promised at the beginning, 
that we would try to have further explanation. I am told that 
that is being faxed as we speak. In fact, saying right now, 
members will have five legislative days to submit extraneous 
material for the record so they will be assured his thoughts 
will not be excluded, and that the opportunity for him to share 
with us his views will be available in the future.
    However, the problem was whether he was speaking for 
himself or whether he is speaking for the government. As you 
pointed out, or as I pointed out, there is some legal action 
going on that the government is very interested in maintaining 
a consistent statement on, since they are in court on some of 
these matters.
    Mr. Reyes. And I certainly understand that. But I think--as 
we have seen here this morning by the testimony of both panels, 
I think it is a lot like the guy that refuses to go to AA 
because he knows he doesn't have a problem.
    The first panel, everything is great. When Mr. Hastings 
made mention that we talked among ourselves after hearing the 
testimony of the first panel, we might as well go home because 
there isn't any problem here, and the reality is, we have got 
to send a clear message to the Intelligence Community that they 
have a huge problem.
    The first step may be having them accept the fact that they 
have a problem and that we cannot go, as the Department of 
Defense is trying to go, with giving them the flexibility to 
provide a work force that has like minds with like opinions 
that lead to a yes-yes environment, in large part because it is 
going to get us into a serious, serious dilemma and possibly 
very quickly.
    There are several concerns that I have that I want to put 
into the record here. The first one is that since I have been 
on this committee and working the issue of diversity, there are 
some minority employees of the Intelligence Community that have 
complained that there is a tendency, because the Intelligence 
Community operates in the black, to pit one minority versus 
another. That is a very real issue, a very real problem that 
has been confirmed by a number of individuals that would make 
that testimony available.
    The other one is that when we talk about talent, that which 
is represented particularly on this panel, the Fourquets, the 
Diazes, the Kayyems, all would make a significant and 
extraordinary contribution to the Intelligence Community if 
given an opportunity.
    We have heard the testimony from the first panel that 
apparently there is no problem, so there is no plan to provide 
opportunities to people like Mr. Diaz, Ms. Kayyem, and perhaps 
General Harding to come in at a level where they can make a 
difference.
    One of the statistics that I didn't get to read to the 
first panel was that all the minorities in the Intelligence 
Community seem to be concentrated in the GS-3 to GS-6 level. 
Well, it is not too hard to figure out that they are not going 
to have any kind of input in the direction of the recruitment, 
of the diversification of the Community, and all of those 
things that are so important. These panelists would have; they 
get it. They ought to be given an opportunity to get in to the 
Intelligence Community to make a meaningful contribution and a 
difference in an area that is vital and critical to our 
national security.
    The last point I would like to make, and with apologies to 
the panelists because the time crunch has caught up with us--
because I have a ton of things that I would have liked for each 
one of you to have commented on based on this; and that is why 
I am kind of summarizing it. The last thing I would ask, Mr. 
Chairman, is there a possibility, or what is the process, the 
procedure, for our committee, the Intelligence Committee, to 
put together a commission or a working group or an advisory 
panel comprised of individuals like this that are willing to 
come in and take a look at what we are doing, take a look at 
the things that have been done and the things that haven't been 
done? And not in a vacuum, because we have the experience 
there; we have a well-grounded, multitype experience.
    If the Intelligence Community looked exactly as this panel 
does, we would have no problem. But it doesn't, and we need to 
get there.
    So is there a process where this committee could possibly 
put together or entertain putting together a commission to help 
us in this violation area?
    The Chairman. That would be a committee decision and 
certainly something the committee can undertake, if you wish to 
pursue it.
    Mr. Reyes. And, again, thank you so very much, Mr. 
Chairman. I know at times we are kind of pains in the butt 
about specific issues. But I really think this is a vital and 
important and worthwhile issue to pursue.
    And, again, thank you so very much for your candid 
testimony. We definitely appreciate your contribution to this 
great country of ours. Thanks.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Reyes.
    One of the reasons we had this hearing--as we have done 
this in the past, and we will continue to do it in the future 
would be my hope--is to emphasize the fact that it is a matter 
of interest to the committee; and we take oversight in this 
area very responsibly. And if there are constructive ways to 
help with the issue as the legislative branch, we should pursue 
them. I think that is all fair game for us.
    I would like to conclude with thanks also. I have actually 
had a good deal of conversation on the subject of diversity in 
the past couple of years. My perspective comes a little 
different.
    I happen to be one of those white males, so my view has 
been to look at it more from the perspective of what is it that 
the Intelligence Community needs to do its job in the best 
possible way. And I firmly believe that we need an 
extraordinary broad and deep commitment to the entirety of the 
richness of our Nation's background to do that.
    I start with loyal Americans. And when I hyphenate 
Americans, I always put American first. And I think if we do 
that, we sometimes have an easier task explaining what we are 
about.
    I was making an address yesterday to some former 
intelligence people, and I made the point that one of the new 
dimensions that I think we have in front of us in the 
Intelligence Community is to make sure we get away from what 
some might call an old shibboleth, some might call an old 
truth--it depends on your perspective. Again, in my time in the 
Agency, there was a tendency to recruit in your own image. I 
think if we limited the potential of the Intelligence Community 
to just Ivy Leaguers recruiting Ivy Leaguers, we would get Ivy 
League results.
    Now, I have a lot of confidence in the Ivy League, and I 
think it has served our Nation and the world very well, but it 
is not the whole thing. Now, I think that it is a great launch 
pad, and I certainly feel proud to have been an Ivy Leaguer, 
but I have learned there is much more. So I think getting away 
from recruiting in your own image, and setting some of the 
goals that I have heard Mr. Reyes and Mr. Hastings and Ms. 
Harman espouse here today, is pretty much saying the same 
thing, but just coming at it from different ends of the 
spectrum.
    I think this hearing has been good. I did want to point 
out, lest I get reminded later by some angry ladies, that there 
is somebody called Joan Dempsey, who is now, in fact, the 
Executive Director of the President's Foreign Intelligence 
Advisory Board; and then there is a lady who considers herself 
part of the national security program named Condoleezza Rice, 
who might take umbrage at the fact that she is not the highest 
ranking member in the Intelligence Community.
    So I don't know whether that is a debate we want to have or 
not; I just need to know, we are thankful for all of those 
people, and we probably should end saying that that proves the 
point that we are richer for being observant about the question 
of diversity.
    I thank you all. We will adjourn this meeting.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
